<html>
<title> - [H.A.S.C. No. 113-90]FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE DEPARTMENT OF THE AIR FORCE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                                     

                         [H.A.S.C. No. 113-90]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2015

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                   FISCAL YEAR 2015 NATIONAL DEFENSE

                      AUTHORIZATION BUDGET REQUEST

                         FROM THE DEPARTMENT OF

                             THE AIR FORCE

                               __________

                              HEARING HELD

                             MARCH 14, 2014

                                     
[GRAPHIC] [TIFF OMITTED] 




                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

87-622 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


                                     
                      COMMITTEE ON ARMED SERVICES
                      
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                DAVID LOEBSACK, Iowa
BILL SHUSTER, Pennsylvania           NIKI TSONGAS, Massachusetts
K. MICHAEL CONAWAY, Texas            JOHN GARAMENDI, California
DOUG LAMBORN, Colorado               HENRY C. ``HANK'' JOHNSON, Jr., 
ROBERT J. WITTMAN, Virginia              Georgia
DUNCAN HUNTER, California            COLLEEN W. HANABUSA, Hawaii
JOHN FLEMING, Louisiana              JACKIE SPEIER, California
MIKE COFFMAN, Colorado               RON BARBER, Arizona
E. SCOTT RIGELL, Virginia            ANDRE CARSON, Indiana
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             DANIEL B. MAFFEI, New York
JOSEPH J. HECK, Nevada               DEREK KILMER, Washington
JON RUNYAN, New Jersey               JOAQUIN CASTRO, Texas
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
STEVEN M. PALAZZO, Mississippi       SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
                        Michele Pearce, Counsel
                 Mike Casey, Professional Staff Member
                         Nicholas Rodman, Clerk
                         
                         
                           C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Friday, March 14, 2014, Fiscal Year 2015 National Defense 
  Authorization Budget Request from the Department of the Air 
  Force..........................................................     1

Appendix:

Friday, March 14, 2014...........................................    59
                              ----------                              

                         FRIDAY, MARCH 14, 2014
FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                      DEPARTMENT OF THE AIR FORCE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Sanchez, Hon. Loretta, a Representative from California, 
  Committee on Armed Services....................................     2

                               WITNESSES

James, Hon. Deborah Lee, Secretary of the Air Force..............     3
Welsh, Gen Mark A., III, USAF, Chief of Staff, United States Air 
  Force..........................................................     9

                                APPENDIX

Prepared Statements:

    James, Hon. Deborah Lee, joint with Gen Mark A. Welsh III....    67
    McKeon, Hon. Howard P. ``Buck''..............................    63
    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    65

Documents Submitted for the Record:

    DOD Policy Memorandum submitted by Secretary James...........   100
    List of Keesler Awards.......................................    98
    New York Times article, ``U.S. Says Russia Tested Missile, 
      Despite Treaty''...........................................    93
    Table summarizing drawdown of A-10 positions by Air Force 
      Specialty Code at Davis-Monthan Air Force Base.............   102

Witness Responses to Questions Asked During the Hearing:

    Mr. Bishop...................................................   106
    Mr. Bridenstine..............................................   112
    Mr. Enyart...................................................   111
    Dr. Fleming..................................................   109
    Mr. Forbes...................................................   106
    Mr. Garamendi................................................   106
    Mrs. Hartzler................................................   111
    Mr. Lamborn..................................................   108
    Mr. McIntyre.................................................   105
    Mr. Nugent...................................................   112
    Mr. Palazzo..................................................   112
    Mr. Scott....................................................   111
    Ms. Speier...................................................   108

Questions Submitted by Members Post Hearing:

    Mr. Barber...................................................   133
    Mr. Bishop...................................................   123
    Mr. Brooks...................................................   140
    Mr. Conaway..................................................   129
    Dr. Fleming..................................................   137
    Mr. Forbes...................................................   115
    Mr. Franks...................................................   124
    Mr. Garamendi................................................   127
    Mr. Johnson..................................................   130
    Mr. Lamborn..................................................   132
    Mr. Langevin.................................................   116
    Mr. LoBiondo.................................................   119
    Mr. Maffei...................................................   138
    Mr. McKeon...................................................   115
    Mr. Peters...................................................   139
    Mr. Rogers...................................................   123
    Mr. Scott....................................................   140
    Mr. Shuster..................................................   126
    Ms. Tsongas..................................................   125
    Mr. Veasey...................................................   141
    Mrs. Walorski................................................   141

 
             FISCAL YEAR 2015 NATIONAL DEFENSE 
              AUTHORIZATION BUDGET REQUEST
                 FROM THE DEPARTMENT OF 
                     THE AIR FORCE

                        ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Friday, March 14, 2014.
    The committee met, pursuant to call, at 9:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    I want to thank you all for joining us here today as we 
consider the fiscal year 2015 budget request for the Department 
of the Air Force. I appreciate our witness testimony, and their 
support of our airmen.
    Joining us today are the Honorable Deborah Lee James, 
Secretary of the Air Force, and General Mark A. Welsh, Chief of 
Staff of the Air Force. And he has brightened up the room a 
little bit by inviting his wife, Betty, and his daughter, Liz, 
to be with us. Thank you for joining us.
    I want to especially welcome Secretary James, the 23rd 
Secretary of the Air Force, as this is her first posture 
hearing before our committee. We are also delighted that she is 
a former HASC [House Armed Services Committee] staff member. In 
fact, we were talking just before we came in here, and she 
pointed out to us where one of her offices was in her 10-year 
tenure on the staff. Happy to have you back. Welcome back.
    While this committee and you, General Welsh, have warned 
about the consequences of cuts to our defense budget, I don't 
think policymakers in Washington or the American people really 
understand how much has been cut, and what it means.
    For the Air Force, what it means is that although the 
budget request highlights reinvestments in readiness, the Air 
Force still cannot meet its readiness needs until 2023. Let me 
read that again, 2023; 10 years almost from now. That is how 
big the readiness deficit is.
    The cuts that we made over the last couple of years are so 
deep, and the budget forecast into the future with--what is our 
problem? Sequestration. How soon we forget. But that has 
basically flattened out into the future, so to try to refill 
the hole with the limited resources in the future, 10 years 
just to get us back to where we need to be in readiness.
    And second, the Air Force is now faced with making 
difficult force structure tradeoffs. In this year's budget 
alone, the Air Force is retiring two pretty good aircraft just 
because we don't have the resources to maintain them. And these 
aircraft have unique capabilities that the combatant commanders 
that we have already had in the hearing process to this point 
need that aircraft. It is interesting.
    People before you, General, have said that you were an A-10 
pilot, and then kind of indicated that you suggested getting 
rid of the A-10. It is amazing how things work. But I think the 
ones that we should probably be asking about the A-10s are the 
ground forces that have their lives saved because of the A-10 
and the pilots that have flown them; and I understand the 
dilemma we are facing.
    General Welsh, you said it best when you posed the 
question: Do we want a ready force today or a modern force 
tomorrow? I know the Air Force is trying to make the best of a 
bad situation, as all the services are. But I fear that the way 
we are heading we will have neither.
    Our Nation expects our air forces to be superior and to be 
ready. We don't want to go into any fair fights. Whether to 
deploy to reassure our eastern European allies, to monitor 
missile launches around the world, to provide close air support 
and intelligence to our troops in Afghanistan, which of those 
missions would we like to eliminate? Yet, our technological 
superiority is eroding in the airspace and cyberspace. Our 
forces are already strained in just meeting the day-to-day 
requirements, much less crisis or conflict.
    I said this on Wednesday to the Navy and Marine Corps and I 
will say it again today, is this the Air Force we want for our 
Nation? Lastly, while we continue to debate funding and force 
structure, we cannot forget the values and standards to which 
we hold our military. Integrity matters, leadership matters. 
The vast majority of our service members embody those values 
daily.
    Unfortunately, we have read too many stories recently that 
reveal behavioral and cultural problems that have permeated the 
nuclear enterprise. Manning our Nation's nuclear deterrent is 
an immense responsibility and I know there are many airmen who 
bear this duty with the utmost skill and professionalism. 
However, a few bad eggs put at risk the mission and taint the 
record of the rest of the Air Force. That cannot be allowed to 
happen.
    I hope these sobering remarks remind us not to lose sight 
of our shared values and the vital importance of reversing the 
dangerous budget trajectory. And I look forward to your 
testimony here today.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 63.]
    The Chairman. Ms. Sanchez.

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Ms. Sanchez. Thank you, Mr. Chairman, and both to the 
Secretary and to the General, it is a pleasure to have you 
before us today.
    General, I often use your speech at USAF <dagger> to my 
leadership classes back home, so I am grateful to have you here 
today.
---------------------------------------------------------------------------
    <dagger> Ms. Sanchez is referring to the U.S. Air Force Academy 
(USAFA).
---------------------------------------------------------------------------
    I will be submitting Ranking Member Smith's opening 
statement for the record, Mr. Chairman.
    The Chairman. Without objection, so ordered.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 65.]
    Ms. Sanchez. Before we have the witnesses give their 
testimonies, I just want to let you know that I am looking for 
in particular two areas today of discussion.
    The first, I continue to be extremely concerned with 
respect to the leadership and personnel within the ICBM 
[intercontinental ballistic missile] nuclear cases of 
misconduct, low morale, missileers cheating on tests, air 
commanders not conducting themselves in a manner that lives up 
to the standards of the Air Force, and I think this committee 
will agree with me that this is totally unacceptable, and that 
this issue needs to be addressed. So I would like to hear what 
you are doing with respect to that.
    And the second, I have been closely monitoring the lack of 
competition in the Air Force's space launch program and 
unfortunately, I just learned in the last day that the Air 
Force has made a decision to continue this trend by reducing 
the competitive opportunities by 50 percent. And I think that 
is a very unfortunate outcome because I believe that 
competition drives down prices and brings up talent. And so 
those are two areas I would like you to address as you move 
forward.
    So thank you, Mr. Chairman, I look forward to the 
testimony.
    The Chairman. Thank you.
    Madam Secretary.

STATEMENT OF HON. DEBORAH LEE JAMES, SECRETARY OF THE AIR FORCE

    Secretary James. Thank you so much, Mr. Chairman, members 
of the committee.
    Congresswoman Sanchez, it truly is an honor for me to be 
here this morning.
    And thank you, Mr. Chairman, for your kind opening. As you 
said, this is kind of like coming home for me. And I will admit 
that I had more experience sitting in the chairs in the back of 
this room than sitting in the chairs on this side of the table, 
but it is great to be back here, and it is particularly apropos 
as a graduate of the Military Personnel and Compensation 
Subcommittee to have this be my first posture hearing.
    General Welsh and I do have prepared remarks which I would 
ask be submitted for the record, and we will just summarize, 
with your concurrence. I also just want to take a moment.
    The Chairman. Without objection, your written statements 
will be totally entered in the record.
    Secretary James. Thank you.
    I would also just like to take a moment to say that there 
is a lot of people who are mourning right now in the Pentagon, 
Mr. Chairman, due to your announcement that you will be 
retiring from the Congress, and so I just want to say, I don't 
think it is too late to reverse that decision, in case you are 
interested. I don't know that you will, but we are very 
grateful for all of the work you have done over the years for 
our men and women in uniform, and we will surely miss you a 
great deal.
    The biggest honor and privilege for me in this new job, and 
I am 11 weeks old in this job now, is to be a part of this 
terrific, very best Air Force on the entire planet. And that is 
690,000, more or less, Active Duty, National Guard, Reserve, 
and civilian airmen and women, as well as their families. That 
is the total team and I am part of that team now and it is a 
huge honor and a privilege.
    During my first 11 weeks I have been very, very busy not 
only studying up on all of these budgetary matters and all of 
our programs and trying to get on top of that as best as 
possible, but I have also tried to hit the ground running and I 
have been out and about to see our Air Force in action.
    So 18 bases in 13 States, that is where I have been so far 
and they have been quick trips, but they have been enormously 
helpful. And in a nutshell, here are three things that I have 
noted. First of all, I have noted leaders at all levels, and 
these are our officer leaders as well as our enlisted leaders, 
and they are taking on tough issues in a tough budgetary 
environment, but they are doing it with a can-do spirit and 
they are getting things done, despite difficulties.
    Secondly, I have seen superb total force teamwork and here 
I am talking particularly with our National Guard, Reserve 
forces operating with our Active Duty Air Force, and this is 
from headquarters right on down to the unit level. I have seen 
them get the job done.
    And number three, across the board, just amazing, amazing 
airmen who are enthusiastic about what they are doing in 
service to our Nation. Everywhere I go, I do town hall 
meetings, but with that enthusiasm they also are looking to us, 
they are looking to you, they are looking to our Nation's 
leaders for decisions, some greater stability, if we can give 
it to them, and leadership in these very challenging times.
    And indeed, these are very challenging times, both in terms 
of our security environment, and the declining budgets that you 
talked about, Mr. Chairman. And in the submission that we have 
before you, we have done our very best to tackle these 
challenges head on, head on, in a thoughtful and deliberate and 
a very inclusive way.
    In the fiscal year 2015 budget, we do have a strategy-
driven budget, but let's face facts, we are severely, severely 
limited by the fiscal choices that are contained in the Budget 
Control Act, and the Bipartisan Budget Act [BBA]. For 2015, as 
you know, we do hit the dollar targets that are in the BBA, but 
we also have contained therein what we call the Opportunity, 
Growth, and Security Initiative. This is a $26 billion 
initiative across DOD [Department of Defense]. For us in the 
Air Force it is about $7 billion, and we will, if we are 
granted these additional funds, spend them principally on 
readiness and other key investments to get us back closer to 
where we want and need to be.
    I hope we will get a chance to talk more about that during 
Q and A [question and answer]. So that is fiscal year 2015. For 
2016 and beyond we similarly have difficult choices that we 
make and we will talk a little bit more about that as we get 
further into it.
    The key thing is that this is a budget in which we are 
rebalancing, and Mr. Chairman, you said it is readiness, and it 
is the future, and it is really not an either-or, because we 
very, very much, we need to have both. I am pretty sure as we 
get into this, we are not going to make everybody happy. As a 
matter of fact, I am pretty sure there is going to be a fair 
amount of unhappiness. And when we get into Q and A, our 
preamble to many answers to your questions will be: While faced 
with the difficult choices, and the budgetary situation, we 
made these choices. Don't mean to sound like a broken record on 
that, but it really is the truth. There were no elements of 
low-hanging fruit in this budget.
    So just a few words on strategy, there are strategy 
imperatives for today. SecDef [Secretary of Defense] has laid 
it out. This is the first budget coming off of 13 years of war 
where we are beginning to transition. We need to defend the 
homeland against all strategic threats. We need to build 
security globally by protecting U.S. influence and deterring 
aggression. And we need to remain prepared to win decisively 
against any adversary should deterrence fail. And your Air 
Force is critically important to all of those elements and that 
is today. But there is also tomorrow. There is the strategy 
imperatives of tomorrow. New technologies, new centers of 
power, particularly the Pacific, a more volatile and 
unpredictable world, a world in which we can no longer accept 
that American dominance of the skies and of space will be 
preeminent.
    We have to get ready. We have to have abilities to operate 
in a contested environment. Again, your Air Force is critical 
as well in the future. So we have to have both, the today, and 
the tomorrow piece.
    Now, if we turn to the budget realities, we are very 
grateful for the greater stability and the additional bump-up 
in fiscal year 2014, the additional stability in fiscal year 
2015. It doesn't solve all of the ills, but it was a great 
help. So we are grateful for the BBA, the fiscal year 2014 
appropriations, and the many decisions contained in the NDAA 
[National Defense Authorization Act].
    But again, even with those bump-ups, there were difficult 
tradeoffs that had to be made because the 2015 top line and 
beyond is a whole lot less than we ever thought possible just a 
few short years ago.
    So I have been in and around this business as an observer 
on the scene, you might say, for more than 30 years, and I 
think you all will agree with me that there is always a 
strategy and there is always budgets, and they never match 
exactly. There is always a certain degree of mismatch and when 
that happens, that is when you have to make these decisions, 
and the decisions are based on the best military judgment and 
what we think are prudent risks, where we can assume those 
risks. So that is the story this year as well, albeit I think 
this is a more complex and difficult year than most. As I said, 
there was no low-hanging fruit as best as I can tell.
    So in general, our decisions reduce capacity in order to 
gain capability. So that means we chose, when necessary, 
reductions in manpower and force structure to sustain readiness 
and guarantee technological superiority. We slowed the growth 
in military compensation in order to free up money to plow back 
into today's readiness as well as recapitalization. We chose to 
delay or terminate some programs to protect higher priority 
programs, at least what we thought were higher priorities. And 
we sought cost savings in a number of ways, reducing 
headquarters, putting us on a glide path to greater reliance on 
the Guard and Reserve. We sought reductions in a number of ways 
in order to try to balance all of this out as best as we could.
    Now, I would like to give you some of the key decisions but 
give it to you within the context of the three priorities that 
I have laid out for the Air Force. And those three priorities 
are taking care of people, balancing today's readiness with 
tomorrow's readiness, and number three, ensuring that we have 
the very best Air Force that we possibly can have at the best 
value for the taxpayer. So basically, everything I work on I 
try to work on the prism of those three priorities.
    So taking care of people. That means a lot to me. 
Everything comes down to people as far as I am concerned, and 
it is a multifaceted area. So taking care of people means 
recruiting the right people, retaining the best people, 
developing them once we have them in the force, having 
diversity of thought and background at the table as we make our 
decisions, protecting the most important family programs. It 
means dignity and respect for all and making sure that 
everybody is on top of and leading and living our core values 
as you talked about the importance of integrity, Mr. Chairman.
    It means fair compensation going forward. It means a lot of 
things. It is all about taking care of people. And let me zero 
in on two areas in particular, which have some controversy 
associated with them. First of all, based on where we believe 
we are going, we are going to be a smaller Air Force in the 
future. We will be coming down on all of our components, 
Active, Guard, Reserve, and civilians. So we will get smaller. 
We will rely more on our Guard and Reserve but as we get 
smaller, we also need to shape our Air Force. So particularly 
on the Active Duty side what we have right now we have certain 
imbalances.
    We have certain categories and specialty areas where we 
have too many people, and then we have other categories in 
specialty areas where we have too few people. So in addition to 
bringing numbers down somewhat we need to rebalance and get 
into sync. So we have a series of programs that we are 
offering, some to retrain people into other categories. Some 
are voluntary incentives for people to leave us going forward. 
And then if we can't get the numbers and the balance, there are 
involuntary programs as well. So this is very much on the minds 
of our airmen and I wanted to bring it to your attention as 
well.
    Another area of controversy is compensation, slowing the 
growth in military compensation. This was one of those hard 
decisions that nobody is totally happy with, but we felt that 
given the fact that military compensation has risen quite a 
bit, particularly in the last decade, and as we look at 
comparability with the civilian sector, we felt that somewhat 
slowing that growth was a reasonable approach in the next 
several years as we attempt to plow money back into readiness. 
So again, hard decisions. Those are two particular areas that 
are on the minds of our people quite a bit now.
    This all leads me to my second priority, and that is 
balancing the readiness of today with the readiness of 
tomorrow. So as you point out, it is going to take us a while 
to get back to the readiness level, quite a while that we wish 
to have, where we can do the full range of capabilities.
    We took a big hit with the sequestration last year, so for 
fiscal year 2015, we need to get back on the glide path to get 
it up. We need to fully fund the flying hours which we have 
done, and other high priority readiness issues, and we will see 
gradual improvements if we can secure these resources.
    But I have to also say there is the readiness of tomorrow, 
right? There is today and tomorrow. So in addition to the 
readiness of today, we remain committed to our programs of 
tomorrow. The three top ones, of course, are the Joint Strike 
Fighter F-35, the new tanker program, and the Long Range Strike 
Bomber.
    We also remain committed to the nuclear triad, that is the 
ICBMs and the bombers for the Air Force, and I look forward to 
talking about the ICBMs as we get into Q and A because that I 
have spent a fair amount of time in my first 11 weeks on that 
issue. And there are other things in the budget as well, 
starting to rebuild our combat rescue helicopter force.
    We have moneys in our 5-year plan for next generation 
JSTARS [Joint Surveillance Target Attack Radar System] 
aircraft, and a replacement for our aging T-38 trainer 
aircraft. There is $1 billion in there for new energy 
technology, also critical advances in our space capabilities. 
So these are all of the things that we chose to invest in, in 
some cases doubling down in our investments.
    But of course, in order to do the readiness of today and 
these key investments for tomorrow, that is where we came down 
to, what are we going to reduce? Where can we take some of what 
we think are the most prudent risks? So here are some of the 
highlights of some of the reductions that we are proposing to 
take.
    First of all, the retirement of the A-10 fleet. That is, I 
know, an extremely controversial area. And we will talk about 
that, I am sure, as we get into the Q and A. But I want you to 
know, we are absolutely committed to the close air support 
mission. We will not let it drop. I, too, have tried to talk to 
commanders on the ground from the ground forces. General Welsh 
knows far more than I do about it, but we are going to cover it 
and we can cover it with other aircraft, and we commit that we 
will.
    Retirement of the U-2 fleet and we will keep the Global 
Hawk Block 30. Having both fleets together would be terrific, 
but it is not affordable that we feel under the circumstances, 
and there are requirements which when you add those two 
together, we are above the validated requirements for high-
altitude reconnaissance. So once again in a tough budget 
environment, this was a choice where we felt we could assume 
some risk.
    We will have limited growth in our combat air patrols 
[CAPS]. This is the Reapers and the Predators. So we had 
originally said a couple of years back we were going to go to 
65 of these so-called CAPs. Under our proposal we are going to 
go to 55. By the way, today we are at 50, so we are still 
growing; we are just not growing as much. And over time we will 
retire the MQ-1s, which are the Predators, in favor of having 
an entire fleet of MQ-9s. So we will be retiring one in favor 
of the other.
    By making these tough choices today, again, we think we are 
going to preserve our combat capability and make each taxpayer 
dollar count better for the future, which leads me to the third 
priority, and that is value for the taxpayer, and how are we 
going to ensure that going forward. There is a whole host of 
areas here. We have got to keep those acquisition programs on 
budget and on schedule. We have got to work toward 
auditability, and I need to join with our Secretary of Defense 
and ask you please for another round of base closure authority 
beginning in 2017.
    So there are a lot of initiatives that we have got ongoing 
to make every dollar count for the taxpayer. Just to give you a 
couple, we will be cutting our headquarters; SecDef has asked 
us to cut by 20 percent. He gave us the goal of getting that 
done over 5 years, and this is 20 percent of the money, by the 
way. It is not necessarily 20 percent of the people, but it is 
20 percent of the money. And we have said, well, we are going 
to try to get that done more quickly. And so I will predict to 
you we are going to get that done in 1 year, not 5, and 
hopefully we will do even a little bit better than 20 percent, 
giving us an opportunity to stand back and review how we do 
things, and we are going to do things a little bit differently 
and do better than that 20 percent. So that is one area that I 
wanted to bring to your attention.
    Now, let me also turn and then I will begin to wrap up. 
Sequestration, if we return to the sequestration levels in 
fiscal year 2016 and beyond, first of all, if there is one key 
takeaway from this hearing is we feel that would not be the way 
to go. We ask you to not go that way in your final decisions. 
We feel that it would simply be too much of a compromise for 
our national security. But if we have to return to those 
levels, we have tried to think through how we would manage. So 
let me just give you a few of those highlights.
    If we have to return to sequestration, this would mean the 
retirement of up to 80 more aircraft including the KC-10 tanker 
fleet. We would choose to defer upgrades to the Global Hawk 
that we would need to make otherwise to make it more on parity 
with the U-2. We would have to defer those.
    We would have to retire the Global Hawk Block 40. Now, this 
is a long-endurance look-down radar to detect and track moving 
targets. We want to do this because it will minimize our risk 
during transition to next gen JSTARS, but we feel we can't 
afford it if we have to go back to sequestration.
    We would slow the purchases of the F-35. We would have 45 
of these CAPs with our Reapers and Predators that I told you 
about, rather than 55. We couldn't do that next generation 
engine program I told you about. And we would have to probably 
reevaluate the combat rescue helicopter and a whole host of 
other things. So that sequestration level is not a good deal 
for us. It is not a good deal for the country. And we would ask 
you to please try to support those higher areas.
    So in conclusion, Mr. Chairman, we are going to be a 
smaller Air Force in the future, but we are committed to making 
sure that we are capable, and innovative, and ready. We are 
committed to being a good value for the taxpayer making every 
dollar that we spend count; able to respond overseas as well as 
here at home when disaster strikes us. We will be more reliant, 
not less, but more reliant on our National Guard and Reserve 
and we will be fuelled by the very best airmen, airmen on the 
planet.
    So I thank you so much for what all of you do for all of 
us, and I now will yield to the General Welsh.
    [The joint prepared statement of Secretary James and 
General Welsh can be found in the Appendix on page 67.]
    The Chairman. General.

   STATEMENT OF GEN MARK A. WELSH III, USAF, CHIEF OF STAFF, 
                    UNITED STATES AIR FORCE

    General Welsh. Thank you, Mr. Chairman, and distinguished 
members of the committee.
    It is always an honor to be here with you.
    Mr. Chairman, thank you also for introducing my wife and 
daughter.
    I haven't had the pleasure to introduce Betty to you, but 
my wife is magic. She is just magic. And I am really glad you 
are getting a chance to meet her. And my daughter is just 
smarter and more talented than both of us, so she just 
embarrasses me. But it is really wonderful to have them here.
    It is also really wonderful to be sitting here next to my 
new boss, who is going to do great things for our Air Force, 
and I believe you will find that this will be a great, great 
thing for our relationship with this committee as well. And so 
I am looking forward to having her school me on the right way 
to do this job and the right way to communicate with this body.
    Chairman McKeon, I would like to add my special thanks for 
your tireless support of our national defense, all of our 
services, our Air Force in particular, and our airmen for your 
20-plus years in the Congress. You are a remarkable public 
servant, sir, and we thank you for your example.
    Ladies and gentlemen, your Air Force is the finest in the 
world and we need to keep it that way. We built this budget to 
ensure Air Force combat power remains unequalled. That does not 
mean it will remain unaffected.
    Every major decision reflected in our fiscal year 2015 
budget proposal hurts. Each of them reduces capability that our 
combatant commanders would love to have and believe they need. 
There are no more easy cuts. That is just where we are. And we 
cannot ignore the fact that the law says we will return to 
sequestered funding levels in fiscal year 2016.
    To prepare for that, the Air Force must cut people in force 
structure now to create a force that is balanced enough that we 
can afford to train and operate it in 2016 and beyond. We 
started our budget planning by making two significant 
assumptions.
    First, is that the Air Force must be capable of fighting 
and winning a full-spectrum fight against a well-armed, well-
equipped, well-trained enemy.
    Second, is it ready today versus modern tomorrow cannot be 
an either-or decision. We must be both. We also knew the 
overwhelming majority of reductions in our budget would have to 
come from readiness, force structure, and modernization. That 
is where the money is that we can affect. Understanding that, 
we tried to create the best balance possible between readiness, 
capability, and capacity across our five mission areas.
    The appropriations bill you passed allowed us to fully fund 
our readiness accounts in fiscal year 2015, and I will add my 
thank you to the boss'. But even with continued funding at that 
level, as the chairman mentioned, it will take us 10 years to 
return to full readiness. It is a complicated equation. There 
are lots of things we have let slide to fund activity over the 
last 14 years.
    Because we needed to reduce our planned spending in other 
areas by billions of dollars a year, trimming around the edges 
just wasn't going to get it done. So we looked at cutting 
fleets of aircraft as a way to create the significant savings 
required. In the air superiority mission area we already had 
reductions to aircraft in our proposal, but eliminating an 
entire fleet would leave us unable to provide air superiority 
for a full theater of operations. And no other service can do 
that.
    ISR [intelligence, surveillance, and reconnaissance] is the 
number one shortfall our combatant commanders identify year 
after year after year. They would never support even more cuts 
than we have already had to put in our plan.
    We have several fleets in the global mobility mission area. 
I spoke with Chief of Staff of the Army Ray Odierno to ask what 
he thought about reductions in the airlift fleet, for example. 
His view was that a smaller Army would need to be more 
responsive and be able to move more quickly. He did not think 
further reduction of airlift assets was a good idea.
    We looked at air refueling fleets, and we did consider 
divesting the KC-10 as an option, but the analysis showed us 
that mission impact was too significant; at the PB [President's 
Budget] rates we could afford to keep it. However, as the boss 
said, if we do return to sequestered funding levels in 2016, 
this option must be back on the table. We would have to cut 
many more KC-135s than KC-10s to achieve the same savings; and 
with that many KC-135s out of the fleet, we would not be able 
to meet our mission requirements.
    In the strike mission area, we looked at cutting the A-10s. 
We also looked at the F-16s, and the F-15Es. As the chairman 
mentioned, I am an A-10 pilot by trade. That is where I grew up 
in this business. And Betty and I have a son who is a Marine 
Corps infantry officer. Close air support is not an 
afterthought to me. It is not going to be a secondary mission 
in the United States Air Force. But close air support is not an 
aircraft. It is a mission, and we do it very, very well with a 
number of airplanes today.
    The reason we looked at the A-10 is because we can save 
$3.7 billion across the FYDP [Future Years Defense Program] by 
divesting the fleet, and another $500 million in cost avoidance 
for planned upgrades that wouldn't be required. To achieve the 
same savings would require a much higher number of either F-16s 
or F-15Es, but we also looked at those options. We ran a 
detailed operational analysis comparing divestiture of the A-10 
fleet to divestiture of the B-1 fleet, reducing the F-16 fleet, 
deferring procurement of a number of F-35s, or decreasing 
readiness further by standing down a number of fighter 
squadrons.
    We used the standard DOD planning scenarios, and the 
results showed that cutting the A-10 fleet was the lowest risk 
operation--excuse me, the lowest risk option from an 
operational perspective. And while no one, especially me, is 
happy about recommending divestiture of this great old friend, 
it is the right decision from a military perspective, and it is 
representative of the extremely difficult choices that we are 
being forced to make.
    The funding levels we can reasonably expect over the next 
10 years dictate that for America to have a capable, credible, 
and viable Air Force in the mid-2020s, we must get smaller now. 
We must modernize parts of our force, but we can't modernize as 
much as we planned and we must maintain the proper balance 
across our core mission areas.
    Thank you for your continued support of our Air Force, and 
my personal thanks for your unending support of our airmen and 
their families. The Secretary and I look forward to your 
questions.
    [The joint prepared statement of General Welsh and 
Secretary James can be found in the Appendix on page 67.]
    The Chairman. Thank you very much.
    Just a little bit on the lay of the land. We understand we 
are going to have votes about 10:15. We will try to get as many 
questions in before that as we can, and I will watch the time 
very closely, but we will come back after the votes.
    If the Secretary and General, if you can stay, we would 
really appreciate it because we have many Members that will 
have questions.
    So immediately after votes those who can return, please 
come back as quickly as possible. We will get right back to the 
votes.
    General Welsh, in my statement I acknowledge that the Air 
Force is being forced to choose between a number of bad 
options. It isn't like we have got a good thing and a bad 
thing. Those are easy choices. Those were made a long time ago. 
It is between good and good, and needed and needed. Divesting 
force structure to balance readiness and modernization is a 
tough thing. What elements of the force structure proposed for 
divestiture would you recommend retaining if you had the budget 
authority to do so?
    For example, ISR is, we all acknowledge, a mission of great 
concern. What others have similarly impactful consequences?
    General Welsh. I am sorry, Mr. Chairman. The greatest 
shortfalls we have related to the combatant commander 
requirements every year are ISR and fighter squadrons. Those 
are the two things that we can't meet the demand on more 
frequently than anything else. By the way, in the ISR category, 
I would include command and control platforms like the AWACSs 
[Airborne Warning and Control System] and the JSTARS. The 
JSTARS, of course, does both for us.
    So ISR, I believe, is clearly the first category that I 
would maintain capability in. We do not meet the combatant 
commanders' requirements today and as we divest more, we will 
not meet them by a wider margin. And then we have to be careful 
about divesting our fighter fleet too much because we are at 
our requirement today. We are going to go seven squadrons below 
our requirement with this budget, and anything further just 
puts us farther away from what we have agreed, as a Department, 
is required to meet the standing war plans of our combatant 
commanders and their standing annual demand.
    The Chairman. I was talking to General Amos a few months 
ago and he was telling me he was a wing commander during Desert 
Storm, I believe it was, and how many planes we had.
    And then I was talking to General Hostage and how many 
planes we could provide now if we had a similar need. And it is 
drastic, the difference, like 10 percent now compared to what 
we had then.
    So when we say the Air Force is getting smaller, I think 
people need to understand, it will be the smallest it has been 
since its inception.
    And Madam Secretary, you made the comment of sequestration 
is a problem. It is a huge problem, but it is the law of the 
land. And while we got a short reprieve with this budget that 
was arrived at in December, it becomes back in full force in 
2016, and I think it is incumbent upon us to use those numbers, 
because until there is a change, that will be the law of the 
land. And I think probably everybody on this committee realizes 
the dangers that we are facing because of it, but I think the 
American people need to know that the Air Force will be the 
smallest it has ever been.
    The Navy is going back to the size it was in World War I. 
The Army and the Marines are going back to--the Army back to 
smallest it has been since World War II, and the Marines are 
going down to 175,000 force. That is the trajectory we are on 
right now, so these are dire situations that we are dealing 
with, and I am not sure that the American people really 
understand how serious it is.
    So much of the time when we have talked about cuts back 
here it has really been--we have slowed the growth rate. These 
are real cuts year over year over year. So thank you for the 
work that you are doing.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I have two questions. The first is to Secretary James. 
Welcome back, by the way. Maintaining the military flexibility 
to adequately size the nuclear force is crucial to ensure that 
we have an optimal nuclear deterrent, and I hope you agree with 
that.
    Secretary James. I do.
    Ms. Sanchez. What is the impact of the Air Force not having 
started the environmental assessment that would allow an 
evaluation of a reduction of ICBM silos as part of the military 
decision on an optimal nuclear force structure for the New 
START [Strategic Arms Reduction Treaty] Treaty, and does the 
Air Force plan to initiate that environmental assessment, and 
if so, why, or why not?
    Secretary James. So, of course, the New START Treaty 
contains a variety of numbers that we have to hit in terms of 
our total nuclear capability over a certain period of time, and 
it doesn't tell us how to do it. So in other words, there are 
choices that could be made either in the ICBM force, the bomber 
force, or the submarine force, or a combination thereof. So the 
Department of Defense has been looking at this for some time, 
and I think within a couple of weeks, 2 or 3 weeks, we will 
have a sort of a better feeling of where this is headed.
    So at the moment, we have not started an environmental 
assessment. We have gotten different bodies of law about what 
to do on that environmental assessment, and then of course, 
within the Department of Defense we have been in discussions 
about what to do about that environmental assessment.
    So again, I think within the next few weeks we will have a 
better path forward and more information to share.
    Ms. Sanchez. Right. Well, if you could go back and work 
with your people and get some answers as to are you going to do 
it, when do you think you are going to start to do it, et 
cetera, et cetera, I would appreciate it because that is one of 
the areas where I watch quite a bit, and where I think, given 
all of the problems that we have had, and you know, what we 
really need to do, we really need to assess what is going on 
there.
    Secretary James. We will.
    Ms. Sanchez. Not to eliminate the triad, but to figure out 
what we really need in order to continue that deterrent that we 
are capable of having.
    Secretary James. Yes.
    Ms. Sanchez. My next question for you is about the space 
launch program, which I mentioned earlier. The issue of rising 
costs in the Air Force's space launch program continues to be 
of great concern to many of us on this committee, and I have 
always believed that one of the ways to get more talent, and to 
get smarter about this, and to get more competitive on this, as 
you know, we have had a one-source situation for a long, long 
time, is to have competition, which is why in 2012 Under 
Secretary of Defense Frank Kendall directed the Air Force to, 
and I quote, ``Aggressively reintroduce a competitive 
procurement environment.''
    So in 2012, the Air Force briefed my office and the 
Strategic Forces Subcommittee that it would be opening 14 
opportunities for new entrants into the national security space 
launches. But now, the Air Force has indicated that it plans to 
reduce this to only seven, so it has cut it by 50 percent, and 
that no Air Force mission available for competition in fiscal 
year 2015 aside from just one NRO [National Reconnaissance 
Office] mission.
    So why did you do this? Does it contradict the Air Force's 
commitment to reintroducing the competitive procurement 
process, and what will be the impact on sustaining competition? 
And, you know, I am a Californian. There are several companies 
who are working to compete against these sole source, and 
again, you guys just issued another sole source to that 
company. I am not against that company, but I believe that with 
competition we can bring down the cost of these launches 
significantly; maybe to 50 or 25 percent of what it is costing 
us now.
    So you know, if you could please speak to that. Thank you.
    Secretary James. Yes. No, I will. In one of my visits, I 
mentioned that I had been on certain visits. I have been out to 
Colorado Springs and I did spend some time with the space 
command out there. So first of all, I agree with everything you 
said on competition, and I am a big believer in competition and 
I have asked, I suspect, some of the same questions that you 
have been asking. Since we all believe in competition, why does 
it take as long as it is taking?
    So here is the way I would describe the current state of 
play on the EELV [Evolved Expendable Launch Vehicle] program. 
Over time, it has been a very successful program. Over time it 
has probably cost our country way more than any of us would 
have wished or dreamed. In recent years, costs have been coming 
down. They are coming more under control, I will say, and even 
though we don't have that competition yet, I suspect just the 
threat of competition out there has helped us to bring down 
these costs. So again, good news for the taxpayer, and let's 
see if we can speed it up.
    Now, why does it take as long as it takes? Well, these 
launches, of course, there is a variety of payloads and 
satellites that get launched and it is technically complex. 
There are different degrees of heaviness, that is one thing, 
and then there is different payloads. Some have almost 
catastrophic consequences if they weren't to go well. There 
would be huge military significance.
    So that is sort of one type of satellite launch, and then 
there is other satellite launches which although they are 
important and you wouldn't want anything to go wrong there, you 
can, in effect, you can take a little bit more of a risk with 
new entrants and people who haven't quite demonstrated as much 
as the team who has been doing it a long time.
    So, specifically, what has happened here, is the launches 
that are going to go forward in the most immediate years of the 
5-year plan, these are the really heavy-duty militarily 
significant launches, and that is the contract that you just 
talked about where those launches will be done by the original 
team of ULA [United Launch Alliance] I think it is called.
    The other launches where we hope these new entrants will 
qualify, those launches were deferred a bit. They are still 
going to happen. It is just going to happen later in the 5-year 
plan. And the reason for that, actually, again, is a bit of 
good news. The satellites which are referred to in those 
secondary launches, the existing satellites are doing better 
than we ever thought possible. They are lasting longer, so 
again, that is kind of a good news for the taxpayer. So we 
don't need to get those satellites up into orbit as quickly. We 
could defer. That is why those got deferred. It is actually 
more that reason than money.
    So they are going to happen, and we do want--I want those 
new entrants qualified as soon as possible for all of the same 
reasons that you pointed out, Ms. Sanchez.
    Ms. Sanchez. As you know, this takes quite a bit of money 
to be a new entrant into that field. And so when you close down 
those competitive pieces, those companies have a harder time to 
outlast what you are doing by deferring some of this. So I hope 
you understand that when I look at the cost, you may think that 
the numbers have come down with this original launch team, but 
I can go back and I can show you on a graph just how much this 
is costing the taxpayer when I can see a French company that 
does it for half the price.
    By the way, I am not suggesting that this isn't a core 
value and we shouldn't hold it here, but we do have competition 
that has proven and will continue to prove if we open up those 
possibilities.
    And the more competition we have, just by having two 
companies, will bring down that cost to the American taxpayer. 
So I will continue with you on this theme. Thank you.
    General Welsh. Ma'am, can I clarify one thing?
    Ms. Sanchez. Yes, General.
    General Welsh. Over the next 5-year period, there are eight 
qualifying launches, assuming we get new entrants certified, 
which I think we probably will. Seven of those will be 
competed.
    Ms. Sanchez. Yes. That is 50 percent of what I was told 
just a year and a half ago.
    General Welsh. Yes, ma'am, for those reasons.
    Ms. Sanchez. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman, and Madam Secretary, 
General, thank you for being here.
    General, it is my understanding from previous discussions 
we have had, that these cuts and all of the budget uncertainty 
is taking a bit of an impact on your morale and your ability 
for retention, is that accurate?
    General Welsh. Sir, we have not really seen a problem with 
retention to this point. I am worried about a problem with 
retention over time, especially as the uncertainty continues, 
and that is why we need to have a firm way forward, a number we 
can count on, and then aim toward the Air Force of the end of 
sequestration, and make it the best it can be, starting now.
    Mr. Forbes. And I agree with you because all of the 
platforms we have come down to personnel sometime, and Madam 
Secretary, you are shaking your head.
    Let me tell you an item though that is of major concern to 
me. Recently we read this week where a cadet at the Air Force 
was forced to take a Bible verse off of a private whiteboard in 
his room. The facts that I have received from the Air Force, so 
these aren't hypotheticals, is that this cadet had no intention 
to offend anyone or any group. Number two, that the private 
whiteboards have long been used to display items reflecting 
their personality, and from which they draw personal 
inspiration. Number three, they have long been used for citing 
inspirational quotes. And fourth, this is perhaps the most 
offensive, the Air Force said this was a teaching moment that 
the cadet's action in putting the Bible verse on was 
inappropriate based upon leadership principles.
    General, and Madam Secretary, that cadet's family, the 
other cadets who are now putting up Bible verses and verses 
from the Quran, can't stand in front of you today, but I can.
    And here is the question I have for you. Can you tell me 
any other inspirational quote that cadets have been forced to 
remove from their personal whiteboards other than verses from 
the Bible, one; and second, I want to point out this to you: 
General, when you come in my office, I chair the Seapower 
Subcommittee, over the door you walk through, I have our 
national motto: In God We Trust.
    Mr. McIntyre, the ranking member of this committee has that 
same motto over his door. Mr. Miller, who chairs the VA 
[Veterans Affairs] Committee has ``In God We Trust'' up in his 
office; Mr. Conaway chairs the Ethics Committee has it up in 
his office. Mr. Wittman who chairs the Readiness Subcommittee 
has it up in his office. Dr. Fleming has it up in his office; 
the chairman of the Government Reform Committee is putting it 
up in his office; the chairman of the Ways and Means Committee 
in his office; the Speaker of the House in his office.
    And here is the question I ask for both of you two today: 
Give us that teaching moment of, one, how that is any different 
than this cadet putting his own personal verse on his own 
personal whiteboard; and number two, how is that offensive to 
leadership principles?
    Secretary James. So perhaps I will start if it is all 
right, Mr. Forbes.
    Mr. Forbes. Sure.
    Secretary James. And Chief, you jump in.
    I read this in the press as well, and I did have a chance 
to talk to General Johnson yesterday to say kind of, what is 
going on with this? So, I want to share with you what she 
shared with me in terms of how this incident actually unfolded.
    So I will get to that in just a second, but first, if I 
may, I just want to read the policy of our Air Force about the 
religious freedom. ``Leaders at levels must balance 
constitutional protections for an individual's free exercise of 
religion and other personal beliefs and its prohibition against 
governmental establishment of religion. For example, they must 
avoid the actual or apparent use of their position--''
    Mr. Forbes. Madam Secretary, I don't want to cut you off, 
but I only have 1 minute and 15 seconds.
    Secretary James. Okay.
    Mr. Forbes. Can you answer the question for me, what other 
quotes have been--have cadets been forced to pull off of their 
whiteboards that were not Bible verses?
    Secretary James. So I don't know, but the real point I 
wanted to just, if I may. Apparently, a cadet went to this 
other cadet, who--and said this makes me uncomfortable. And 
that cadet voluntarily took it down.
    Mr. Forbes. Now, that is not true. By your own facts, Madam 
Secretary, if you will read what your liaison officer has given 
to me, the entire Air Force chain of command in that particular 
situation--that is what he says. Maybe it was inaccurate--and 
the Air Force Commander, is what I am given by fax from your 
office, went to that cadet, and then they say when all of them 
come to him, he voluntarily did it.
    Can you imagine a young cadet when he is forced with the 
entire chain of command coming in there and telling him 
basically this is inappropriate? That is what your folks are 
citing to me, that it was inappropriate based on leadership 
principles.
    And at some point in time, Madam Secretary, and General, I 
am just telling you, we need to stand up for these cadets' 
rights, too. Freedom of religion, and their exercise of that 
whether they are putting it from the Quran or the Bible, is not 
to make sure no person on the planet is offended. It is to say 
that cadet ought to have the right in their own personal board 
to put that verse up there.
    And help me with this: Why if he is wrong, are all of us 
wrong in putting ``In God We Trust'' up in our office?
    Secretary James. So my facts come from General Johnson, so 
I apologize. I have not seen the paper that you are looking at. 
What I just explained is the way that General----
    Mr. Forbes. My time is up, but I hope you guys will come 
back to us on this and for once, the Air Force starts standing 
up for these cadets and their rights, instead of just 
constantly saying, if anybody at all opposes it, we are going 
to make them take these down.
    And Mr. Chairman, I yield back.
    [The information referred to can be found in the Appendix 
on page 106.]
    General Welsh. Mr. Chairman, may I very briefly answer the 
question?
    The Chairman. Yes.
    General Welsh. I have been a commander of the cadet 
squadron at the Air Force Academy, I have been a Commandant at 
the Academy, and we remove hundreds of quotes from those 
boards, because they are not in their room, Congressman, they 
are in the hallway. They are used for personal and professional 
messaging, just to make sure we all understand that context.
    What you said is absolutely true. Every cadet has a right 
to free religious expression. But if someone else comes to them 
and says, that bothers me, and they have that discussion, if 
that is what happened, I would compliment both of them. We have 
got to get the facts straight. General Johnson has been doing 
that, sir, and I will come and make sure----
    Mr. Forbes. General, my time is up, but I want, since you 
had extra time, first of all, it is different if they just have 
a one-on-one discussion. That is not what happened. It says, 
the chain of command came to this cadet and, again, I am just 
going by what your office have given me, the facts. If the 
facts are wrong, I can't answer that.
    The second thing is, you can't have it both ways. You can't 
say, we forced other people to take these quotes off. But yet, 
this was voluntarily done. And I think if you asked this cadet 
and the other cadets, they don't believe it was voluntarily 
done, but with that, Mr. Chairman, I yield back.
    The Chairman. Thank you. Mr. Larsen.
    Mr. Larsen. General Welsh, I am also on the Strategic 
Forces Subcommittee, and I imagine as we have the last couple 
of years, we will have a debate about forward deployed nuclear 
weapons in Europe, and so to kick that off for the subcommittee 
at some point in the future when we have that hearing, can you, 
first off, discuss some of the costs of forward deploying 
nuclear weapons in Europe, and can you discuss what are our 
contingency plans if one or more NATO [North Atlantic Treaty 
Organization] countries do not procure nuclear-capable aircraft 
after their own aircraft are retired in the 2020s?
    General Welsh. Yes, sir, the forward deployed nuclear force 
takes money to maintain, it takes money to upgrade, it takes 
money to keep secure and to provide security, just like any 
other party of our nuclear enterprise does. You have to pay 
attention to it. It is not an insignificant cost. As you know, 
the actual specific costs are classified. I would be glad to 
come talk to you in detail about those.
    As NATO nations, if they choose not to upgrade their own 
nuclear aircraft capabilities, then other NATO nations that 
have those capability from an operational perspective will pick 
up the load. That will be a NATO policy decision. The U.S. will 
be part of that discussion. We do have the capacity to pick up 
the load.
    Mr. Larsen. And then can you discuss whether the fiscal 
year 2015 request includes funds to make the 35-JSF [F-35 Joint 
Strike Fighter] dual capable?
    General Welsh. Sir, the Department has committed to making 
the F-35 dual capable. There is a discussion ongoing now with 
NATO partners; they don't believe they can afford to do that 
with their own aircraft with without our support in making the 
airplane DCA [dual-capable aircraft] capable, and so that is 
the ongoing debate right now. That is not happening this year, 
but there is money in the 5-year plan to move us in that 
direction.
    Mr. Larsen. In which direction? To support----
    General Welsh. To ensure that the aircraft can be made dual 
capable when it needs to be.
    Mr. Larsen. The 35, or the or NATO countries' aircraft?
    General Welsh. The F-35 sir.
    Mr. Larsen. 35. And then did you say in that answer, 
though, that we may be called upon to pay for other countries 
to upgrade their aircraft?
    General Welsh. No, sir. What I was referring to was the 
other NATO countries who will fly the F-35. But they are 
responsible for paying the cost to integrate capability on 
their own aircraft.
    Mr. Larsen. Yeah, thanks.
    With regards to the KC-10, by the way, I am glad to see the 
KC-46, the Pegasus, is moving forward. We are all very pleased 
about that, in Washington State. But on the 10, what other 
programmatic options would you have if Congress either 
prohibited that retirement, KC-10, because by the way, as you 
might know, we are famous for telling you all the aircraft you 
can't retire and then making you pay for that.
    So hopefully, we can move beyond that this year. But if 
Congress prohibited the retirement of the KC-10, what 
programmatic options would you have to execute if we did 
prohibit that retirement?
    Secretary James. So, again, sir, I will start, but I know 
the chief will also jump in. Before coming to the conclusion 
that the KC-10 would be retired if we have to go to the 
sequestration level, KC-135s were looked at very, very closely, 
and doing that operational analysis, it would have been far too 
many of those that would have to come out in order to come up 
with the same cost savings. It is about a $2.6 billion savings 
for us over the 5-year plan if the KC-10s were to come out.
    General Welsh. Congressman, all I will tell you is that 
there are no good options. Every decision we are making is 
going to hurt, so wherever we take that $2.3 billion to $2.5 
billion is going to come out of another mission capability like 
the ones I described in my opening statement. It is going to 
impact our capability and capacity.
    Mr. Larsen. Okay. One last question on this Opportunity, 
Growth, and Security Initiative. I am not quite sure what makes 
it different than just putting dollars into your readiness 
account and not calling it the Opportunity, Security, and 
Growth Initiative. Can you help me understand the difference 
between this initiative and just funding the Air Force?
    Secretary James. So this $26 billion fund, of which the Air 
Force would have $7 billion, is contingent upon coming up with 
some offset savings, and of course, the President's budget plan 
has proposals on how to do that, but if the offsets weren't 
there, then presumably the money could not be provided, so that 
is what makes it different.
    Mr. Larsen. Thank you. Yield back.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And Madam Secretary and General Welsh, thank you for being 
here today. I first want to join with Congressman Forbes, and I 
hope you will make every effort to promote and preserve 
religious freedom for our service members, and particularly, it 
is important to me. My dad served in the Flying Tigers, the 
14th Air Force in India and China. I know of the capabilities 
and competence of our military, and I am very grateful to be 
the very grateful uncle of a person serving in the Air Force 
today, and I just know of your capabilities.
    Secretary James, the primary U.S. national security 
launcher for satellites uses a Russian-made engine called RD-
180. Defense Daily this week reported on this engine and stated 
that, quote, ``It is rumored that Russia could cut off 
supplying the RD-180 to the U.S. in response to economic 
sanctions,'' end of quote.
    I understand we have 2-year stockpile on these engines, but 
I also know that the Air Force just committed to a 5-year 
procurement of the Atlas launch vehicle. There are at least 
three American launch vehicles that utilize American-made 
engines that offer the full range of capabilities without 
relying on Russian components. I believe it is in the interest 
of our national security that we should shift to American-made 
engines.
    What, Madam Secretary, is your counsel on this?
    Secretary James. So, I do want to take a look at that, 
Congressman. As you said, if there is good news here, and there 
is some good news, we do have this 2-year supply, so we have a 
little bit of breathing room. What I know about this engine 
association is we have had a fairly longstanding good 
relationship, but it is something we have to keep our eye on, 
and I do want to review it.
    Mr. Wilson. And I appreciate you looking into that because 
certainly we had all hoped for a much more positive 
relationship with the Russian Federation, but there are 
consequences to aggression in Ukraine, aggression in the 
Republic of Georgia.
    General Welsh, I understand that the Air Force has decided 
not to fund the Combat Avionics Programmed Extension Suite, 
CAPES, for the F-16s. With the F-35 not expected to be fully 
operational until the mid-2020s, are you concerned about the 
Air Force suffering from a significantly--significant 
capability gap in the suppression and destruction of enemy air 
defense mission? Additionally, without CAPES, how is the Air 
Force planning to counter the growing sophistication of many 
countries' integrated air defense systems?
    General Welsh. Sir, we have 10 integrated air defense 
systems that we would be concerned about today. We believe that 
by 2023 to 2024, that will expand to 25, so by that timeframe, 
we have to have a fleet fielded that can operate with 
capability to operate in and remove those threats if we should 
ever have to do that. That is the F-35. So, we have got to have 
that platform fielded. Everything that we have in our 
modernization accounts we went through over this past year. We 
have cut about 50 percent of our plan modernization programs 
because of the impact of the sequester level funding over time.
    What we have done is funded the things that are absolutely 
required to make aircraft viable in the near- to mid-term 
against the threats that we know are there. Anything that is 
nice to have or should have is off the books for now. We will 
revisit this every year as we look at what the threat is doing 
and what we have to have to keep airplanes like the F-16 viable 
against the threat as it emerges. We simply don't have the 
money to do it all. This was a prioritization issue, not a 
desire.
    Mr. Wilson. And I really appreciate you following through 
on this and to advance.
    I want to conclude. In regard, again, I was so offended by 
what Congressman Forbes said, and you know, we can take 
political correctness to an extraordinary conclusion. As I--
General, when I see you today, when I see those ribbons, I am 
inspired. It just--it is an inspiration, your service, but 
there are many places in our country that if they saw you in 
uniform, they would be repulsed. And so we have just got to 
stand up for what is right, and we need for you to stand up for 
all of--truly for religious freedom, for the standards of our 
country that have made this country great and provided for the 
greatest extension of freedom and democracy in the history of 
the world and with the victory in the Cold War. And so we 
shouldn't be ashamed, and we should be standing up for positive 
religious principles and push back on political correctness.
    I yield.
    The Chairman. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    Secretary James and General Welsh, thank you for your 
testimony, and as one of the co-chairs of the Air Force and 
Long-Range Strike Bomber Caucus, I look forward to working with 
you in the future, and I appreciate your commitment to the 
rebalance of the Asia-Pacific region.
    I notice that Secretary James said she has visited Air 
Force bases all over the Nation. I am wondering if she has ever 
been to our significant Air Force base in Guam, Andersen.
    Secretary James. Not yet, but I am looking forward to it.
    Ms. Bordallo. Good. I was going to extend an invitation to 
you.
    My first question is for either one of you regarding the 
long-range strike bomber. The LRS will be vital in providing a 
bomber presence in the Pacific as we work to update an aging B-
52 fleet. Now, the budget proposes an increase for the LRS to 
$914 million. Is $914 million enough, given the existing aging 
bomber fleet, and also, how critical is a bomber presence?
    Secretary James. So I believe, yes, that $914 million is 
the right amount of funding for this year. Of course, it is a 
long-term program, but that is the right amount of money for 
this year, and I think a bomber presence, the existence of our 
bombers is extremely important. The range, the persistence, the 
flexibility that it gives our national leaders; time after time 
in history it has helped to deter aggression and to actually 
control situations that otherwise would have escalated. So, 
very important.
    Ms. Bordallo. General, do you also feel the same way?
    General Welsh. Yes, ma'am. The United States has used 
bomber presence to send messages since the Berlin blockade. 
That B-52 has been a symbol of American power for 60 years, and 
the B-2 is that symbol now. Last year, we used both to send a 
message to North Korea. We think it is incredibly important.
    Ms. Bordallo. Thank you.
    I have a couple of questions, so I am going to have to make 
this quick. When I take CODELs [congressional delegations] out 
to Guam, we meet with the airmen who fly the B-52s. Now, they 
do a great job, as we have seen demonstrated with their quick 
response to the China ADIZ [Air Defense Identification Zone] 
issue. However, I am concerned about the B-52 radar capability. 
I understand that the current B-52 radar is experiencing a 20-, 
30-hour mean time between failures and very expensive to 
maintain. What is the plan, and how can we mitigate the current 
risk that these air crews are experiencing with this 30-year-
old radar?
    General Welsh. Congresswoman, as you know, there was a plan 
in place for a radar replacement program. That program went the 
same direction as the F-16 CAPES program we just discussed. It 
fell on the cutting room floor as a result of the requirement 
to pay $12.8 billion a year--to take $12.8 billion a year out 
of our top line over the next 10 years. We just can't afford 
it.
    Ms. Bordallo. Well, thank you for that. And my third 
question is, I understand that Global Hawks operating out of 
Guam have been performing a number of critical missions in the 
Pacific. The current budget proposes an increase from $120 
million to $245 million into reliability and sensor 
improvements of RQ-4. Can you provide us with an update about 
Global Hawk's use in the Pacific, including plans for expanded 
basing locations and sales to allied nations? Is this increase 
in funds in the RQ-4 capability sufficient to reduce ISR gaps, 
especially in the Asia-Pacific region?
    Secretary James. So, I would just begin by saying 
everything I know about the Global Hawks which are based in 
Guam, the Global Hawks in the Pacific, is they are going a 
great job day in and day out in a variety of missions, 
particularly helpful in the humanitarian assistance program 
that we helped in the Philippines after the major typhoon.
    In terms of international sales, there is nothing 
absolutely firm yet, although I understand the Republic of 
Korea, we are getting close.
    Ms. Bordallo. General.
    General Welsh. Yes, Congresswoman, we are working--we 
believe the sale of four Global Hawks to South Korea is 
imminent. We hope that is the case. We will have the first 
forward deployment of the Global Hawk to Japan later this year, 
and so I think we are doing more and more with our partners. 
The aircraft is performing very, very well. The money that you 
mention will be used this year to start the sensor transition 
from the U-2 onto the Global Hawk for some of their specialty 
sensors, like the SIRE [Synchronous Impulse Reconstruction] 
sensor and the Optical Bar Camera that is used to support 
treaty validation and verification in the Middle East.
    The problem with that movement going forward will be if--if 
the law remains the law, that funding will not be there to fund 
those upgrades.
    Ms. Bordallo. And again, I just want to reiterate my second 
question about the B-52s. I am really sorry to see that we are 
not going to be able to do something about the problem they 
have.
    And I thank you both for the answers to my questions.
    And I yield back, Mr. Chair.
    The Chairman. Thank you very much.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    I want to begin by associating myself with Mr. Forbes' 
comments of great concern about the issues that he has raised 
with religious freedom.
    Secondly, both of you received several questions about--
that are directed at the issue of disarming the United States 
nuclear capabilities and degrading them. I would ask the 
chairman to enter into the record the New York Times article 
that alleges that Russia is violating the INF [Intermediate-
Range Nuclear Forces] treaty. Certainly any issues with respect 
to disarming the United States should be held in context to the 
threats that we have.
    The Chairman. Without objection, so ordered.
    [The information referred to can be found in the Appendix 
on page 93.]
    Mr. Turner. Thank you, Mr. Chairman.
    Secretary James, I have Wright-Patterson Air Force Base in 
my district. Over 12,000 people were furloughed as a result of 
sequestration, significantly impacting morale. Although we 
understand you are doing a budget that is forcing you into bad 
decisions and into tough constraints, the reality is that the 
cuts that you are doing are devastating to the Air Force. They 
are wrong. They affect morale and capability. And although we 
have a discussion about whether or not you have made the right 
choices, I would like you to take just a minute or so to tell 
us how, why sequestration really is devastating for the Air 
Force.
    We can't, as members of this committee, go out to the rest 
of Congress and say, ``This is devastating, we shouldn't be 
doing this,'' if we can't have the leadership of the military 
articulate it.
    Madam Secretary, will you tell us how this is affecting the 
Air Force negatively.
    Secretary James. So a return to sequestration would have 
big, big consequences on readiness. Not only would we not be 
able to get up to the minimum levels that we say are necessary, 
we would also not be able to take it beyond to be able to 
practice the myriad of tasks which we need to be able to do if 
we go into a contested environment.
    Afghanistan was a noncontested; it was permissive. Nobody 
was shooting at us. Nobody was jamming at us. But in the 
Pacific, for example, or in other scenarios, we would have all 
kinds of other things coming at us.
    Not enough of our pilots have been able to practice it. So 
we would lose more people, we would lose more aircraft if we 
had to get into a situation without having those additional 
funds for readiness. That is one thing.
    We would also have to retire all of those additional 
aircraft. That goes to real capability to be able to get the 
job done, and you heard the chief say we are already below what 
the combatant commanders say they want. We are also below the 
validated requirements. Remember what they say they want, they 
want to be able to do their job with the least amount of risk, 
and then there are validated requirements. In some cases, we go 
beyond both, and again, that puts the whole strategy at risk.
    Mr. Turner. Thank you.
    I give the rest of my time to Mr. Bishop.
    Mr. Bishop. Madam Secretary, first of all, I want to thank 
you in your opening statement for reaffirming the nuclear triad 
and the commitment for land-based ICBM capabilities. I heard 
you correctly with that, right?
    Secretary James. Yes.
    Mr. Bishop. Thank you. Number two, I want to thank you for 
following the law, which seems unusual, but in our environment, 
that is something of which to be congratulated.
    Section 1056(e) prohibited you from doing an environmental 
impact on decommissioning an ICBM wing. Specifically, you 
followed that. I appreciate that. But in your response to 
Representative Sanchez' question, I do have three specific 
questions. I would like some specific answers.
    One, do you anticipate reducing the ICBM fleet of 450 
missiles, reducing that?
    Number two, will any of those silos be put in warm status?
    Number three, do you really believe you can conduct an 
environmental statement without Congress changing the law that 
prohibits it?
    Can you do those quickly for me?
    Secretary James. So, I am sorry, the numbers, I don't have 
memorized, but we are shooting for the new START numbers. That 
is what collectively we are shooting for.
    The warm base status, that is something which, again, I 
think, within the next few weeks, we will have more to say 
about. That was the Air Force's recommendation.
    And I am sorry, the third question, sir, one more time.
    Mr. Bishop. Do you actually believe you have the authority 
to do an environmental statement without Congress changing the 
law that prohibits it, specifically 1056(e)?
    Secretary James. There are different interpretations. I 
will just say that I am holding. I, as the Secretary of the Air 
Force, I am holding until and unless I get more guidance.
    Mr. Bishop. Holding for what?
    Secretary James. Holding until and unless I get more 
guidance, and I think in the next couple of weeks, this is 
going to become more clear on which way we are going to go.
    Mr. Bishop. I would like a follow-up answer for all of 
those if you have something more specific as to those numbers 
when it becomes available.
    In follow-up to my colleague's questions, can I simply ask 
the question that if I am offended by your budget, will you 
take it down?
    Yield back.
    Secretary James. Thank you.
    The Chairman. Could you please answer back to him as soon 
as you get that, the information on those three specific 
questions?
    Secretary James. I will.
    [The information referred to can be found in the Appendix 
on page 106.]
    The Chairman. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman, and thank you both 
for being here.
    General Welsh, I particularly want to thank you for your 
visit to Hanscom Air Force Base. It was great to have your wife 
join you, too. It meant a great deal to our commonwealth, to 
the communities around Hanscom that value so much its presence 
as well as to the many very able and talented people serving at 
Hanscom.
    I have heard a lot of feedback from how grateful people 
were for you both taking the time to come and visit, and also 
for us to be able to highlight the remarkable work that is 
being done there.
    And Secretary James, great to have you on board. I, like 
Congresswoman Bordallo, would love to invite you to come to 
Hanscom when your schedule allows for it. Be great to have you 
come see the great work being done there, but welcome.
    And so as you both have noted, these are just challenging 
times, marked by increasingly capable enemies in an era of very 
taut financial resources. And as the Department of Defense is 
adapting to these new realities, we in Congress, as you heard 
today, have to scrutinize the changes that you are proposing, 
but we welcome your analysis, your very welcome analysis of the 
tradeoffs you have made as you try to find a way forward.
    I would like to focus on the need to make continued 
investments in research and development efforts in order to 
maintain our technological edge, given the very dynamic 
security environment that we live in. And coming from 
Massachusetts, it is something where we really take great pride 
in being part of that because we see that it is precisely 
because of the investments that are being made in defense-
related R&D [research and development] that our service members 
are better protected, they have access to lifesaving 
technology, and we, as a country, have peerless technological 
advantages on the battlefield. Many of these advances also 
serve as force multipliers in the field, and they can lead to 
significant cost savings.
    So, in a world where we do have to modernize constantly, 
the Air Force has to be well positioned to build and sustain an 
environment that promotes innovation. It is a reality of our 
times.
    Such an environment will make sure that we are able to 
rapidly deliver the latest technological advances, and these, 
in turn, help to cut costs and protect our airmen and women. 
So, while the Department of Defense and Congress have partnered 
to undertake extensive acquisition reform efforts over the past 
decades, I am concerned that the unique type of rapid 
acquisition required to meet the needs of the Air Force's 
information technology [IT], cyber missions, that these pose 
unique challenges to the Department of Defense's acquisition 
system.
    So, what is the Air Force doing to address the specialized 
IT and cyber acquisition needs of the force, and what are the 
service's long-term plans to make sure that the Air Force is in 
a position to rapidly assess needs and field systems to meet 
the renewed requirements?
    Secretary James. So, I will just begin with a philosophical 
comment. I totally agree with you that we have to focus on more 
rapidly delivering capability to the field. We did this during 
the urgency of the wartime environment, and I do not want to 
see us totally return to the ways of the past, where all of our 
programs take a, you know, a very deliberative and long-term 
period to get going.
    We have pockets of this within the Department of Defense. 
These pockets have to compete for the scarce resources along 
with everything else, but I want you to know I am personally 
very interested in working on this issue and trying to get our 
S&T [science and technology] levels as a subset of that back up 
to where I think it is a more acceptable level.
    Ms. Tsongas. And I think you note a very important issue. 
Given the timeframe that some of this now requires, by the time 
you have gotten to a certain place, it is already obsolete, so 
it doesn't serve us as a country.
    General Welsh, I don't know if you want to comment.
    General Welsh. Congresswoman, the Secretary has also 
started a new conversation with industry at the CEO [Chief 
Executive Officer]-Secretary level to look at issues like this 
and figure out how we can do a better job by talking to people 
who do a great job of it in private industry today. The IT 
world, as you know, in the military, we have not had great 
success in developing systems over time in this arena. We have 
a lot to learn, and she will have people now advising her 
quarterly on the best way to look at some of these challenges 
and maybe come up with a better approach than the ones we have 
taken in the past. We have a lot of people working it very 
hard. We just have not been successful, which means I believe 
we have to change the process. The people are good. The process 
we are using isn't working.
    Ms. Tsongas. I would agree with that. I have seen some 
remarkably talented people who are really hamstrung by the 
process, and so I encourage you to continue, you know, working 
very, very diligently on making sure we bring the needed 
reforms to the effort.
    Thank you both.
    The Chairman. Thank you.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Madam Secretary, welcome.
    And General Welsh, welcome as well.
    I also want to associate with Mr. Forbes' comments. I worry 
that we have at a school that is training leaders to lead men 
and women into combat, that we have individuals who are so 
insecure and unsure of themselves, that they can't co-exist 
with the free expression of traditional religious views like 
that, that their lack of self--strength of purpose to be able 
to--to not be offended by something like that. I wonder if they 
are the right folks for that business.
    Madam Secretary, in all likelihood, you will be the last 
Secretary of the Air Force for this Administration; 2017 is 
coming on us with an audit standpoint. I appreciate your 
mentioning audit readiness as a point in your opening 
statements. We finally reached that point where we now have the 
person that we can hold responsible for whether the Air Force 
succeeds or not on this very important issue, and I would 
appreciate your full-throated support for that initiative. It 
is going to be hard with all the other things you are trying to 
deal with, sequestration, uncertainties in budgets, CRs 
[continuing resolutions], all the nonsense that we put you guys 
through. The Air Force has the furthest to go--that is not a 
badge of honor--because the other folks are further ahead. I 
have got a page out of last November's fire report, which shows 
the planned deadlines for a variety of things that the Air 
Force needed to get done in order to get to audit readiness. 
Not one of them have been met. Every one of those deadlines 
have been moved to 2014 or further, and all of those deadlines 
were important to making--getting there, getting the Air 
Force's ready on time.
    So, can you give us a--and General Welsh, you as well--can 
you give us your current status on where the Air Force is? Are 
you going to make it, and are you continuing the effort?
    Secretary James. So, I am having regular meetings on this, 
first of all. It is a top priority for me. Thank you for 
pointing out kind of we are where we are, and it is a daunting 
challenge, and I have also heard the comparison that we 
probably have the farthest to go of all of the military 
services. But I want you to know, we are both on it and we are 
both pressing and very aware of the deadlines in the law.
    The other thing is, I am sort of also watching the 
experience of others, and it has become apparent to me that 
sometimes you may not feel you are 100 percent ready to go 
through that auditability, but if you are 75 to 80 percent, 
maybe it is better to try, even if you don't make it, because 
the following year, you will make it. So you learn sometimes, 
even though you go through it and you don't get it the first 
time around. So, I am watching that very closely as well. So 
all I can say to you, in my first 11 weeks, I have had several 
meetings on this already. I am trying to be on top of it. As 
you said, it is a daunting challenge.
    Mr. Conaway. General Welsh, how far down the chain of 
command do you think this importance has been communicated?
    General Welsh. Sir, when I was a commander of the U.S. Air 
Forces in Europe 3\1/2\ years ago, I was doing biweekly VTCs 
[video tele-conferencing] with every wing commander in my 
command to talk about audit readiness. We have been working 
this hard. The problem is we don't have the tools to do it 
right, and I have seen the same sheet you have, sir, so I have 
nothing to add to what the Secretary said. We have got to keep 
grinding on this.
    Mr. Conaway. Well, Madam Secretary, thank you for those 
comments about learning from the efforts of others. The Marine 
Corps have finally gotten at least one year of transactions 
auditable and audited, and they learned a lot by going at it 
and just trying it, as opposed to getting ready. So I do 
appreciate that pivot from getting ready to do it to just doing 
it and the issues that you will learn and make the--this is 
important stuff to be able to tell the American people that the 
entity that spends more taxpayer dollars than any other each 
year, each year in and year out is--can in fact audit its books 
and present that statement to the taxpayers. And you may very 
well know where every nickel has gone, but you can't prove it, 
and so that is really important to us.
    So, again, I want to reiterate, and again, this is a 
rhetorical question, don't need a response, but if a young 
airman approached the chaplain and said, you know, you are 
wearing that cross on your uniform, that offends me, that makes 
me uncomfortable.
    So I yield back, Mr. Chair.
    The Chairman. Thank you.
    Mr. Barber.
    Mr. Barber. Thank you, Mr. Chairman.
    And thank you, Secretary James and General Welch, for being 
here this morning. Obviously, we all have some very serious 
concerns about the decisions or the proposals, at least, that 
you have made in response to sequestration and the other budget 
restrictions.
    I am very concerned, and I think my colleagues here, in 
particular, are very concerned about the future ability that we 
have to protect the Nation and to secure our borders and to 
support our allies.
    I do want to thank you, Madam Secretary, for--and 
congratulate you for taking on this important assignment and 
for being so hands-on so early. I mentioned to you before we 
started how impressed I think many of us were with you going 
out and actually meeting in person with our Air Force personnel 
who are involved with our nuclear defense program.
    And General Welsh, I want to thank you also for your 
service; you have given the Nation an incredible number of 
years of service. And also to recognize and thank you for 
bringing your wife and your daughter here today. I think they 
are a good reminder that while you serve in a uniform, they 
serve, too. Their sacrifices are incredible.
    As a young man growing up, a boy growing up in the Air 
Force, Air Force family, I saw firsthand, experienced firsthand 
the sacrifices that my mother and my sister and myself made to 
support my dad. He was stationed at Davis-Monthan Air Force 
Base, so I have a particular affection for that base. I lived 
and grew up there as a kid, cut a lot of lawns earning pocket 
money there actually. But I also was there when the Cuban 
missile crisis struck, and I remember the base was locked down 
and Davis-Monthan Air Force Base was right on the front line of 
the defense of the Nation and I believe it will hopefully 
continue to be so as we go into the future.
    I am concerned, obviously, about the A-10. We have talked 
about in this hearing before. This morning, we have several A-
10 pilots, former A-10 pilots, including yourself, General, in 
the room, including, I think she may have left, Colonel--
retired Colonel McSally, who was an A-10 pilot flying out of 
Davis-Monthan, and I think their presence reminds us that this 
is not a partisan issue.
    We have 31 colleagues here in the House and in the Senate, 
both parties represented, who have fought from the beginning to 
say, Let's take another look at this decision or proposal on 
the A-10s. And I hope we can still continue to look at that, 
even as we consider how we have to make these incredible budget 
reductions.
    I really want to also point out that the concerns that have 
been raised here today about the American public's awareness or 
lack of awareness of what these sequestration numbers are doing 
or potentially doing to our national defense is something we 
all need to be concerned about. We need to educate our 
colleagues in the House. We need to educate the American 
public. They simply don't understand that the path we are on is 
a very grave problem and danger to our country.
    With that preamble, I want to ask you this morning about 
the A-10. You know, when I talk to the Army personnel who I 
also represent at Fort Huachuca, they tell me, when that 
Warthog is overhead, best day they have had. I know we all 
agree, and you have said it in your statements, that providing 
close air support to our ground troops, combat troops, is a 
critical mission the Air Force should maintain. And I have also 
heard the argument that the Air Force has made that the 
advancement of guided weapons systems allows for many more 
types of aircraft to provide effective close air support, but 
there are critical elements of the close air support mission 
that multi-role fighters simply cannot make, cannot perform 
like the A-10.
    So, General Welsh and Madam Secretary, if you could both 
respond to these questions.
    If the A-10 is retired, what is the Air Force's plan to 
support our ground troops during the danger and close 
situations of enemy forces within 100 meters, and what plan are 
the U.S. troops going to have when engaging the enemy on the 
fluid battlefield with moving targets below 1,500 feet and 
weather ceilings. This is what the A-10 does best. Could you 
respond please to both questions?
    Secretary James. So, again, I will start, Mr. Barber, and 
thank you for your comments about me trying to be on top of 
things early on. And I also try to do quite a bit of my own due 
diligence on the matter of the A-10 because I, too, had heard 
it is a specialty capability and so forth and it does some of 
these missions in a unique way. And what I have learned along 
the way--by the way, briefings in the Pentagon, I have talked 
to General Odierno, Dempsey, I have been out, I have been to 
Moody Air Force Base, and I have seen the A-10 in a 
demonstration. I have talked to F-16 pilots at Shaw Air Force 
Base who also have done the A-10 mission.
    What I have learned over time is although it is a great 
aircraft and it does do close air support superbly, these other 
aircraft can do it as well, and 80 percent of what we have done 
in close air support in Afghanistan has been by aircraft other 
than A-10. So, for example, the F-16s at Shaw, I talked to some 
of those pilots, they have been doing close air support as 
well, so 20 percent by the A-10s and 80 percent by other 
aircraft. So, again, the mission would be covered. You say, 
well, if you do away, how would you do these missions? It would 
be covered by other aircraft that might require other training 
for some other pilots, of course, to be able to get good at 
those particular areas, but we feel that it could be covered.
    The Chairman. Gentleman's time is expired.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Secretary James, thank you for coming to Colorado Springs 
last week. It was good to see you there, and you both know that 
the Air Force Academy is in my district, and like 
Representative Forbes, I am very disturbed about what happened 
with this cadet. I believe it was a suppression of his 
religious rights.
    And I am going to ask you in a minute about funding cuts at 
Air Force Academy, and I want to defend the Academy, but my 
job, frankly, has been made a little bit harder because of 
that.
    Before I get to that, let me talk about a different issue 
concerning--and this is purely of local interest to the folks 
who live around there--the flight paths. There has been some 
concern about changes in the flight patterns, and we have--I 
have expressed my concern to you and you said that you would 
work with me and you would work with the local residents on 
that, and I appreciate that. I just wanted to call that to your 
attention.
    Now, on the funding issue, the Air Force Academy is cutting 
10 majors and 100 positions because of budget considerations. 
Now, I don't see that happening, though, at the U.S. Naval 
Academy, at West Point, or at the Merchant Marine Academy. Why 
is there this, what appears to me, a discrepancy in how the 
service academies are treating budget cuts?
    General Welsh. Thanks for the question, Congressman. This 
is a really important topic. One of the things I asked General 
Johnson to do when she first went to be the Superintendent at 
the Academy was to take an objective look at the Air Force 
Academy. After she figured out exactly what the programs were, 
how they were organized, I asked her to form a small group and 
design in private what the Air Force Academy would look like if 
she was building it today. Not architecturally but program-
wise. What would the content be, what would the academic 
curriculum be, what would the sports program be, what would the 
military training program be, and then after she watched the 
way it is today at the end of her first year, this coming 
summer, then I wanted to sit down with her and have her tell me 
if it is different than the way we would design it today, where 
is it different, why is it different, and what should we 
change?
    One of the things she has already done is created a paper 
called ``The Essence of the U.S. Air Force Academy,'' which is 
her view and the view of a group she is working with of what is 
absolutely required for our young men and women to go through 
at the Academy so that we produce the best responsible 
lieutenants for the United States Air Force and for the Nation. 
As part of that, she is looking at everything from course 
content, number of majors offered, all those things, and some 
of this is caught up in that effort. It is not all funding 
cuts. And so I tell you that up front.
    Mr. Lamborn. Okay. Thank you.
    General Welsh. Yes, sir.
    Mr. Lamborn. Thank you for that explanation.
    On an entirely different subject, with the 52nd Airlift 
Squadron losing airplanes, a related--an associated unit is the 
302nd, and they have the--among other missions, the airborne 
fire fighting mission, or MAFFS [Modular Airborne Fire Fighting 
System], which is important in the west for fighting wildfires, 
being able to dump thousands of gallons of retardant and water 
on a wildfire. So, will those cuts in the 52nd Airlift Squadron 
hurt the capability of the 302nd, which is an associated unit, 
of being able to carry out its mission, especially its MAFFS 
mission, in particular.
    General Welsh. Congressman, I will have to get back with 
you on the specifics after talking to General Frank Grass of 
the National Guard Bureau and our chief of the International 
Guard, but I guarantee you, General Grass is not interested in 
cutting MAFFS capability anywhere in the U.S. right now. In 
fact, we have been looking to expand it in any way we can, so I 
can't imagine we are going to impact that dramatically, but let 
me get the details back.
    [The information referred to can be found in the Appendix 
on page 108.]
    Mr. Lamborn. Okay. That is a reassuring answer. I 
appreciate that, and I look forward to getting further 
specifics from you.
    And lastly, I just want to call to your attention the 
unfortunate, the tragic Aviano F-16 crash last year, where, 
upon ejection, one of our best pilots lost his life, and are 
you familiar with the progress of ejection seats over the years 
now? Older ones don't really fit the--best fit the current 
needs, and what is the Air Force going to do to get a newer 
better generation of ejection seat? Can you answer that for me?
    General Welsh. Congressman, there is a study under way now 
about the problems with performance of the airplane versus 
technological development in the seat. The seat is a very 
capable seat. It meets all the requirements that we set for the 
seat. The problem in the Aviano incident, specifically, when 
Luke Gruenther was killed, was that he ejected at a very high 
rate of speed, and no seat that we have today would protect you 
in that flight envelope. The question is, can we develop one 
that we can expand and fly in a larger flight envelope so it 
can handle ejection at a higher speed and at more G forces? We 
have a study under way to look at that now.
    Mr. Lamborn. Thank you very much.
    The Chairman. Thank you.
    Mr. Garamendi.
    Mr. Garamendi. I have a series of questions, but first, let 
me congratulate you, Secretary James and General. The 
questions--and I think I will probably take these for the 
record because I have another issue that I want to take up. The 
air-launched cruise missile, what is the status of the new 
version of the long-range strike LRSO [long-range stand-off 
missile]? What is the cost of it? What is the cost of the new 
bomber beyond the $913 million in the fiscal year 2015 budget? 
And could the new LRSO serve the same purposes as the bomber? 
If not, why not? I would ask that for the record, unless you 
would like to go at it.
    Secondly, if the NNSA [National Nuclear Security 
Administration] budget was part of the DOD budget, what 
reductions or increases would you recommend? The Air Force is 
now studying the next generation of the ICBM. What is the 
rationale for having the existing or future ICBM fleet, and is 
this part of the study? For the ICBM, what is the total all-
inclusive cost of the land-based ICBM program? And then, when 
was the most recent comprehensive review or study of the Triad 
Nuclear Strategy? And given the tight budgets in the years 
ahead, do you believe it is wise and useful to conduct such a 
study? I think we will take those for the record, since they 
are comprehensive.
    [The information referred to can be found in the Appendix 
beginning on page 106.]
    Mr. Garamendi. But this is the question I have for now. 
Russian troops mass at the border in the Ukraine rift. What is 
the status of the Air Force in reaction to this situation?
    General Welsh. Congressman, we have deployed 10 F-15s right 
now to Lithuania. They are doing a program called Baltic Air 
Policing. Usually we do that with four. We plussed it up with 
six additional ones. They are flying combat air patrol over the 
three Baltic nations. We have also just deployed six F-16s to 
4ask airfield in Poland to an aviation detachment we have 
there. We will add 6 more here in the near future, so there 
will be 12 U.S. F-16s flying in Poland. We are following that 
in April with a C-130 deployment for training with the Polish 
Air Force to another base in Poland. That is the extent of what 
we have done to this point along with flying the normal ISR 
activity that U.S. European Command manages in the theater.
    Mr. Garamendi. Thank you.
    I will yield back.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Secretary James, General Welsh, thank you so much for 
joining us today, and thanks for your service to our Nation.
    General Welsh, I traveled to the Pacific Command a number 
of times, and as I have gone there and I met with our allies, I 
have talked to our combatant commanders and their staffs and 
talked about the challenges in the region. And one thing that 
comes up consistently is the Chinese threat and specifically 
A2/AD [anti-access/area denial]. Can you give me, from the Air 
Force's perspective about what you have as being able to 
counter that, where you see Air Force capability needing to go 
to make sure that we can adequately address A2/AD, and 
specifically in that region of the world, and we know the 
Chinese capability there and what it means as a threat to our 
forces?
    General Welsh. Thank you, Congressman. I can. We started an 
effort awhile back called Air-Sea Battle. It began as Air Force 
and Navy. It now includes Army and Marine Corps. And the intent 
is to get after our future approach to countering this A2/AD, 
and all anti-access/area denial really means is that the 
enemy's ability to detect us is getting better and better, the 
ranges of their radar are extending, and their ability to shoot 
things at us is getting longer and longer ranges. And so how do 
we counter that as a military force? And how do we do it 
together, because we will be fighting together? That is all 
this Air-Sea Battle effort is.
    We have been doing exercises. We have been working on 
different command and control arrangements. We are actually 
doing technology excursions to figure out how do we better link 
Aegis radars with Air Force aircraft; what kind of data links 
will require us to be able to share situational awareness 
pictures quicker and easier. We have an airborne layer and a 
spaceborne layer of this effort. It applies equally in the 
Pacific as it would in the Arabian Gulf or in the Indian Ocean. 
It is just about range and information sharing and 
connectivity. And so we are trying to do everything we can to 
move this forward in a very measured and steady way.
    Mr. Wittman. Okay. Very good. Are you comfortable then with 
our current state of readiness to be able to counter that 
threat?
    General Welsh. Congressman, I am not comfortable at our 
current state of readiness to be able to do anything.
    Mr. Wittman. Okay.
    General Welsh. Right now, the United States Air Force's 
combat-coded squadrons are about 38 percent ready compared to 
our standard of fully combat ready. To me, that is 
unacceptable.
    Mr. Wittman. Very good. Thank you.
    Secretary James, I want to ask about F-35 sustainability. 
As you know, those concerns about affordability and 
sustainability of the F-35 platform itself; looking forward, 
there are concerns, too, that Lockheed has the contract to make 
sure the functions and services going forward are there for the 
F-35. There is concern, too, about a 5-hour lag time on sorties 
for the aircraft.
    As we look at the challenges ahead, obviously needing that 
aircraft but also making sure that in this resource challenged 
environment we are making the right decisions and we have the 
right capability in that aircraft and we manage costs. And as 
things tend to get out of whack, the problem is costs go up, 
and we see we are back in the same situation we were with the 
F-22, much fewer aircraft and then not being able to do the 
things we need to do. Can you give me your perspective on both 
affordability and sustainability for the F-35 and where we are 
going with that and what is being done to make sure that it is 
indeed cost-effective and sustainable?
    Secretary James. So, I believe we are headed in the right 
direction, although I am going to concur with what I think you 
are saying. It is an enormously expensive program. It is 
enormously complex, a major leap ahead in terms of technology 
and capability. So, again, in my first 11 weeks, not only have 
I gotten the briefings in the Pentagon, I have been out to 
Eglin, I have been to Edwards to see the testing, to see some 
of the training that we are doing with our pilots. I have 
certainly met with our program manager a number of times, Mr. 
Kendall. I have met with the CEO of Lockheed to sort of report 
directly on some of what I saw, both at Eglin and Edwards, and 
to try to speed up certain things.
    So I would say to you it is going in the right direction, 
but it is going to take persistent focus, persistent leadership 
at all the different levels. I think at the moment, we have got 
the right people in the right jobs, and that persistent focus 
and leadership is happening. So we have got to watchdog it, 
though, every single day, and the sustainability and 
affordability, over time, is a huge area. It is one that is 
going to require a lot of thought. There might be--there is, I 
am sure, some creative strategies for that as well that we have 
to work on.
    Mr. Wittman. This is a critical piece of the modernization 
of our fighter fleet, and the problem is we have everything put 
here, and the difficulty is, is if it continues to go above 
budget and doesn't get delivered on time, that just exacerbates 
an already challenging situation that is brought on, not just 
by budgets but by critical mission needs that are out there 
across our service branches. So I want to make sure that we are 
doing everything we can to address sustainability and 
affordability.
    Thank you, Mr. Chairman.
    I yield back.
    The Chairman. Thank you very much.
    They just called the votes. We are going to monitor--
usually, you know, the first vote takes a long time, so we are 
going to try to get as much in as we can before we have to 
break for the votes.
    Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And Secretary James, General Welsh, thank you very much for 
your leadership, for your professionalism.
    I want to talk about personnel issues. They are really the 
toughest ones we face, and I know that, Secretary James, this 
is something that you are very familiar with.
    The Air Force is supporting DOD's effort to slow the rate 
of growth in overall military compensation, a tough issue. We 
were able to really sustain a number of increases over the last 
number of years, and I think we all feel very strongly that we 
want to support the men and women who serve our country and 
certainly their families, and yet we are faced with this 
dilemma. It is tough.
    So if you could talk us through a little bit about your own 
thinking and the extent to which you think it may or may not 
affect recruitment retention in the future. We are also dealing 
with perhaps cutbacks in housing allowances. We are looking at 
possible increase in commissary prices. And in fact, the Air 
Force is sort of going ahead in what some might describe as a 
piecemeal fashion, without waiting for the commission to come 
forward with their recommendations.
    Help us understand your thinking on this, and really how we 
can look at those changes that you are suggesting in light of 
other things that we might not be able to do if we don't move 
forward and do that.
    Secretary James. So you said it, Congresswoman. It is part 
of the package of the tough choices that were made, and of 
course, the compensation changes are DOD-wide. They are for all 
of our military, and I think it was at its core, it was a tough 
judgment call, but it related to, can we do this for a few 
years? I don't think anybody wants to do this kind of thing in 
perpetuity, but can we get by for a few years. So part of the 
data that everybody looked at was, are we competitive now, yes 
or no, in the aggregate with the private sector? And I think 
people said, yes, we are.
    Then the further judgment call had to do with, you know, 
would we plow the savings back into important readiness and 
modernization, and of course, we are very much committed to 
that.
    The other thing is, as you heard the chief say, we are not 
seeing retention problems at the moment. As a matter of fact, 
we are offering incentives to encourage at least some of our 
airmen to leave the service. So, at the moment, retention is 
very high.
    Recruitment, again, we are getting high-quality recruits. 
We are having to turn people away at the front door. So, at the 
moment, our numbers are good, and so, it was a judgment call; 
could we slow this growth, watch it, really watchdog it now 
because we can't let it get out of control, of course, but can 
we get by a year or two? And we are taking this, obviously, 
kind of a year at a time, and I think the judgment call was a 
hard one, but yes, we can.
    Mrs. Davis. Uh-huh.
    General Welsh.
    General Welsh. Ma'am, I guess I would look at it as the 
United States Congress--and I am not blowing smoke at anybody 
here--has been exceptional over the last 12 to 15 years at 
taking care of pay entitlements, benefits for members of the 
United States military. It has been remarkable. And you have 
all seen the growth curves. Average pay raise scales are up 40 
percent. The cost of an airman has gone from $60,000 per year 
total investment cost to $90,000 total investment cost because 
you have done a fantastic job of taking care of our people, but 
that curve is growing like this now. We cannot sustain it. The 
Government can't sustain it. We have to put it onto a path that 
we can sustain. We are not talking about taking money out of 
people's pockets. We are slowing growth, and I think that is 
the effort that the Department is making.
    I believe everyone understands that the commission report 
out next year and having a comprehensive look will be of great 
benefit.
    Mrs. Davis. Uh-huh.
    If we ask airmen, certainly, and their families, they would 
suggest that, you know, they don't want to see any cuts, but I 
wonder when you assess that, when you query in evaluations or 
whatever tools you use, and I know all the services use some, 
are we really giving them, I think, a true picture of the cost 
of these cuts versus other things that they would not be able 
to do in terms of even training or readiness? How are you kind 
of really working with them to have them prioritize as well 
what is best for them?
    Secretary James. So, first, I would just say, as I have 
done my beginnings of my tour of the Air Force and walk around 
workspaces--I do town halls everywhere I go and talk to 
airmen--the number one thing they will bring up to me is, boy, 
during that period of sequestration, I couldn't get spare 
parts, I couldn't do my job, my training got canceled, things 
like this. And those are the things that we would call in this 
committee readiness types of issues. They typically haven't 
brought up, believe it or not, the compensation issues to me 
until I bring it up in a town hall, and then, of course, as you 
say, everybody is interested, everybody--you know, I haven't 
met a person yet that wouldn't rather be paid a little bit more 
than a little bit less, so, naturally, they feel that way, too. 
But interesting, when they bring up what is on their minds, it 
tends to be their work environment. It tends to be----
    The Chairman. Gentlelady's time is expired.
    Mrs. Davis. Thank you.
    The Chairman. Mr.--or Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    And I want to welcome our panel today.
    And Ms. James, you and I recently had a sit-down 
conversation, and it did include religious liberty. Again, a 
big concern. I join my colleagues here as we are all concerned 
about that, and one of the major pieces of this is that we are 
worried that this idea in the law that good order and 
discipline is now becoming the excuse for political 
correctness. And I think that is--that very quickly tramples 
the First Amendment rights of our certainly our airmen because 
it seems that we are seeing this in the Air Force far more than 
the other services.
    Now, you heard about the recent incident with the cadet. 
Well, we have another report. Todd Starnes of Fox News says 
that 2 weeks ago, it has been reported at Gunter Annex, at 
Maxwell Air Force Base in Alabama, the Gideons came to 
distribute Bibles to anyone who wished to voluntarily have one. 
As you may recall, Gideons have been distributing Bibles at 
military bases since FDR [Franklin Delano Roosevelt], since 
World War II, so that is a long-held tradition. They were 
turned away, and as of this time, 2 weeks later, really this 
situation has not been resolved. They have not been able to do 
something they have been able to do for decades now. I would 
love to have your reaction.
    Secretary James. So, I am not familiar with that one at 
all. We will have to get back on those specifics.
    [The information referred to can be found in the Appendix 
beginning on page 109.]
    Secretary James. My overall reaction is, this is--under the 
policy, and I apologize if I got a little too wordy about the 
policy, but it is a balancing act. It is balancing that free 
expression of religion with the needs of the military and not 
giving the appearance or an actuality of forcing anything or 
appearing to force anything.
    Dr. Fleming. Madam Secretary, this has worked well for 
centuries since the days of George Washington. We had 
chaplains. I served in the military. This was not an issue 
then. It has only been an issue recently, and so things that 
have been done, traditions that have been long held, where 
military members have been able to express themselves and their 
religious beliefs, we have a wide swath in the First Amendment 
on this. So what has changed is the behavior of the military 
services, particularly the Air Force in this, and that is the 
reason why, you know, we have had religious people long before 
we had a Nation. Well, what has changed, it appears, is the 
attitude and the behavior of the military services.
    General, would you like to----
    General Welsh. I would love to, Congressman.
    Dr. Fleming. Yes.
    General Welsh. My wife and I, when we worked at the Air 
Force Academy in the mid-1980s, and again, when we served there 
as Commandant, we ran the Teens Encounter Christ Program, which 
is a religious retreat program for Catholic and Christian 
cadets. I know all kinds of people at the Air Force Academy 
then and now who would disagree with your assessment of there 
being a problem with religious persecution at the Air Force 
Academy. I would invite you----
    Dr. Fleming. General, excuse me for interrupting. Let me 
just ask you this in response to that. So are you saying that 
people are more religious in expressing their religious beliefs 
more now than they did then?
    General Welsh. What I am saying, sir, is that you have to 
get the facts right on every one of these cases and try and 
stay unemotional until you know what happened. I would not 
believe an article from Mr. Starnes, for starters.
    Dr. Fleming. So you feel like Mr. Starnes is lying?
    General Welsh. Let us get the facts.
    Dr. Fleming. You feel like Mr. Starnes is lying?
    General Welsh. I know there are cases where he has not had 
his facts right in articles. I will be happy to explain them to 
you with him in the room if you would like.
    Dr. Fleming. Well, I don't have the time for you to go 
through all that. What I would ask you to do, sir, is to 
provide written answers and explanations and examples where Mr. 
Starnes or others have been reporting this inaccurately.
    [The information referred to can be found in the Appendix 
on page 110.]
    General Welsh. Sir, I would be happy to come talk to you 
and the caucus. I will be happy to do anything you would like, 
and I will tell you what we have been doing on this area since 
I got into the job, the single biggest frustration I have had 
in this job is the perception that somehow there is religious 
persecution inside the United States Air Force. It is not true. 
We have incidents, like everybody has incidents. We investigate 
every one of them. We have asked every chaplain in our Air 
Force if they know of these cases. They say no. I am telling 
you, sir, that there is a perception here that we are in the 
middle of a battle because we have two sets of advocacy groups.
    Dr. Fleming. Again, I am running out of time here. I have 
spoken with your chaplain, and I think he has some of the same 
concerns I do, and I would invite you to talk with him. Are you 
familiar with the----
    General Welsh. Chaplain Stendahl, sir?
    Dr. Fleming. Yes.
    General Welsh. Okay. Sir, I will bring him to sit with you 
because I don't think that is a correct assessment.
    Dr. Fleming. I would love for you to do that. Are you 
familiar with the ``Clear and Present Danger'' publication by 
the FRC [Family Research Council] that suggested this?
    General Welsh. Yes, sir, I have read it.
    Dr. Fleming. Many, many items have been listed there, and 
Secretary James and I have talked about Staff Sergeant Monk, 
and apparently the Air Force's position has changed with him as 
well. So, again, these problems are getting worse, not better.
    The Chairman. Gentleman's time is----
    Dr. Fleming. I yield back.
    The Chairman [continuing]. Expired. There are 4 minutes 
left on the vote; 324 people have not voted yet. I think we 
have time for Mr. Enyart, and then there are two votes. By the 
time we get there for this vote, we should be getting close to 
the next vote, and you can hurry back, and I think we can get 
everybody that returns very quickly having the opportunity to 
ask their questions.
    Mr. Enyart.
    Mr. Enyart. Thank you, Mr. Chairman.
    And it is unfortunate that so many of our members are 
leaving. I wish they were here to hear some of my questions and 
your responses.
    Madam Secretary and General Welsh, after having appointed 
some--been honored with being allowed to select some folks for 
appointment to the Air Force Academy, I believe, as I am sure 
you do, that the Air Force Academy has our very best and our 
very brightest of our Nation, and it encompasses, the folks 
there encompass the very broad religious diversity of our great 
Nation. Wouldn't you agree with me on that?
    General Welsh. Yes.
    Mr. Enyart. Thank you.
    You know, also, having served for more than a few years in 
the military, the Air Force Academy for the students is a very, 
very confined and close environment. Isn't that also true?
    General Welsh. Yes, sir.
    Mr. Enyart. Yeah. Thank you. You know, during--during my--
--
    The Chairman. Mr. Enyart, to get this in the record, 
probably give a verbal response instead of just a nod because 
it won't--it won't reflect in the record. Mr. Enyart.
    Mr. Enyart. Thank you, Mr. Chairman.
    The Air Force Academy, as indicated, as you indicated yes 
to, is a very constrained and close environment for the cadets. 
Is it not?
    General Welsh. Yes, sir, it is.
    Mr. Enyart. All right. Thank you. You know, in my previous 
career before I had decided to come to Congress, I had the 
honor of commanding 13,000 soldiers and airmen. Of that number, 
I had 35 chaplains in my command and 15 chaplain candidates, so 
50 folks who provided for the spiritual needs of that 13,000 
soldiers and airmen. And it appears to me that among our 
religious freedoms that are guaranteed by our constitution is 
not only the freedom to practice religion but the freedom not 
to practice if one so chooses.
    And in fact, also, I believe that it is one of our freedoms 
not to be proselytized by one of another faith if one has a 
different faith or no faith at all. Would you agree with me, 
General, that that is your understanding of the Constitution 
also?
    General Welsh. Yes, sir, the way I tell airmen, the way I 
would explain this to airmen, is that you have every right to 
your beliefs, and to practice your faith freely. If someone 
asks you about your faith, tell them everything about it. If 
they don't ask you, don't assume they want or need to know.
    Mr. Enyart. Thank you, General. So I would really like to 
see this particular issue laid to rest so that we could deal 
with more important issues, frankly, in terms of strategy and 
tactics.
    Now, the National Commission on the Structure of the Air 
Force has talked about a concept called continuum of service, 
and as someone who has served on Active Duty in the Air Force, 
and the Air Force Reserve, and the Army National Guard and the 
Army Reserve, I am very interested in continuum of service. 
Now, in that concept, airmen have a much greater flexibility to 
leave and reenter Active and Reserve Components throughout 
their careers which would enable more effective and efficient--
excuse me, efficient utilization of an integrated total force.
    Now, I know that some of those barriers are contained in 
law, but others really are more a culture, and regulatory, and 
policy issue for the Air Force. Would you support the concept 
of continuum of service for airmen?
    General Welsh. Yes, sir, absolutely. We are working hard in 
that direction.
    Mr. Enyart. Great. Great, thank you.
    So in addition to removing the barriers to transitioning 
between components, Congress and the DOD should modify the laws 
and regulations that create these unnecessary limitations. Do 
you believe that by doing this, it would allow the Air Force to 
more fully capitalize on the costs of training these airmen?
    General Welsh. Sir, I think anything that keeps common 
sense in the discussion and removes burdens to doing things in 
a way that makes common sense, would be helpful.
    Mr. Enyart. Great. General, I look forward to welcoming you 
to Scott Air Force Base next Friday. I understand that you are 
going to be visiting us, and I am really glad to hear that, and 
I will take this answer off the record or in writing, but I 
would like to get an update on the KC-46 alpha program, the new 
tankers, and how the fiscal constraints are impacting the 
delivery of those aircraft.
    And also, I am particularly interested, since Scott Air 
Force Base houses the 126th Air National Guard Refueling Wing, 
which currently fly 135s that are older than the young airmen 
flying them, I would like to know where Scott falls in the 
process and how we might ensure that we continue that great 
mission at Scott Air Force Base.
    General Welsh. Sure.
    [The information referred to can be found in the Appendix 
beginning on page 111.]
    The Chairman. The gentleman's time is expired.
    I would encourage you to hurry quickly to the floor.
    We will stand adjourned until the end of the votes.
    [Recess.]
    Mr. Palazzo [presiding]. This hearing will now come back to 
order.
    I recognize Mr. McIntyre for 5 minutes.
    Mr. McIntyre. Thank you so much, Mr. Chairman.
    Madam Secretary, I know we spoke briefly as I came back 
from votes, but let me just say as a Carolina graduate from 
Chapel Hill speaking to a Duke graduate, I know we both are 
excited about the ACC [Atlantic Coast Conference] tournament 
going on as we speak, and also March Madness, but let me say 
congratulations to you on your selection as Secretary of the 
Air Force. We are very proud of you and appreciate your 
commitment and service to our country.
    Let me mention briefly before I ask a specific question 
about something in North Carolina. Let me just say a lot has 
been said today about concerns about religious freedom. As 
cochairman of the Air Force Caucus, I agree with my cochairman 
Mike Turner who spoke earlier, both of whom he and I associated 
ourselves, and I do now, with the remarks by Representative 
Forbes and the concerns he raised.
    I served for 8 years on the Naval Academy board on behalf 
of this full committee, and never seemed to run into these 
kinds of issues, or intimidation factor that some have referred 
to about the concern of religious freedom. And I think probably 
what would be helpful is, if you and General Welsh, if you all 
would--would you be willing to submit a detailed explanation 
within the next 10 days? I think it would help all of us, of 
the event that occurred, regarding this incident, because all I 
have seen are news reports. I would like to hear it straight 
from you all what the official version is.
    Secondly, what the Air Force Academy policy is, and then 
third, how that policy was applied in this situation so each of 
us can have a better understanding in light of our concerns. 
And they are serious concerns, and we do want, of course, our 
men and women in uniform to have that freedom of expression. So 
if you could--would you be willing to supply that to us in the 
next 10 days?
    Secretary James. We absolutely will, and I was concerned, 
too. That is why I picked up the phone and called General 
Johnson. But let us provide all of that to you.
    Mr. McIntyre. Okay, I think that would help all of us and 
thank you. We will look forward to receiving that.
    [The information referred to can be found in the Appendix 
on page 105.]
    Mr. McIntyre. An important issue that has drawn concern on 
a bipartisan, bicameral basis in North Carolina, in particular, 
Senator Burr, Senator Hagan, Representative Ellmers, and 
Representative Price and myself have all raised questions about 
the possibility that the Air Force has indicated it may 
deactivate the 440th Airlift Wing at Pope Army Air Field that 
would send all 11 of its C-130s to other bases.
    And here I just want to give credit to and quote from the 
Raleigh News and Observer article. As it says, I think this 
simplifies it. ``The 440th provides airlift, air drop and 
medical support from Fort Bragg and all of the airmen training 
just this past week when the newspaper spent time with those 
airmen and reported on this, all of those had been deployed 
overseas at least once. Last year the 440th, moved more than 
500,000 pounds of cargo, 3,400 passengers, and 13,000 
paratroopers working with a combination of active duty and 
Reserve personnel.''
    Of course, the concern there at Pope Army Airfield is that 
there is concern about jobs being lost, but also lost expertise 
and lost capability. And as the newspaper wrote, if the 440th 
goes, who will fill its role? There has been a stated 
possibility by a spokeswoman for the 440th that new C-130Js 
would be sent to Pope, but the uncertainty remains.
    Are these C-130s just going to leave and then where is the 
support factor that we need at Fort Bragg? As you know under 
BRAC [Base Closure and Realignment], Pope Air Force Base became 
Pope Army Airfield, and it is under BRAC's jurisdiction, yet we 
have both Active Air Force, and Air Force Reserve Components 
there.
    So it is quite a serious concern, and as I said, it has 
risen to the level of the attention in both Houses of the 
Congress and we would like to see what your response is.
    General Welsh. Congressman, the unit is an Air Force 
Reserve unit that would be leaving. The intent is to take the 
C-130Js and not put them at Fort Bragg, but move them to Little 
Rock, Arkansas.
    The chief of the Air Force Reserve, Lieutenant General 
Jackson, would tell you that there is a problem with recruiting 
for that unit in that area, in his Reserve unit. He would also 
tell you, as I said before, that every decision we are making 
right now hurts. They have to downsize as well.
    This move would save them about $23 million a year. It 
would save them about 600 bodies, because the wing that leaves 
would become a group at Little Rock. All of the overhead 
infrastructure is already there, and it allows them to save a 
$10 million a year interservice support agreement that he pays 
to the Army.
    The Active Air Force Component would leave the air mobility 
operations group there to run the green ramp, to schedule and 
to oversee the airlift that comes in today to help do a lot of 
the training for the 82nd Airborne. Actually, a higher 
percentage of the training there today, I believe is done by 
aircraft that come in to support the 82nd Airborne as opposed 
to just the airplanes that are stationed there. Especially the 
larger airplanes that are required to train on the C-17s, et 
cetera.
    So the training will not be affected. We will support it, 
as we have in the past. But this is an effort by the Air Force 
Reserve to save some money, to downsize their people. They have 
to take cuts as do we.
    Mr. McIntyre. Thank you, and I know my time is expired.
    Thank you very much.
    Mr. Palazzo. At this time I recognize Mr. Coffman for 5 
minutes.
    Mr. Coffman. Thank you, Mr. Chairman, and thank you 
Secretary James for your relatively new assignment as Secretary 
of the United States Air Force, and General Welsh for your 
decades of service to this country.
    This year the National Commission of the Structure of the 
Air Force released their findings, of their 2-year extensive 
look at Air Force--at force structure in the United States Air 
Force. The overall thrust of the findings was to shift more 
components and capabilities to the Guard and Reserves. I agree 
with many of the commission's findings including its findings 
that there are certain core capabilities better suited for the 
Guard and Reserves such as missions in cyber, ISR, in space 
mission support.
    Now, I realize the final ratio of this shift is still under 
study, but can you tell me where you believe the Air Force and 
the military in general can benefit from shifting these 
components or capabilities to the Guard and Reserves like those 
recommended by the commission?
    Secretary James. So Congressman, I want to associate myself 
with what you just said. In philosophy I agree with everything 
you just said, and our plan, in fact, does shift more 
responsibility to the Guard and Reserve as we go forward. It is 
a good deal for the mission, it is a good deal for the 
taxpayer. The areas of ISR and cyber in particular, again, we 
agree, and we are bolstering that within our plan for the 
National Guard and Reserve.
    So I will say there is much of that commission's work, the 
vast majority of it is a fine body of work, really good 
research and it is benefiting us and we agree with most of it, 
particularly the continuum of service, the associations and 
better integration. So those areas we are very much in 
agreement.
    There is a couple of areas where we don't agree, at least 
not yet, and the one that I want to highlight to you is the 
commission calls for additional reductions to the Active Duty 
forces to the tune of about, I think, 35,000 or 36,000, and for 
sure for fiscal year 2015, that is more than we think is 
prudent.
    So what we want to do is continue to deliberately analyze 
mission by mission how can we shift more to the Guard and 
Reserve. And over the past year I want to give credit to 
General Welsh and the other leaders for doing this in a very 
collaborative way, thinking it through from an operational 
perspective, but putting as much in the Guard and Reserve as 
can possibly be done.
    Mr. Coffman. And General Welsh.
    General Welsh. Sir, I think you mentioned cyber as an 
example. Right now our percentages are about 60 percent of our 
cyber work is done by the Active Duty, 30 by the Guard, and 
about 10 percent by the Reserve. This is one, clearly, that we 
have to look at where is the right percentage mix?
    We started with zero in the Guard and Reserve here 
recently. We have gone to 30. A great example, though, of how 
this works is a Guard cyber squadron in Washington where a 
number of the folks in that unit work for Google. So they bring 
skills in the door to the Air Force that we can use now on 
behalf of national security, and to support the State in some 
circumstances. This is an area ripe for further exploitation.
    Mr. Coffman. Well, thank you.
    As we have discussed I think and certainly you brought 
forward earlier in this hearing that we have to make difficult 
decisions, and one of those decisions was the--certainly the A-
10.
    But I want to commend you to look further into the Guard 
and Reserve. And I want to commend the Air Force for being more 
forward-thinking than the other branches of service, but there 
does tend to be sort of this institutionalized protection of a 
culture in terms of maintaining the force levels of the Active 
Duty relative to the Reserves, and I just think that whenever 
we can shift, I think there are tremendous opportunities for 
savings, not simply in the airmen-to-airmen cost between Active 
Duty and Guard and Reserves, but I also think in the legacy 
costs.
    When you look at savings out of retirement, the fact that, 
you know, somebody on Active Duty for 20 years in the United 
States Air Force, you know, will draw 50 percent of their base 
pay the day after they retire, plus all of the benefits. And 
that Guard or Reservist will not draw until age 60. And so 
there are other differences besides airmen-to-airmen costs that 
I think we need to look at. But I want to commend you to that.
    The last thing I certainly, the issue of sexual assault 
which has been epidemic in our military. I am very disturbed at 
what occurred at Lackland Air Force Base, and I just want to 
make sure, I can tell you I went to my own Air Force Base, 
Buckley Air Force Base in Colorado and met with the command 
there. And they briefed me on what they were doing in 
prevention in terms of sexual assaults, and I was very 
impressed with what they were doing, hoping that is occurring 
Air Force-wide.
    Mr. Chairman, I yield back.
    Mr. Palazzo. At this time I recognize Ms. Speier for 5 
minutes.
    Ms. Speier. Thank you, Mr. Chairman.
    Thank you both for your service. Secretary, congratulations 
on your new post.
    General Welsh, let me start with you. Last year, there was 
some heinous Web sites posted by members in the military that 
triggered a sweep of various locations for the Air Force. As I 
understand it, it was mostly their lockers, and their living 
spaces, and maybe their cubicles, and they gave everyone a 10-
day notice before doing it, which I thought was preposterous to 
begin with. But that is what you all did. And then as a result 
of that sweep, there were some 32,000 inappropriate items 
discovered, some of which were pornographic, or just sexually 
harassing, or creating a hostile workplace.
    At the time when that was reported, I asked the Vice Chief 
of the Air Force what action had been taken against those that 
were responsible for posting those 32,000 inappropriate items. 
And he said he would have to get back to me. He hasn't gotten 
back to me. It has been over a year.
    Do you know what happened to those airmen who had sexually 
explicit or inappropriate pornographic items placed in their 
personal spaces and in their cubicles?
    General Welsh. Congresswoman, there were not 32,000 
pornographic things found. There were 32,000 things deemed to 
be inappropriate. It might have been a----
    Ms. Speier. I understand that, but what happened to these 
people?
    General Welsh. Most of them nothing happened to them. That 
was done not as a result of a Web site or any specific 
activity. That health and welfare was done at my direction 
after getting approval from the Secretary because I wanted the 
Air Force to have a discussion about respect, inclusion, and 
the strength of diversity, and the things that make our people 
feel not valued in their workplace.
    Ms. Speier. Well, we have a one-star general who is being 
tried right now for having possession of pornographic 
information. So are you saying that those that did have 
pornographic items were not----
    General Welsh. No, ma'am. I am not saying that. What I am 
saying is that it was--that there wasn't a particular thing we 
were looking for. We were looking for anything we could find to 
have the discussion. The pornographic items that I know about 
that were found were found in workplace computers. There were a 
couple of examples of that. They were not necessarily connected 
to an individual. They were found during the search. There was 
action taken against a couple of people as a result of those 
inspections. I will have to get the details.
    Ms. Speier. Would you report back to me, please?
    General Welsh. I will and I apologize that we didn't know 
we owed you that.
    [The information referred to can be found in the Appendix 
beginning on page 108.]
    Ms. Speier. Furthermore, I was told that there actually 
wasn't a sweep of government-issued computers. Is that 
incorrect? Was there a sweep of government-issued computers?
    General Welsh. There was a sweep of all government 
computers, workspace, et cetera. Yes, ma'am.
    Ms. Speier. There was. Okay, I didn't know that. Thank you. 
General, I don't know if you have seen The Daily Beast article 
that was recently published called, ``Spies, lies, and rape in 
the Air Force.'' Are you familiar with this?
    General Welsh. I have not seen that article, no.
    Ms. Speier. I would commend it to you for reading. It is an 
undercover agent's story. It is very disturbing about the Air 
Force Office of Special Investigations [OSI] informant program 
and it seems to repeat a pattern at the Air Force Academy of 
taking vulnerable trainees and making them informants, using 
them and then putting them in jeopardy, and then ending their 
careers when things go wrong.
    In the case that was referenced in this article, the Airman 
First Class claims she was raped as a result of being a snitch 
for OSI. And I have two questions that I hope you can answer.
    How many people are participating in OSI's informant 
program, and what ranks are the informants that are 
participating?
    General Welsh. Congresswoman, I don't know the number who 
are participating or their ranks, but it is a broad--we will 
find out the answer and get it back to you. It changes at any 
given time, obviously.
    [The information referred to can be found in the Appendix 
on page 109.]
    Ms. Speier. And how many people have been separated from 
the Air Force within months of participating in OSI's informant 
program?
    General Welsh. I don't know that answer either.
    Ms. Speier. Would you find that out as well?
    General Welsh. Yes, I will.
    [The information referred to can be found in the Appendix 
on page 109.]
    Ms. Speier. Can you give me the rationale of why you would 
take Air Force Academy or young recruits who are trainees, and 
put them in a position of becoming informants for OSI?
    General Welsh. I will give you an example from my time as 
Commandant at the Air Force Academy, ma'am. We had a cadet who 
was selling drugs to other cadets, heavily selling drugs, all 
kinds of drugs. When he was found out and apprehended, he 
talked during his interview to investigators about a connection 
to a major western U.S. drug supplier which the DEA [Drug 
Enforcement Administration] had been trying to get a link to. 
So the DEA talked to the OSI and asked if they could--if we 
would allow him to serve as a confidential informant to help 
their investigation in the Rocky Mountain region. We did that, 
which led to a number of arrests.
    Ms. Speier. All right, my time is expired, but I am more 
concerned about cadet or airmen-on-airmen than assisting the 
DEA in another transaction. But maybe we can pursue this 
offline. Thank you.
    Mr. Palazzo. At this time, I recognize Congressman Scott 
for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Madam Secretary, thank you for your visit to Moody. I 
enjoyed having lunch with you there and thank you for your 
leadership on the combat rescue helicopter.
    You mentioned in your opening statement, if we follow the 
law, meaning if the sequester is not repealed, the additional 
cuts that will have to be made to the F-35 and to other weapon 
systems that are important to national security. And that is 
one of the reasons I have so many questions about the cuts to 
the A-10, until the sequester would be repealed.
    And if I could, General Welsh, I know I will see you in 
Georgia later this month. I look forward to that as well. And I 
know you are an A-10 pilot. That is not a decision that you 
have taken lightly.
    I have serious questions about the speed at which the 
drawdown of the A-10 is going to occur prior to another weapon 
system being put in place, and the potential for that weapon 
system to come in in smaller quantities should the sequester 
not be repealed; and whether we like it or not, the sequester 
is the law and getting it repealed is much easier said than 
done.
    So potentially, we would draw down the 280 or so A-10s 
based on the desire to replace them with newer more advanced 
weapon systems, and then potentially not end up with the weapon 
systems that we were counting on replacing them. The same thing 
happened with the F-22. We were going to buy 700-plus. We ended 
up cutting that order to less than half. And we are talking 
about $3.5 billion here on the A-10s.
    If we assumed that we are going to fly the close air 
support mission, and as you said we are, and we know that we 
are going to support our men and women on the ground, the other 
weapon systems cost more to fly than the A-10 does, and have 
the cost premiums in time per hour been factored into the 
projected savings and if possible, I would like to see the 
analysis of that when you get an opportunity to, sooner rather 
than later, if possible.
    [The information referred to can be found in the Appendix 
on page 111.]
    Mr. Scott. But we also just made a significant investments 
in the wings on the A-10s, and they do have life expectancy 
left.
    And I will move on to another issue with the JSTARS, but I 
would appreciate the analysis on the A-10 cost and the 
consideration of if we draw the A-10 down over the period of 24 
months, what happens if the sequester is not repealed and we 
don't have the F-35s that we intend to purchase to replace.
    General Welsh. Sir, I will hold the longer discussion until 
I can sit with you and show you the analysis. But just to be 
clear, as we start to transition the A-10 out, the airplane 
that will pick up the CAS [close air support] load, 
principally, is the F-16; not the F-35 for a while.
    Mr. Scott. Yes, sir. But we are drawing down some F-16s, 
too.
    General Welsh. We will have less capacity in every mission 
area. That is what sequester-level funding does to us, sir.
    Mr. Scott. Yes, sir. I voted against it and I hope that we 
get it repealed and I think it is unfortunate that the men and 
women in the military and the national security is expected to 
take the size of the cut, the percentage of cut that has been 
pushed down to them, and all of our Secretaries have agreed 
that there were some things that we could do, and generals, to 
reduce spending, but in the end, they asked us to do more 
faster than we had been anticipating.
    The JSTARS, and you mentioned this, General Welsh, earlier, 
as did you, Madam Secretary. The recapitalization is proceeding 
in favor of the plan that we have, the rapid approach to the 
next generation. I just want to make sure that as we approach 
this next generation of JSTARS that we don't leave a gap in the 
capability as we start to pull the current ones down as they go 
in for depot maintenance. High demand asset, how do we plan on 
maintaining the capability until the next generation is ready?
    General Welsh. There will be a loss of capability, 
Congressman, back to the theme again. If there is not more 
funding coming from somewhere, and I am not assuming there will 
be, the only way for us to recapitalize JSTARS which I believe 
everybody thinks we have to do, is to somehow take money from 
programs we have, JSTARS being one of them, downsize capability 
in that area to reinvest and start to recapitalize. It is the 
only way to do it that we can come up with. I would love to 
have other money to do this with, but we don't have it. And so 
there will be risk as you start that in that mission area.
    Mr. Scott. Well, thank you both for your service, and look 
forward to continuing these discussions.
    Mr. Chairman, I yield back.
    Mr. Palazzo. I will now recognize Mr. Nugent for 5 minutes.
    Mr. Nugent. Thank you, Mr. Chairman, and I want to thank 
the panel for being here.
    Specifically, though, I want to thank General Welsh.
    I want to go back a little bit, if you think back. One of 
the cadets while you were Commandant was a David Paolello. I 
don't know if you remember David, but he ultimately had to 
leave the Academy, then went, got his Air Force through ROTC 
[Reserve Officers' Training Corps], and is an F-15 Strike Eagle 
pilot today. But I will tell you from his parents and from me, 
because I remember the issues that David had. And you were a 
strong supporter in personally talking to him. And I think that 
really goes back to your integrity as a father, but as a leader 
of those students at the time, and those cadets.
    And having two sons that went to a different service 
academy, I am not going to say that, you know, go Army, beat 
Air Force, but it was something like that. My question, though, 
is to Secretary James. And it is in reference to CHAMP 
[Counter-electronics High Power Microwave Advanced Missile 
Project], and that is, you know, a non-lethal weapon that the 
Air Force developed, I think have done an extremely capable job 
of doing that. I know the Air Force would like to deploy that, 
but they are looking at a reusable airframe to deploy CHAMP on. 
But that is pushing it out to 2025. You have the ability today 
to use a current airframe that is not reusable, but it is 
certainly one that would work for us, and that is the cruise 
missile delivery system that we have a surplus of.
    I just want to make sure everyone is on the same page 
though, as it relates to CHAMP. You know, we have had this 
committee, we have combatant commanders testify that they want 
CHAMP, that they have a need for it. We have a bipartisan and 
bicameral support of Congress in the last NDAA. Congress wants 
CHAMP. We want to make sure everyone is on the same page, but 
the only element standing in the way of CHAMP on the 
battlefield, like I said, the Air Force has really done an 
amazing job of developing this and actually getting it in a 
test phase where it worked. And it is one that I think, you 
know, we have talked about that nonlethal capability. It is one 
that I would love to see us develop more of.
    If you look back at some of the infrastructure things that 
we had to do in Iraq, it would have been nice if we had that 
type of vehicle to take out that infrastructure without totally 
destroying it where we have to rebuild it and spend billions of 
dollars doing it. So what I am asking is, you have the 
political approval. You have the demand for it. The combatant 
commanders would like it, so it is not limited by demand. Would 
you confirm for me that CHAMP is only limited by budget?
    General Welsh. I would love to, Congressman, but you 
stumped me. I have to go find out about CHAMP and talk to you. 
I don't know the status.
    Mr. Nugent. Well, General, that is not the intent of my 
question.
    General Welsh. Well, but I should know. I don't know the 
status, but I will have to get back to you on that, sir.
    [The information referred to can be found in the Appendix 
on page 112.]
    Mr. Nugent. If you would, and I will just let you know, but 
from what we have, you know, it is basically $10 million. And 
we can field this weapon in well, in 18 months. And it would 
certainly give an added--particularly in the issues that we are 
facing today, resurgent China, and obviously, resurgent Russia 
in regards to issues. It would be one that I think would be 
nice to have an inventory, particularly since the combatant 
commanders have testified that they would certainly love to 
have that.
    And of course, I don't want to say anything negative about 
the Air Force, having been a member of the Air Force way back 
when, and going through San Antonio, one of my favorite times, 
I will tell you. But you know, I have three sons that currently 
serve in the United States Army. And so just to go back on the 
A-10, obviously, it is a capable platform, but I do understand 
the budgetary commitments that you have, and why you have to do 
certain things, and probably not wanting to do that.
    But lastly, I do want to touch on religious freedoms 
because I remember when my sons, two of my sons, the oldest and 
youngest first went to West Point. I don't know who they got it 
from, but they received a Bible, a pocket version that actually 
one carried in combat in Afghanistan. I would hope that we--and 
I remember the Academy was about faith. I mean, that was a 
component to keep our cadets strong, not only academically, but 
all the tenets of being a cadet, but faith is important. And I 
recognize that from your service at the Academy.
    And so I just want to continue to stress that that is 
important to all of us. So General, thank you so much for your 
service, and thank you from the parents of David Paolello, who 
is one of your pilots.
    And Secretary James, congratulations.
    Thank you very much. I yield back.
    Mr. Palazzo. At this time I recognize Mr. Bridenstine. Mr. 
Bridenstine, before you begin, do you have time? Because I know 
Ms. Hartzler has an appointment, or would you----
    Mr. Bridenstine. It would be my honor to yield to Ms. 
Hartzler.
    Mr. Palazzo. Well, thank you, Mr. Bridenstine.
    Ms. Hartzler, you are recognized for 5 minutes.
    Mrs. Hartzler. Well, thank you, gentlemen, I appreciate 
that, and I appreciate the opportunity to get to, first of all, 
thank you for your service and want to invite you to Whiteman 
Air Force Base. I am very much looking forward to you coming 
and very proud of the missions there.
    And certainly, General, I appreciate your comment earlier. 
I wrote it down, and tweeted it, about how the B-2 is now our 
symbol of valor today. And certainly, we are very proud of 
that. So I look forward to having you come out, but I did want 
to address the A-10s as well because I do believe they are the 
most effective and most cost-efficient platform that we have 
for close air support.
    And I do not agree that a B-1 is the same, or remotely 
piloted aircraft is the same to the soldiers on the ground. 
They want to see the A-10 coming over that horizon, and 
General, you mentioned in your opening statement that you 
checked with General Odierno about what he thought about 
airlift, but you did not mention it. I know you have heard from 
General Odierno about what he thinks about the A-10 and he is 
quoted as saying that the A-10 is the best close air support 
platform that we have today. And he has, you know, said that 
publicly.
    It is the most cost-efficient. We have A-10 operational 
cost per flight hour is $17,398. The B-1, $54,218; F-16, 
$22,954. There is a difference in the cost per flying hour. I 
will welcome the cost analysis that you are going to provide 
for Representative Scott.
    I would like to see that as well. And part of that, I want 
to ask you about today, deals with the wing replacement program 
that has been underway there. And we as tax dollars have 
invested in these aircraft, the best aircraft for close air 
support that we have, and that right now, the Air Force has 173 
wings under contract, and Congress appropriated funding in 
fiscal year 2014 for approximately 9 additional wings bringing 
the total to 182 wings that have been replaced.
    Currently 63 new wings have been delivered and by the end 
of the year, over 100 will be delivered. So I guess my first 
question is, how much money has been spent by the taxpayer 
already on this wing replacement?
    General Welsh. Congresswoman, I don't know the exact 
numbers that have been spent to date. We do these upgrades on 
all of our aircraft. It is not just the A-10. We do this on all 
of our fleet's aircraft. But I don't know how much of it has 
been spent. We can find that out for you.
    [The information referred to can be found in the Appendix 
on page 111.]
    Mrs. Hartzler. I would like to know that, thank you. So 
does the Air Force plan to fulfill the current A-10 wings under 
contract?
    General Welsh. Congresswoman, until there is an approval, 
authorization, and appropriation by the Congress to do any of 
the things we are talking to you about today, we will continue 
doing what is currently in the plan. The issue for the A-10 for 
us is not about cost per flying hour. It is not about the close 
air support mission. It is about all of the missions we provide 
to a theater commander. Where we affect a theater fight, the 
full-spectrum fight I mentioned at the beginning, is actually 
in about four or five different areas.
    One is air superiority, which provides ground forces the 
ability, the freedom to maneuver and the freedom from attack. 
It saves huge number of lives on a heavy battlefield, a high-
end battlefield.
    The second thing the Army wants us to do as an Air Force is 
to eliminate the enemy's will to continue the fight through 
attack and strategic depth, interdiction, stop their ability to 
move supplies forward, don't let them resupply the fight, those 
kind of things.
    The third thing they want us to do is to eliminate the 
enemy's second echelon forces, especially their operational 
reserves so they can't commit it at a time and place of their 
choosing. All of those are of huge risk to the ground 
commander. And then, of course, we do close air support when we 
get troops in contact and we divert everything to that when it 
happens. The A-10 cannot do any of those other missions. The 
other airplanes that we have doing close air support today can, 
and as we look at what we have to cut, we have to balance 
across our mission areas. That is the debate. That is why we 
are looking this way.
    Mrs. Hartzler. And I certainly understand and certainly 
appreciate the roles of the other missions that can be done, 
very important as well. But we are talking $740 million a year, 
and if there was a 6 percent reduction in Air Force civilians 
through attrition, you could achieve that. Have you looked at 
attrition, natural attrition of the civilian workforce as a 
possible way to help keep this unique capability in our fleet?
    Secretary James. So actually, civilian reductions were 
looked at, and civilian reductions are going to be happening as 
part of that headquarters story I told you about earlier, and 
it is part of a larger story. So our civilian workforce will be 
coming down. I think when the analysis was done, in order to 
achieve the same savings as the A-10, even though these are 
completely sort of different things, but you would have to take 
down an additional, I think, 10,000 civilians to equate to the 
same amount of money, roughly speaking, as the A-10, and what I 
wanted to say there, is again, civilians are already coming 
down. This would be 10,000 on top of what we are already 
planning, and most of our civilians, by the way, are not on 
staff. They are not, you know, helping augment staffs and 
whatnot. Most of them are doing depot maintenance on the planes 
and so forth so they are doing real mission work.
    Mr. Palazzo. The gentlelady's time is expired.
    Mrs. Hartzler. Thank you.
    Mr. Palazzo. I now recognize Mr. Bridenstine for 5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman, and thank you for 
visiting with us today.
    General, I just wanted to personally thank you for coming 
all the way to Tulsa, Oklahoma, and visiting with the 
warfighters in my district, and certainly, your words were 
inspiring, and I am very pleased to hear what a great heart you 
have for the people that fight our country's battles. And you 
represent them very well here on the Hill and we are grateful 
for that.
    I wanted to start, General, just by asking. I know you used 
to fly airplanes. I wanted to ask which airplanes you used to 
fly.
    General Welsh. I flew the A-10 and then the F-16 for most 
of my flying time.
    Mr. Bridenstine. And in those aircraft did you have a 
heads-up display?
    General Welsh. I did, in both.
    Mr. Bridenstine. In both, and in that heads-up display was 
there a velocity vector?
    General Welsh. Not in the A-10. There was in the F-16.
    Mr. Bridenstine. There was in the F-16. In today's heads-up 
displays we have got VOR [Very high frequency Omni Directional 
Radio Range], ILS [instrument landing system], TACAN [tactical 
air navigation system], ADF [automatic direction finder], all 
of the avionics integrated with the displays in a very robust 
way that increases safety and improves performance of the 
pilots and the crew, especially, you know, when they are 
operating in very fatigued situations.
    Do you think it is important to have this kind of avionics 
capability in aircraft these days, General?
    General Welsh. I do.
    Mr. Bridenstine. Do you think it is important to have 
terrain awareness and warning systems in a multifunction 
display for aircraft that fly in areas that sometimes require 
very low flight and dangerous scenarios?
    General Welsh. If it is practical and affordable, 
absolutely.
    Mr. Bridenstine. And of course, when it comes to, you know, 
threat indications, as C-130s often fly in difficult places, 
threat indicators are important, and one of the concerns I have 
especially regarding the C-130 fleet, that I dealt with in the 
Navy, is the various configurations of displays, various 
configurations of avionics systems, and it seems like every 
aircraft you get in there is certain software that is 
different, different places for switches and buttons.
    And sometimes it creates a difficult--it puts us as 
aviators in difficult positions where one tiny little item 
might be different from the others which brings me to the C-
130H fleet, and the Avionics Modernization Program which I 
think is critical for our C-130H fleet.
    The key thing in my experience is this is about safety. And 
I know there are CNS/ATM [Communications, Navigation, 
Surveillance/Air Traffic Management], you know, required 
navigation performance metrics that have to be met. I did 
acquisitions for the Navy. I flew airplanes for the Navy. I 
have seen this firsthand. These need to be met, but on top of 
it there is a safety piece as well. And that safety piece has 
been really developed with the technology that has come, and 
what I have seen over and over again in the Department of 
Defense is it seems like airplanes that have jet engines get 
the fancy equipment that makes the pilots more safe and 
airplanes that have propellers don't.
    And I have flown in the tactical community fighters. I have 
also flown in propeller aircraft in the Department of Defense. 
And it seems like it is across forces, and I would just like to 
get your take on that. Can you briefly in 30 seconds share with 
me your thoughts?
    General Welsh. I think that changed with the C-130J.
    Mr. Bridenstine. Okay.
    General Welsh. Intentionally. So we are doing that going 
forward.
    Mr. Bridenstine. Right.
    General Welsh. Upgrading the aircraft we already have is 
the problem.
    Mr. Bridenstine. Right.
    General Welsh. And it falls under the same discussion we 
have been having about cutting half of our modernization 
programs because that is all we can afford.
    Mr. Bridenstine. Okay, so Madam Secretary, the fiscal year 
2013 and fiscal year 2014 NDAAs prohibited the Air Force from 
canceling or modifying the Avionics Modernization Program [AMP] 
for C-130s. Are you aware of that?
    Secretary James. I am aware of that, Congressman.
    Mr. Bridenstine. Madam Secretary, are you aware that 
Congress has appropriated funds for AMP, not just authorized, 
appropriated funds for AMP in fiscal year 2012?
    Secretary James. Yes, I was aware of that.
    Mr. Bridenstine. And in fiscal year 2013.
    Secretary James. Yes.
    Mr. Bridenstine. And in fiscal year 2014.
    Secretary James. Yes.
    Mr. Bridenstine. And in each case we have demonstrated 
congressional intent, and these funds over and over again are 
not being obligated. We are authorizing, we are preventing the 
program from being canceled, and we are appropriating the funds 
and in each case, they are not being obligated. And I would 
like to ask you, Madam Secretary, do you see this as a way that 
the Air Force is making an attempt to go around clear 
congressional intent and, in fact, go around the law as is 
required by the NDAA and the appropriations?
    Secretary James. So the part about not being obligated, 
that is the part that is new to me, so I am going to need to 
look into that.
    My understanding about the C-130 AMP program as a general 
proposition is that, of course, it is a major avionics program 
as you pointed out. The problem is affordability given that we 
are where we are. We do have funded in fiscal year 2015 a 
portion which would go to the issue of airspace compliance, but 
not the full-ups program, and again, our position has changed 
due to affordability. There has also been a couple of studies 
out there, and I think we are awaiting a GAO [Government 
Accountability Office] report on this as well.
    Mr. Bridenstine. So congressional intent is one thing, and 
you are doing something else. That is the challenge, and I just 
want to be really clear what the congressional intent here is, 
and has been for a number of years, and we see the Department 
of Defense going in opposite direction and these laws are not 
just passed by Congress, but they are signed by the President.
    Thank you so much. I yield back.
    Mr. Palazzo. At this time, I yield to myself 5 minutes. 
Secretary James, and General Welsh, thank you for coming in to 
answer our questions and provide testimony.
    I want to focus on the third Air Force proposal to remove 
missions from Keesler Air Force Base within the past 2 years. I 
will tell you up front, I am going to fight to kill this one 
just as I fought to kill the other two.
    The previous proposal suggested moving the 815th and the 
345th associated unit first to Dobbins Reserve Base in Georgia, 
and then Pope Army Airfield in North Carolina. First, we 
explained that Dobbins didn't have the infrastructure for the 
units and the Air Force agreed with us. Then on to Pope, which 
is now being abandoned as well in favor of closing their units.
    Now Keesler Air Force Base is being told that the C-130s 
are going to be sent to Little Rock. That makes three different 
bases for these airmen in 3 years. It seems like the Air Force 
is hellbent on moving these aircraft out of South Mississippi.
    General Selva claimed just the other day that they can save 
600 billets and $100 million over the FYDP [Future Years 
Defense Program] in reference to a question my colleague, 
Senator Wicker from Mississippi, about moving the planes, and 
claimed that the move itself was budget neutral. Now, can you 
tell me who is responsible for those dollar amounts? Is that an 
Air Force Reserve number, or is that an Active Air Force 
number?
    General Welsh. The people are Air Force Reserve savings, a 
little bit of the Active Air Mobility Operations Group at Pope, 
but the plan was put together by General Selva as our Mobility 
Air Force's lead and Lieutenant General Jackson, the Air Force 
Reserve.
    Mr. Palazzo. I am going to ask for all of that in written 
cost justification as well.
    I have a tremendous amount of respect for General Selva, 
but I think that whoever did the math in this instance is flat 
wrong. As a CPA [certified public accountant] I did the math. 
We were talking about deactivating the 815th and deactivating 
the 345th, which means about 185 reservists, 145 Active Duty, 
and 35 civilians. That is 365 total; not 600. And that is 
assuming no one stays in the Air Force. I mean, I can line out 
the so-called savings you will see in pay and benefits, but I 
will provide that for a later time.
    In addition, as I am sure you are aware, since Hurricane 
Katrina, Keesler has been improved and expanded to the tune of 
$58 million to accommodate the C-130J. Add that money, which 
would essentially be wasted, to the $3 to $5 million in 
permanent change of station costs for the Active Duty force, I 
am failing to see where we get anywhere near the $100 million 
in savings by moving these planes to a base that is already 
stretched way too thin.
    In fact, it is interesting to note that oftentimes the 
simulators and training at Little Rock are so full that the Air 
Force actually sends some of our airmen and our international 
partners to Keesler Air Force Base to do their training.
    The 913th, the unit that was deactivated in 2007, will be 
reactivated to accept these planes. It was a C-130H unit. My 
understanding, even if we pull those pilots back in, it is 
going to take an additional 5 to 6 months and plenty of 
training costs to even qualify them to fly the J model 
aircraft.
    I now ask unanimous consent that the following list of 
awards given to Keesler Air Force Base, as well as the airmen 
of several of the units I am honored to represent, that are 
currently proposed as being decommissioned, be inserted in the 
record. Without objection, so ordered.
    [The information referred to can be found in the Appendix 
on page 98.]
    Mr. Palazzo. Secretary James, General Welsh, I am sorry, 
but I am not going to let the Air Force get away with moving 
families, disrupting communities, and moving our airmen around 
whenever they feel like it without justification. I have been 
closely watching these proposals for over 2 years. When Keesler 
won the Commander in Chief's Award for the Greatest Base in the 
Nation, I thought no way would our commanders try and take 
these planes from the top-performing base.
    But you can imagine my disappointment when I saw this in 
the most recent news. So General Welsh, and Secretary James, 
General Selva said this move would be cost neutral. And he said 
he would check into quote, ``The specifics of what might be 
required at Little Rock that wouldn't be required at Pope or 
any other location where we would base that unit.'' End quote.
    Now, I am going to be a little more specific. I don't care 
about how much it would have cost to move the planes to Pope. I 
don't care how much it was going to cost to move them to 
Dobbins. I want to know exactly how much it is going to cost in 
actual dollars, fuel, MILCON [military construction], other 
relocation costs, manpower downtime, for these planes to move 
to Little Rock Air Force Base from Keesler Air Force Base.
    I have been asking for cost justifications for these 
movements for over 2 years now and I am yet to see an answer 
that shows me any cost savings. We are obviously running short 
on time, so I request that you provide the full cost 
justification to my office in writing as soon as possible. I 
will be anxiously awaiting it and can I get your commitment 
that you will provide that information to me?
    Secretary James. Yes.
    General Welsh. We will get you some answers, sir.
    [The information referred to can be found in the Appendix 
on page 112.]
    Mr. Palazzo. Thank you. Madam Secretary and General Welsh, 
thank you for being here to answer my question, and I look 
forward to hearing from you. I would like to personally extend 
an invitation to you both to come to Keesler to see these units 
firsthand, the community that loves them very much, and the 
great work that they are doing.
    Do you by any chance know when you may have an opportunity 
to do that?
    Secretary James. I do not have a date, but I promise I am 
coming. I very much want to make a visit.
    Mr. Palazzo. Well, thank you very much. My time has 
expired, and at this time, I recognize Mr. Gallego for 5 
minutes.
    Mr. Gallego. Thank you, Mr. Chairman.
    Madam Secretary, General, welcome to the committee.
    As you may know, the district that I represent has a 
significant Air Force presence, and one of the challenges, here 
in DC we talk about sequester, and we use acronyms and 
different things, but a lot of times that doesn't necessarily 
translate for the folks who are watching at home. And so in a 
very, you know, basic real sense, can you tell us, you know, 
for folks in San Antonio, or Del Rio, for example, what 
sequester has meant to them, what sequester has done to them, 
because people don't necessarily feel any different today than 
they did before sequester.
    So how would you explain sequester and its impact on Del 
Rio or San Antonio?
    General Welsh. I think the first year of sequester was 
probably transparent to people in many parts of the country 
because nothing fell out of the sky the day the sequester took 
effect.
    We are starting to see with this 2015 budget and we will 
see more of it in the 2016 budget and beyond if we stay at 
sequester levels, according to the law, that the impacts will 
be significant over time. Compared to the program we had in 
place 3 years ago in the Air Force and submitted in fiscal year 
2012, we will have $20 billion less per year in our spending 
plan and that is going to affect things in a big way.
    Mr. Gallego. So when you say in a big way, I mean, can you 
give examples of what that would mean so that, you know, for 
someone who is listening, driving down the street on the radio, 
or what, what does that mean? If you tell me it is going to 
impact me in a big way that doesn't say anything to me.
    General Welsh. In the next 5 years we will cut 500 
airplanes from our Air Force. We will cut around 20,000 people 
from our Air Force. That is a huge impact on who we are as an 
institution. It will create more facilities that are not fully 
manned or installations that aren't fully utilized, which will 
create more of a discussion about BRAC for the future. It is 
going to have an impact.
    Mr. Gallego. And what impact does that have on the U.S. 
readiness in terms of being able to respond?
    Secretary James. You know, if I could jump in. What I 
wanted to say, and I say this as someone who was on the outside 
and only recently on the inside, but the thing that I worry 
about most going back to sequester has to do with the 
preparedness and the readiness of the airmen and the military 
at large. Because what all of us want, we want to make sure 
they have the training and the equipment so that they can do 
their job and stay safe if we send them into harm's way.
    And in some ways I think our Air Force has done such a 
fabulous job over the last 25 years, we are the victim a little 
bit of our own success because thank God, we haven't lost that 
many people, and thank goodness, there haven't been that many 
crashes and so forth and accidents, but there have been some 
and I worry that if the moneys get tighter, and tighter, and 
tighter, we may see more fatalities and more lost aircraft, and 
that is something that you can't capture until it happens and I 
hope it doesn't happen.
    Mr. Gallego. So two extra questions in the short time that 
I have. So is it your testimony then that the policy of 
sequester essentially endangers the lives of our sons and 
daughters in uniform over the long-term and that would be 
question number one. And let's use that one first. Does 
sequester impact--does it endanger the lives of our sons and 
daughters?
    Secretary James. The way I would put it, it compromises our 
national security in a way that I sure hope we wouldn't have 
to. But at the same token, I will say our Air Force no matter 
what, we will always respond, we will always go. They will 
always be a magnificent Air Force, but I also want to make sure 
that they are also as safe and effective as we can give to 
them.
    Mr. Gallego. So if people ask you, why can't you just save 
money? Why can't you just cut and find efficiencies? What is 
wrong with that question? Why can't you just save money?
    Secretary James. We absolutely must save more money and you 
heard me say that is one of my top three priorities in every 
way, shape, and form. So it takes a while to shift an aircraft 
carrier and I think we are making progress, but we are reducing 
headquarters. We are getting those efficiencies.
    Mr. Gallego. Madam Secretary, the point I would like to 
make is that you cannot find enough efficiencies to get over 
the hump of sequester.
    Secretary James. That is correct.
    Mr. Gallego. You cannot cut your way out of this hole, is 
that right?
    Secretary James. You're right. That is correct.
    Mr. Gallego. General, do you have any information about 
how, if you found every efficiency you could, you would still 
be--it wouldn't be enough to meet sequester levels?
    General Welsh. It is not going to be $12.8 billion a year, 
sir, it is just not going to be. And the only way we keep the 
Air Force safe and ready to react at whatever size we can be, 
is by sizing ourselves to a size we can afford to keep that 
way, which means we must get smaller if the funding stays low.
    Mr. Gallego. Well, I thank you both for your presence and 
your testimony, and Texas is an incredibly friendly place and 
so, San Antonio, Del Rio, any time either of you would like to 
visit, please know that you are always welcome.
    Secretary James. I have been, and I am coming back, so 
thank you.
    General Welsh. It is warm there.
    Mr. Palazzo. Okay, at this time, we return to Mr. 
Bridenstine for a question.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    And Madam Secretary, I know you have been on the job for 11 
weeks, and I look forward to working with you on the C-130 AMP 
issue as we go forward.
    But just switching topics, I am interested in the Evolved 
Expandable Launch Vehicle program. A new 2012 acquisition 
strategy included 14 rocket cores open to competition. Can you 
say what the status of this competition is?
    Secretary James. So there are several new entrants, we are 
actively trying to get them ready to compete, and that I would 
guess that is going to happen, probably within the next, I 
don't know, year or so. I am a big believer in competition. I 
think it is going to definitely bring down our costs. I think 
just having the competition out there on the horizon has 
already brought down costs for that program.
    And I will say that over the next, I believe it is 5 years, 
those new competitors, provided that they go through the 
wickets and do end up being able to compete, they will be 
competing for, I believe it is, seven out of the eight launches 
that will be happening particularly for our GPS [Global 
Positioning System] satellites that need to be put up some 
years from now.
    Mr. Bridenstine. When you think about, you know, Russia's 
invasion of Ukraine, their occupation of South Ossetia and 
Abkhazia and Georgia. They are, you know, complicit in helping 
the Assad regime in Syria, helping the mullahs in Iran go 
around the sanctions on Iran. You know, you think about them 
being involved in producing, you know, nuclear centrifuges for 
Iran, giving Edward Snowden asylum. It seems like we are not 
friends with Moscow.
    Do you see it being a problem that we rely on Moscow for 
rocket engines?
    Secretary James. So it is worrying, I will say that. We are 
going to take a look at that. I will also tell you for the 
immediate future, we have 2 years worth of supply for those 
engines, so we are okay in the short run. I will also say that 
although it is worrying, it is also true that this is a long-
standing relationship, and it has weathered various storms. So 
but it is something that we are going to take a look at and see 
where we go in the future.
    Mr. Bridenstine. And does our current position violate the 
current suspension of U.S. military-to-military cooperation 
with Russia?
    Secretary James. I have to assume the answer is no, that we 
would not be in violation, but let me please check that for the 
record.
    [The information referred to can be found in the Appendix 
on page 112.]
    Mr. Bridenstine. Please do that for me. I appreciate it.
    Thank you so much for being here and testifying, General, 
and Madam Secretary.
    I yield back.
    Mr. Palazzo. All right, thank you. At this time I will 
yield myself for one last question.
    General Welsh, I am concerned about readiness levels in the 
Air Force, specifically that it will take until 2023 to get 
healthy. What risk level are we assuming as a result? And 
General, you can answer that and then Secretary James if you 
would like.
    General Welsh. Congressman, I am worried about readiness in 
the Air Force, too, as is the Secretary. The things that affect 
readiness are much more complex than just flying-hour money 
each year.
    There are things like investment in training range space 
and threat systems to train against on those ranges. On live 
virtual constructive simulation capabilities, as we get more 
modern aircraft, where the only place you can recreate a real 
threat environment is in a simulator because you can't afford 
to do it in the real world. Those things have not been funded 
over the last 10 to 15 years because we have been tied up 
spending money on operations and supporting operations in 
Afghanistan and Iraq.
    It is time for us to get back to full-spectrum training and 
readiness. And that is what is going to take us 10 years, to 
rebuild those things that are behind the power curve, 
especially as we bring on an airplanes like the F-35.
    Secretary James. I will just say ditto. I thought that was 
an excellent answer that the chief just gave, and I just want 
to associate myself with those remarks.
    The top concern is if we would get into a contested 
environment. That is a more complex environment. It is more 
difficult for the pilots. And that is where practice, what your 
mother used to tell you, practice makes perfect. I think that 
makes sense. That is why we train people and that is the sort 
of training that we have not been able to do enough of.
    Mr. Palazzo. What do you think will happen if we do not 
turn off sequester in 2016?
    Secretary James. So of course you see what our proposal is, 
and the choices that we would make. It is not what we wish. I 
feel that our national security concerns would be compromised 
too much, and again, realize these are tough budget times, but 
ask you to please try to reverse that sequester.
    General Welsh. And we will not be able to execute the 
Defense Strategic Guidance. The service chiefs all believe 
that, if we go into full sequester funding throughout the FYDP.
    Mr. Palazzo. I think the majority of this committee would 
agree with you and many Members in Congress. We have to do 
everything that we possibly can to turn off sequester for our 
military, our national defense spending. You know, it is just 
not right that we are trying to balance our budgets, our 
Nation's budgets on the backs of our men and women in uniform 
and their families.
    So we know what to fix. We know what our number one drivers 
of our deficit and our debts are, and we need to address that. 
And it is not defense spending. And as we have seen recently 
all across the world that it is not becoming safer. It is 
becoming much more dangerous and we have--this Congress has an 
obligation to make sure that our men and women in uniform have 
the tools, the equipment, and the training and the leadership 
that they deserve, that we expect them to have, that the 
American people expect them to have, so they can keep this 
Nation safe at home and abroad.
    So with that, I want to thank you all for your testimony 
today. I want to thank the Members for their questions. It was 
a fantastic hearing.
    I want to tell Secretary James, for your first appearance 
in front of the House Armed Services Committee, I have to say 
you probably deserve an A rating. So the bar has definitely 
been raised. You know, you can only slide backwards from here, 
but I am sure you will do a great job.
    Sir, General Welsh, thank you for your service to your 
Nation and just as importantly, thank your beautiful wife Betty 
and your beautiful daughter Liz for their service and their 
sacrifice, because it is just as great, typically, as any 
member that wears the uniform.
    So with that, this hearing is adjourned. Thank you.
    [Whereupon, at 12:16 p.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             March 14, 2014

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 14, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 14, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 14, 2014

=======================================================================

      
            RESPONSES TO QUESTIONS SUBMITTED BY MR. MCINTYRE

    Secretary James and General Welsh. 1) Provide a detailed 
explanation of events at USAFA regarding the whiteboard incident
    --On Monday, March 10 at 1:36 pm, a cadet assigned to Cadet 
Squadron 21 (CS-21) sent an email to their squadron leadership showing 
what appeared to be a Cadet Element Leader's whiteboard with a Bible 
verse written on it.
    --Although the verse was written by the Element Leader's roommate, 
the whiteboard was placed in the hallway outside the cadet's room and 
adjacent to the sign designating the occupants' positions (Cadet John 
Doe, Third Element Leader), leading to the assumption it was the 
Element Leader's quote.
    --Between that e-mail and 5:00 pm, an unknown person had sent a 
similar e-mail to the Military Religious Freedom Foundation, which then 
contacted the office of the USAFA Superintendent, (speaking only to the 
Executive Officer), and then to the 3rd Group Air Officer Commanding 
(GAOC), an Air Force Lieutenant Colonel, who said she would look into 
the matter.
    --The GAOC contacted the Commandant of Cadets, who directed a 
``calm, measured response'' and suggested consulting with a chaplain to 
ensure leadership considered the rights of all involved.
    --The Cadet Wing Chaplain provided written and verbal consultation 
to the members of the chain of command.
    --Approximately an hour later, the CS-21 Air Officer Commanding 
(AOC), who was home sick that day, contacted the Element Leader by 
phone to gather facts on the situation. Although he was not directed to 
do so at this time, garbled cell phone reception led the Element Leader 
to believe he was to remove the verse, which he did by taking down the 
whiteboard.
    --At 1849, the CS-21 AOC consulted with the chaplain and GAOC, and 
then called the Element Leader once more and requested the verse be 
removed.
    --The CS-21 AOC also asked the cadet if he had any concerns with 
this request in, order to foster a discussion on balancing freedom of 
expression with leadership responsibilities and perceptions of undue 
influence. The cadet said he understood the rationale and was willing 
to remove the whiteboard.
    2) What is Air Force Academy policy? Air Force policy is identified 
in Air Force Instruction 1-1 which states:
    2.11. Government Neutrality Regarding Religion. Leaders at all 
levels must balance constitutional protections for an individual's free 
exercise of religion or other personal beliefs and the constitutional 
prohibition against governmental establishment of religion. For 
example, they must avoid the actual or apparent use of their position 
to promote their personal religious beliefs to their subordinates or to 
extend preferential treatment for any religion. Commanders or 
supervisors who engage in such behavior may cause members to doubt 
their impartiality and objectivity. The potential result is a 
degradation of the unit's morale, good order, and discipline. Airmen, 
especially commanders and supervisors, must ensure that in exercising 
their right of religious free expression, they do not degrade morale, 
good order, and discipline in the Air Force or degrade the trust and 
confidence that the public has in the United States Air Force.
    2.12. Free Exercise of Religion and Religious Accommodation. 
Supporting the right of free exercise of religion relates directly to 
the Air Force core values and the ability to maintain an effective 
team.
    2.12.1. All Airmen are able to choose to practice their particular 
religion, or subscribe to no religious belief at all. You should 
confidently practice your own beliefs while respecting others whose 
viewpoints differ from your own.
    2.12.2. Your right to practice your religious beliefs does not 
excuse you from complying with directives, instructions, and lawful 
orders; however, you may request religious accommodation. Requests can 
be denied based on military necessity. Commanders and supervisors at 
all levels are expected to ensure that requests for religious 
accommodation are dealt with fairly.
    As for Air Force Academy policy, there is no specific guidance on 
what can be written on whiteboards. But in addition to Air Force 
guidance described above, Cadets receive instruction and training on 
leadership principles, Equal Opportunity, and Human, Cultural and 
Religious Respect throughout the course of their 4 year experience. In 
the aggregate, these are the tools that cadets use when making 
decisions.
    3) How was that policy applied in this situation? The leadership 
response in this incident was consistent with Air Force policy outlined 
in Air Force Instruction 1-1, para 2.11. Nothing in AFI 1-1 should be 
understood to limit the substance of voluntary discussions of religion 
or the exercise of free expression where is it reasonably clear that 
the discussions are personal, not official, and they can reasonably be 
free of the potential for, or appearance of, coercion.   [See page 39.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. FORBES
    Secretary James and General Welsh. USAFA WHITEBOARD INCIDENT
    --On Monday, March 10, at 1:36 pm a cadet assigned to Cadet 
Squadron 21 (CS-21) sent an email to their squadron leadership showing 
what appeared to be a Cadet Element Leader's whiteboard with a Bible 
verse written on it.
    --Although the verse was written by the Element Leader's roommate, 
the whiteboard was placed in the hallway outside the cadet's room and 
adjacent to the sign designating the occupants' positions (Cadet John 
Doe, Third Element Leader), leading to the assumption it was the 
Element Leader's quote.
    --Between that e-mail and 5:00 pm, an unknown person had sent a 
similar e-mail to the Military Religious Freedom Foundation, who then 
contacted the office of the Superintendent, speaking only to the Exec, 
and the 3rd Group Air Officer Commanding (GAOC), who said she would 
look into the matter.
    --The GAOC contacted the Commandant of Cadets, who directed a 
``calm, measured response'' and suggested consulting with a chaplain to 
ensure leadership considered the rights of all involved. -The Cadet 
Wing Chaplain provided written and verbal consultation to the members 
of the chain of command.
    --Approximately an hour later, the CS-21 Air Officer Commanding 
(AOC), who was home sick, contacted the Element Leader to gather facts 
on the situation. Although he was not directed to do so at this time, 
garbled cell reception led the Element Leader to believe he was to 
remove the verse, which he did by taking down the whiteboard.
    --At 6:49 pm, the CS-21 AOC consulted with the chaplain and GAOC, 
and then called the Element Leader once more and requested the verse be 
removed.
    --The CS-21 AOC also asked the cadet if he had any concerns with 
this request in order to foster a discussion of balancing freedom of 
expression with leadership responsibilities and perceptions of undue 
influence. The cadet said he understood the rationale and was willing 
to remove the whiteboard.
    --Leadership response in this incident was consistent with Air 
Force policy outlined in Air Force Instruction 1-1, para 2.11 where it 
states: ``Leaders at all levels must balance constitutional protections 
for an individual's free exercise of religion or other personal beliefs 
and the constitutional prohibition against governmental establishment 
of religion.''   [See page 17.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MR. BISHOP
    Secretary James. To meet the New START Treaty-compliant force 
structure announced by the Department of Defense in April 2014, the Air 
Force will transition 50 Minuteman III launch facilities from an 
operational deployed to an operational non-deployed status. This 
transition will be accomplished by placing 50 ICBM launchers into a 
non-deployed status by removing ICBMs from 50 silos across the force. 
The Air Force will maintain a total of 450 operational Minuteman III 
ICBMs in deployed and non-deployed configurations. This action will not 
require an environmental assessment or environmental impact statement 
because no launch facilities or ICBMs will be eliminated.   [See page 
24.]
                                 ______
                                 
           RESPONSES TO QUESTIONS SUBMITTED BY MR. GARAMENDI
    General Welsh. [The air launch cruise missile, what is the status 
of the new version of the long-range strike LRSO (long-range stand-off 
missile)? What is the cost of it?] The Long Range Standoff (LRSO) 
weapon is the follow-on system to the nuclear armed AGM-86B Air 
Launched Cruise Missile (ALCM), operational since 1986. The LRSO 
program has completed an Analysis of Alternatives (AoA) and is in the 
Materiel Solution Analysis Phase of the program's lifecycle. LRSO 
funding in the FY15 President's Budget is outlined below.

                              LRSO FY15 PB
------------------------------------------------------------------------
    (TY$M)        FY15    FY16    FY17    FY18     FY19     Total (FYDP)
------------------------------------------------------------------------
LRSO            $4.9     $9.9    $19.8   $40.7   $144.9    $220.2
------------------------------------------------------------------------


    The FY15 President's Budget funds Milestone A preparation 
activities to include concept refinement, risk reduction efforts, and 
acquisition strategy refinement. The cost of the missile program will 
continue to be refined during the Materiel Solution Analysis phase as 
the program progresses toward Milestone A.
    [What is the cost of the new bomber beyond the $913 million in the 
fiscal year 2015 budget?] The funding profile for the Long Range Strike 
Bomber (LRS-B) beyond the FY15 President's Budget is classified. The 
Average Procurement Unit Cost (APUC) is $550 million in base-year 2010 
dollars and is applicable for a 100 aircraft procurement.
    [And could the new LRSO serve the same purposes as the bomber? If 
not, why not?] The LRSO and LRS-B are both components of a larger 
family of systems for Long Range Strike, including Intelligence, 
Surveillance and Reconnaissance, electronic attack, communication and 
other capabilities. Despite upgrades, current bombers are increasingly 
at risk to modern air defenses. The LRS-B provides the President with 
the option to hold any target at risk at any point on the globe. LRS-
B's long range and broad mix of stand-off and direct-attack munitions 
payload, including LRSO, will provide operational flexibility to Joint 
commanders across the range of military operations. Initial LRS-B 
capability will be delivered in the mid-2020s, prior to the planned 
retirement of the B-2 and B-52.
    LRSO will be compatible with LRS-B, B-2, and B-52, and will provide 
a nuclear standoff capability to provide sufficient capacity, 
protection of forces, and Presidential options spanning the range of 
conflicts from regional to near-peer states.
    [Secondly, if the NNSA (National Nuclear Security Administration) 
budget was part of the DOD budget, what reductions or increases would 
you recommend?] If given authority over some portion of the National 
Nuclear Security Administration's (NNSA) budget, the Air Force would 
work to strengthen focus and resources on programs providing direct 
support to the sustainment and modernization of the U.S. nuclear 
weapons stockpile. The Air Force would also support efforts to more 
effectively align NNSA programs with our efforts to recapitalize and 
modernize nuclear delivery platforms.
    [What is the rationale for having the existing or future ICBM 
fleet, and is this part of the study?] The 2010 Nuclear Posture Review 
(NPR) affirmed the continued efficacy of a Triad of ICBMs, SLBMs and 
nuclear-capable heavy bombers in maintaining strategic stability and 
deterring nuclear attack against the U.S., our allies, and partners. 
The Triad's three legs offer a diverse set of attributes and 
capabilities that produce synergistic effects vital for central 
deterrence, extended deterrence, and assurance. Additionally, the 
Triad's balance of attributes provides the U.S. with highly effective 
risk mitigation against failure of a single warhead or delivery system, 
targeted adversary investment to counter one or more of the legs, or 
unpredictable changes in the strategic environment or technological 
developments.
    ICBMs, in particular, are highly stabilizing and responsive. The 
current ICBM basing mode complicates adversary targeting and creates an 
extraordinarily high threshold for attack or coercion. The high 
readiness posture of the ICBM force combined with the U.S.'s early 
warning and command and control capabilities maximizes Presidential 
decision time during times of crisis. Together, these attributes 
contribute to the maintenance of strategic stability by vastly 
minimizing conditions under which an adversary would favor pre-emption.
    Since the 2010 NPR initiated the examination of a Minuteman III 
follow-on study while re-validating the importance and necessity of the 
Triad, the Air Force did not include a ``no-ICBM'' scenario in its 
Ground Based Strategic Deterrent analysis.
    [For the ICBM, what is the total all-inclusive cost of the land-
based ICBM program?] The 10-Year Cost Estimate for the ICBM land based 
program is $19B, however this does not include an additional $34.7B 10-
Year price tag for the Nation's Nuclear Command and Control System 
(NCCS) which is an integral part of the land based deterrent. This 
additional $34.7B is a shared cost between all three legs of the 
nuclear Triad.


                                           Table 1: ICBM Program Costs
                                         (then-year dollars in billions)
----------------------------------------------------------------------------------------------------------------
                                                      FY 2015-2019                    10-Year Cost Estimate
----------------------------------------------------------------------------------------------------------------
Minuteman III\1\                         $6.7                                    $11.6
----------------------------------------------------------------------------------------------------------------
Follow-on ICBM                           AoA & Acquisition Planning              $6.0
----------------------------------------------------------------------------------------------------------------
ICBM Fuze Modernization                  $0.7                                    $1.4
----------------------------------------------------------------------------------------------------------------
Total                                    $7.4                                    $19
----------------------------------------------------------------------------------------------------------------
\1\ Includes ICBM Squadrons, Helicopter Support, and Demonstration/Validation.
 
Source: ``Fiscal Year 2015 Report on the Plan for the Nuclear Weapons Stockpile, Nuclear Weapons Complex,
  Nuclear Weapons Delivery Systems, and Nuclear Weapons Command and Control System Specified in Section 1043 of
  the National Defense Authorization Act for Fiscal Year 2012''


    [And then, when was the most recent comprehensive review or study 
of the Triad Nuclear Strategy? And given the tight budgets in the years 
ahead, do you believe it is wise and useful to conduct such a study?] 
The most recent, comprehensive review was conducted in 2011 when the 
President directed the Department of Defense (DOD), in consultation 
with other departments and agencies, to conduct in-depth analysis as a 
follow-on to the 2010 Nuclear Posture Review (NPR). The results of this 
review were submitted to the Congress pursuant to 10 U.S.C Section 491. 
The Air Force supports the DOD's position that it is prudent to 
periodically review our nuclear forces and strategy as circumstances 
dictate. These reviews provide force planners with an important 
opportunity to identify emerging problems in the nuclear portfolio and 
develop appropriate mitigation strategies, assess changes in 
geopolitical conditions and their impacts on nuclear forces, or to make 
adjustments that would enhance U.S. national security or that of our 
allies.   [See page 31.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MR. LAMBORN
    General Welsh. No, the divestment of the 52nd Airlift Squadron 
(activated in 2009) will not affect the ability of the Air Force 
Reserve's 302nd Airlift Wing from accomplishing its mission, including 
its MAFFS mission. The C-130 Active Associations were established to 
meet increased rotational crew demand for OEF/OIF, and they've 
successfully fulfilled that purpose. With the drawdown in OEF/OIF, the 
requirement for post-surge rotational crews has been reduced. 
Additionally, the FY13 NDAA/TFP-13 divested the last RegAF C-130H units 
and used the offset to pay a considerable portion of the TFP-13 bills. 
As a result, the active-duty C-130H force associations became 
unsustainable as AMC no longer has C-130H UE units to feed them. In 
summary, Active Associations such as the 52nd Airlift Squadron have 
become less affordable and less operationally effective in today's BCA-
level environment.
    The nation's MAFFS mission, including the AFR's 302nd Airlift Wing, 
will remain largely unaffected by the divestment of the Active 
Associations. Each MAFFS-equipped unit will maintain 2 MAFFS kits, 8 C-
130Hs, and ample qualified personnel. The active-duty aircrew qualified 
to fly MAFFS missions is a small number--less than 10 personnel--hence 
the loss of active-duty aircrew will not impact the ARC's MAFFS 
mission. Nor will the divestment of 4 C-130H aircraft from the AFR's 
302 AW negatively impact the ARC's MAFFS mission. Overall, the small 
number of MAFFS equipment (8 nationwide, 2 per wing) is the limiting 
factor in USAF firefighting augmentation capacity, not crews, aircraft, 
or maintenance.   [See page 30.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MS. SPEIER
    General Welsh. Following the Air Force-wide health and welfare 
inspection, Air Force commanders took a total of 11 disciplinary 
actions. These included five letters of reprimand, one letter of 
counseling, two actions of verbal counseling, two Articles 15, and one 
general court-martial.
    The general court-martial charges involved pornography on a 
government computer, assault and battery, and general disorder. This 
master sergeant was found guilty and sentenced on January 17, 2014, to 
one year confinement, reduction to E-4, and fined.
    It is possible that there are additional disciplinary actions that 
are not visible to the Inspector General or were not reported. Many of 
the disciplinary actions identified, including letters of reprimand--
except for officers--letters of counseling, verbal counselings, and 
Articles 15 (depending on the punishment)) are not mandatory entries in 
an unfavorable information file per AFI 36-2907. Article 15 and court-
martial data are reported in the Automated Military Justice Analysis 
and Management System, the source of the same data above. The Air Force 
Legal Operations Agency received reports of the other actions (i.e., 
LORs, LOC, and verbal counselings) from the field in response to the 
health and welfare inspection.   [See page 43.]
    General Welsh. In CY 2013, AFOSI recruited 431 confidential 
informants targeted against criminal activities. Airmen of any rank, as 
well as non-military members, may participate in AFOSI's informant 
program. AFOSI has no quotas for particular ranks, though enlisted 
Airmen provide the preponderance of assistance. With regard to the Air 
Force Academy, the Superintendent has initiated a comprehensive review 
of the employment of cadets as confidential informants. That review is 
nearly complete.   [See page 43.]
    General Welsh. The Air Force and AFOSI does not specifically track 
or retain this information. An effort to create a process to assess 
this correlation would require the involvement of multiple personnel 
offices and databases. This would require the disclosure of law 
enforcement sensitive records and personally identifiable information 
restricted by the Privacy Act on former AFOSI confidential informants 
(release of names, dates of birth and social security numbers), 
including those who may still be serving honorably in the Air Force.   
[See page 43.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY DR. FLEMING
    Secretary James. The United States Military Entrance Processing 
Command (USMEPCOM) operates 65 Military Entrance Processing Station 
(MEPS) located throughout the United States. The MEPS in question is 
located on Gunter Annex of Maxwell AFB, AL. USMEPCOM is a joint service 
command under the direction of the Deputy Assistant Secretary of 
Defense for Military Personnel Policy, who in turn reports to the Under 
Secretary of Defense for Personnel and Readiness (USD(P&R)). Although 
the MEPS is located on the Gunter Annex, it is a tenant organization 
and the Air Force has no operational authority over the organization. 
Maxwell Air Force Base and Gunter Annex are facilities closed to open 
public access. In order for any civilian to gain entry, sponsorship is 
required by either the base or the tenant. The individuals seeking 
access to the base need to (re) establish sponsorship for base access.
    Since at least 2008, USMEPCOM policy is that a Non-Federal-Entity, 
in this case the Gideons, may distribute literature to the MEPS, but 
cannot post members in the vicinity of the MEPS to preach, proselytize, 
or interrupt processing. Also, if MEPS allows any Non-Federal-Entity to 
distribute literature; the MEPS will allow all other religious groups 
to distribute their literature as well. A MEPS Commander has the 
authority to remove all literature if it becomes contentious, adversely 
impacts the mission, or threaten good order and discipline.
    Thus, based upon USMEPCON policy, the Gideons International may 
place Bibles in a location inside the MEPS as designated by the MEPS 
commander. The Gideons may no longer, however, post members in the MEPS 
to personally pass out the Bibles or provide spiritual guidance to the 
applicants.
    The following questions are intended to clarify any public 
misunderstanding concerning Bible distribution at the MEPS:
    Q. Does USMEPCOM have a policy concerning the ability of Gideons 
International to distribute Bibles at MEPS?
    A. The Commander, USMEPCOM published Policy Memorandum 11-2, 
Operation of Non-Federal Entity, on November 6, 2008. This policy was 
renewed on September 25, 2013 (attached). This policy applies to all 
non-federal organizations seeking access to the MEPS, to include 
Gideons International and other groups, both religious and secular. 
Although each new MEPCOM commander endorses this policy, it has not 
changed since originally published in 2008.
    [The information referred to can be found in the Appendix on page 
100.]
    Q. What is the policy concerning operation of non-federal entities 
in MEPS?
    A. Command Policy Memorandum 11-2 provides that a non-federal 
entity may, when authorized in writing by the MEPS commander, place 
secular or religious literature in a location inside the MEPS as 
designated by the commander. The literature may not include any 
materials that create the impression that the government is sponsoring, 
endorsing or inhibiting religion generally, or favoring or disfavoring 
a particular religious group.
    Q. Are there any other limitations on the access of non-federal 
entities to MEPS?
    A. Yes. Command Policy Memorandum 11-2 also prohibits a non-federal 
entity, either religious or secular, from posting or stationing a 
member within the premises of any MEPS, including outdoor areas under 
the exclusive control of the MEPS, for the purpose of distributing 
literature. In addition, no member of any non-federal entity may 
proselytize, preach, provide spiritual counseling, solicit donations, 
or give briefings to applicants or other personnel at the MEPS. 
Similarly, representatives of non-federal entities may not perform any 
rites or ceremonies (e.g., invocations or benedictions) on MEPS 
premises without approval of the MEPS commander and a written legal 
review from the USMEPCOM Office of the Staff Judge Advocate.
    Q. How does Command Policy Memorandum 11-2 apply to the Gideons 
Bible distribution?
    A. Gideons International may place Bibles in a location inside the 
MEPS as designated by the MEPS commander. The Gideons may no longer; 
however, post members in the MEPS to personally pass out the Bibles or 
provide spiritual guidance to the applicants.
    Q. Is distribution of non-government related items regulated at the 
local level or at the DOD level?
    A. Command Policy Memorandum 11-2 is a USMEPCOM policy which 
applies to all USMEPCOM units and personnel, including all 65 MEPS. 
While all non-federal entities must be permitted equal access and 
opportunity to provide secular or religious literature in the MEPS, a 
MEPS commander does have the discretion to remove all literature should 
the presence of literature become contentious, adversely impact on 
mission, or threaten good order and discipline. Also, MEPS located on 
military installations must follow the installation policy on access of 
non-federal entities, even if it is more restrictive than the USMEPCOM 
policy.
    Q. Is USMEPCOM's policy reflective of DOD policy? A. USMEPCOM's 
policy was not modeled on any specific DOD policy. However, the policy 
was reviewed by and coordinated with the Office of the Department of 
Defense General Counsel, the Office of the Army General Counsel, and 
the United States Army Litigation Division. [Note: the Army is 
USMEPCOM's Executive Agent and USMEPCOM's legal staff is authorized to 
practice law for USMEPCOM by the Army Judge Advocate General.]
    Q. Has USMEPCOM always followed a similar policy regarding access 
of the Gideons and other religious groups in the MEPS?
    A. No. Since World War II, non-federal entities have been present 
in military entrance processing facilities, engaging applicants in a 
wide range of secular and non-secular activities.
    Q. Why did USMEPCOM adopt its current policy?
    A. Over the past several years, USMEPCOM has received occasional 
complaints from applicants and family members who were offended by the 
presence of representatives from religious groups in the MEPS. In 
August 2007, the American Civil Liberties Union (ACLU) formally 
requested access to several MEPS to ``observe the extent to which 
civilian organizations (religious and non-religious) are permitted to 
distribute literature and conduct briefings with military applicants.'' 
In reviewing the ACLU's request, it became evident that the lack of a 
clear written policy had in fact resulted in incidents where it 
appeared that some MEPS were endorsing or sponsoring Christianity in 
general or the Gideons International specifically.
    Q. Are the Gideons aware of USMEPCOM's policy?
    A. Yes. A copy of the policy was sent to Gideons International 
Headquarters on December 2, 2008. In addition, the USMEPCOM Staff Judge 
Advocate had several telephonic conversations with Gideons 
International officials concerning the policy.
    Q. What is the role of the military chaplaincy in this issue?
    A. HQ USMEPCOM is located on Naval Station Great Lakes, and 
receives chaplain support from that installation. The MEPS, however, do 
not have assigned chaplains. Concurrent with publishing the policy 
concerning access of non-federal entities to MEPS, the Commander, 
USMEPCOM established an understanding with the Director, Religious 
Ministries, Navy Region Midwest, Great Lakes IL, to advise MEPS 
commanders concerning religious accommodations and practice, and to 
authorize and review applications for appointments of volunteer 
chaplains at the MEPS.   [See page 35.]
    General Welsh. Mr. Todd Starnes stated in his article, ``Bible 
Controversy Hits Air Force Base'' (reported on FoxNews.com, March, 
2014), that ``tradition has come to an end after volunteers said they 
were told by the military that they would no longer be allowed to 
personally distribute the pocket-sized Bibles to recruits.'' In this 
particular article Mr. Starnes was factual; however, journalistic bias 
is clearly evident.
    The United States Military Entrance Processing Command (USMEPCOM) 
Public Affairs (PA) office provided background information relevant to 
the Gideon Bible complaint. According to PA, the Gideons were the only 
non-Federal Entity (NFE) that provided actual people to hand out 
anything, in this case Gideon Bibles, at the processing station on the 
Gunter Annex. In the past, they had been permitted to physically hand 
Bibles to those completing processing and discuss religion with anyone 
interested. However, a new Office of the Secretary of Defense (OSD) 
policy, Policy Memorandum 11-2, Operation of non-Federal Entities, 
dated 25 September 13, forbade any NFE from providing individuals to do 
so any longer.
    Apparently, this policy was not enforced immediately upon signing. 
However, with the recent arrival of a new commander, a review of the 
policy determined it was not being enforced as required. Thus, the 
discontinuation of Gideons being allowed to man the Military Entrance 
Processing Command Station (MEPCS) was implemented.
    Mr. Starnes referred to a MEPCS policy in his article, but he used 
the word ``ouster'' implying a prejudicial singling out of Gideans, 
creating an infringement on any trainee's religious freedom. That is 
not fact. If there had been a dozen NFEs there, all would have been 
expected to adhere to this policy. In truth, the policy seeks 
uniformity and trainee access to all faiths equally and legally. Gideon 
Bibles remain freely available to any trainee desiring one.   [See page 
36.]
                                 ______
                                 
            RESPONSE TO QUESTION SUBMITTED BY MRS. HARTZLER
    General Welsh. To date, the Air Force has spent approximately 
$815,335,999 on the A-10 Wing Replacement Program. The funding breaks 
down as follows:
    RDTE: $4,799,935 APAF: $750,536,064 O&M: $60,000,000* Total: 
$815,335,999
    * A-10 SPO estimates the average install cost at $800,000 per wing. 
New wings are most often installed as part of a larger depot 
requirement with an aggregated total cost. 75 wings have been 
installed, to date.   [See page 48.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. SCOTT
    General Welsh. The Air Force plans to save $4.3 billion across the 
Future Years Defense Plan by retiring the A-10. Current budget 
constraints forced difficult decisions regarding overall fighter force 
capacity and capability--simply put, in a fiscally restrained Air Force 
we cannot afford to retain a single-mission tactical aircraft with 
limited capabilities in an anti-access/area-denial (A2AD) environment. 
Our focus going into the Fiscal Year 2015 budget is on investing in 
capabilities the Air Force uniquely provides to the joint force and the 
Nation, such as global, long range, multi-role platforms capable of 
operating in highly contested environments against a determined, well-
armed, and well-trained adversary. Consequently, the Air Force made the 
decision to prioritize new capability and readiness and accept near-
term risk in capacity in order to ensure a more capable and ready force 
for 2023 and beyond.
    While the A-10 is optimized for the close air support mission, 
these missions are also accomplished using multiple aircraft in our 
current inventory. In the event of an A-10 divestiture, the Air Force 
will organize, train and equip our remaining multi-role aircraft to 
minimize the impact to these missions. Once operational, the F-35 will 
be available to perform these missions across the range of military 
operations, while also providing additional capability in more 
challenging A2AD environments. The Air Force remains committed to 
providing these mission capabilities to the Joint Force.   [See page 
44.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. ENYART
    General Welsh. Despite current fiscal constraints, the KC-46A 
remains one of the Air Force's top acquisition priorities; therefore we 
expect deliveries will continue as planned. However, this schedule 
could be adversely impacted if sequestration and strict Budget Control 
Act funding caps are continued into Fiscal Year 2016 and beyond.
    Scott AFB will continue to be included in the enterprise of 
installations considered for basing the remaining 123 KC-46A tankers. 
The Air Force plans on making basing decisions three-years ahead of 
scheduled aircraft delivery dates. Likewise, we anticipate that the 
criteria used for analyzing each installation will remain largely 
unchanged from what we used to select Main Operating Base #1 (McConnell 
AFB) and Main Operating Base #2 (Pease ANGB). Tanker units that are not 
selected to receive KC-46As will continue to perform their current 
missions. Installations not recapitalized with the KC-46A will likely 
be recapitalized with follow-on tankers, notionally called ``KC-Y'' and 
``KC-Z'' (post 2028).   [See page 38.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MR. PALAZZO
    General Welsh. The Fiscal Year 2015 President's Budget (PB) 
proposes retiring 47 C-130Hs and redistributing several aircraft and 
units in an effort to comply with the Budget Control Act's fiscal 
limitations. Inherent in the PB is the Air Force Total Force Proposal 
(TFP) that directs a number of ``moves'' to include actions within the 
C-130 fleet to distribute aircraft across existing Air Force Reserve 
units. Training efficiencies are realized through the aircraft 
consolidation at Little Rock Air Force Base (AFB) and the ``moves'' 
contribute to the Total Force Integration (TFI) of AF's C-130s.
    Analysis of manpower and financial savings for the transfer of the 
C-130J aircraft to Little Rock AFB indicates a savings of over 600 
personnel and over $100M through the FYDP. Additional details and 
background data will be provided to your office in coming months.
    In summary, moving the C-130Js from Keesler AFB to Little Rock AFB 
is part of the AF's effort to right-size the C-130 fleet. The FY15 PB 
reduces excess C-130 capacity by adjusting the fleet from 358 to 328 by 
FY19, consistent with the findings of the Mobility Capability 
Assessment 2018 signed in May 2013. In addition, by moving the 10 C-
130Js from Keesler AFB to Little Rock AFB, the AF ensures the nation 
possesses an integrated and balanced C-130 enterprise.   [See page 52.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MR. NUGENT
    General Welsh. No. CHAMP was a successful Joint Concept Technology 
Demonstrator (JCTD) that accomplished its mission and is complete. The 
results from the JCTD tests are informing the Air Force's way ahead 
with that type of weapon system.   [See page 46.]
                                 ______
                                 
           RESPONSE TO QUESTION SUBMITTED BY MR. BRIDENSTINE
    Secretary James. No, our current position does not violate the 
current suspension of U.S. military-to-military cooperation with 
Russia. The suspension does not include contact related to the 
implementation of binding contracts.   [See page 55.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 14, 2014

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCKEON

    Mr. McKeon. We've had many lessons learned from contracting actions 
during contingency operations and there is no doubt we will rely on 
contract support in future contingencies, be it humanitarian relief or 
full-spectrum combat operations. What are you doing to not only plan 
for contract support during a contingency, but to educate and train 
your personnel so they are prepared to develop requirements, and 
execute and oversee contracting actions in order to properly respond in 
a contingency. How are you incorporating lessons learned from 
contingency contracting in Iraq and Afghanistan into the professional 
military education of your military and civilian personnel?
    Secretary James. The Air Force planning and logistical communities 
continue to develop new Air Force instructions and training for 
Contingency Planning Guidance and Formats and will integrate 
operational contract support ``planning'' policies into these documents 
and training forums. These instructions include the revision of AFI 10-
401, ``Deployment Planning & Execution'' and War and Mobilization 
Planning, Volume 1, and the implementation of AFI 13-103, ``AFFOR Staff 
Operations Readiness and Structures.'' Further, operational contract 
support has been integrated into the Contingency Wartime Planners 
Course. The Air Force contracting community is actively incorporating 
operational lessons learned in new contracting execution instructions, 
guidance, policy, and training in support of warfighter requirements. 
Additionally the Air Force personnel community curriculum has included 
operational contract support in the professional military education 
curriculum. Upon publication of the draft Joint Strategic Capabilities 
Plan, the Air Force will review and revise the appropriate guidance, 
policies, and training.
    Mr. McKeon. We've had many lessons learned from contracting actions 
during contingency operations and there is no doubt we will rely on 
contract support in future contingencies, be it humanitarian relief or 
full-spectrum combat operations. What are you doing to not only plan 
for contract support during a contingency, but to educate and train 
your personnel so they are prepared to develop requirements, and 
execute and oversee contracting actions in order to properly respond in 
a contingency. How are you incorporating lessons learned from 
contingency contracting in Iraq and Afghanistan into the professional 
military education of your military and civilian personnel?
    General Welsh. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FORBES
    Mr. Forbes. After years of emphasizing the procurement of weapons 
and capabilities for counterinsurgency warfare, the Pentagon and the 
Air Force are shifting their emphasis toward funding programs capable 
of operating effectively in non-permissive, A2/AD environments. 
However, this leads me to conclude that the DOD should be moving to 
develop a balance of new manned and unmanned vehicles that are 
survivable in A2/AD environments, can operate over the vast distances 
of the Asia-Pacific region, and have the ability to perform strikes and 
other missions as well as serve as ISR sensors. General Welsh, are you 
comfortable with the Air Forces' planned mix of manned and unmanned 
capabilities for operating in the A2/AD environments of the future and 
are there other areas for investment that you think we should be 
considering in the decade ahead?
    General Welsh. We continue to work with our sister-Service partners 
to achieve a Joint portfolio of multi-mission platforms that can 
perform both strike and ISR missions in permissive and non-permissive 
environments. The Air Force has undertaken a robust development of 
classified capability in both the air and space portfolios to mitigate 
A2/AD threats. These types of resources are typically high cost and 
require long lead times for procurement/fielding. Given current fiscal 
constraints, we will have to accept potential risks in some of these 
areas. Any further discussion would result in a higher classification.
    Mr. Forbes. The quantity and quality of our munitions deserve far 
more attention than they normally receive. One witness testified at an 
earlier HASC hearing that ``The difference in a peer conflict will be 
that we won't have the luxury of time to spin up production lines, rush 
munitions, trade them between theaters, move them between ships, move 
them from ships to airbases and airbases to ships. We need to have in 
place in theater a wide range of munitions.'' We also heard that it was 
``imperative to invest in our more sophisticated range of munitions--
JASSM; LRASM; the more sophisticated air-to-air and dual-role air-to-
air, air-to-ground munitions that we see coming.'' What is your 
assessment of the Air Force's mix of conventional munitions and how do 
you believe this budget and the continuation of sequestration beyond 
2016 will affect our munitions?
    General Welsh. The Air Force's portfolio of conventional munitions 
remains a serious constraint to the Combatant Commanders in the near, 
mid and far term. Procurement quantities of preferred munitions, such 
as JASSM, Hellfire, and JDAM, have been adversely impacted by 
sequestration and will remain an area of concern. Additionally, 
procurement reductions in War Reserve Materiel and Test & Training 
Munitions (e.g., bomb bodies, fuzes, countermeasures) are affecting 
readiness requirements and placing combat capability at increased risk. 
Most troubling is the compounding effect of sequestration funding 
reductions, making it difficult to maintain an already limited 
industrial base shared by DOD and our Allies. In fact, our Allies often 
request munitions from our own stockpile due to the current limited 
industrial capacity. The difference between the President's Budget 
Request and Budget Control Act funding levels is significant and the 
resource constraints are driving tough decisions across the munitions 
portfolio. Continued funding at sequestered levels across the FYDP will 
serve to further diminish an already degraded conventional munitions 
posture and subsequently increase readiness risk.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. One of the most consistent themes we have heard in 
the committee's posture hearings, especially this year, has been the 
demand for ISR. Can you elaborate on the demand signal you are seeing 
from combatant commanders, the types of ISR they are asking for, and 
roughly what proportion of the needs you have been able to fulfill? 
Given this demand signal, why has the Air Force requested elimination 
of an entire fleet of ISR platforms in each of the last few budgets?
    Secretary James. The demand for intelligence, surveillance, and 
reconnaissance (ISR) far exceeds the number of platforms the Air Force 
and our joint partners can provide. The combatant commanders require a 
wide range of ISR to support their needs. The Air Force has been 
operating its ISR fleet at surge capacity for a number of years 
delivering high fidelity imagery, full motion video, signals 
intelligence, multi-spectral imagery, and others.
    A reduced budget forces difficult decisions and if we could afford 
to keep all our platforms, we would. The Air Force is balancing 
capability across the range of military operations with limited 
resources. As we rebalance the ISR portfolio, we do our best to 
maintain our ability to conduct ISR operations in support of the 
combatant commanders. The key to maintaining the ability to operate in 
both permissive and contested environments is finding the appropriate 
mix of manned and unmanned platforms with the requisite capabilities. 
To achieve this optimal mix, in a budget constrained environment, we 
must rebalance the Air Force ISR portfolio by divesting some platforms 
and, where possible, reinvesting the savings in other areas of the ISR 
portfolio.
    Mr. Langevin. In General Alexander's testimony earlier this week in 
his CYBERCOM capacity, he spoke of concerns about the various personnel 
authorities at play for cyber professionals, and the problems 
associated with creating equitable pay and promotion opportunities 
among those personnel buckets. Is this a concern that is on your radar 
as well, or are you comfortable with your ability to attract and retain 
cyber professionals within the Air Force?
    Secretary James. Yes, we too are concerned with creating equitable 
pay and promotion opportunities for cyberspace professionals, but we 
are confident we are taking necessary steps to ensure we recruit, 
train, retain, and promote cyberspace professionals. The current Total 
Force Cyberspace Workforce is 43,000 comprised of officer, enlisted, 
and civilian authorizations in cyberspace operations and related career 
fields. The most significant increase in authorizations focuses on new 
mission requirements from USCYBERCOM supporting the Cyber Mission Force 
(CMF). While most career fields are at or near 100% manned across the 
Total Force, there are shortages among the different skill levels 
within enlisted specialties and within some year groups of officers.
    We are short in two enlisted specialties--Cyber Intelligence 
Surveillance and Reconnaissance (ISR) and Cyber Defense Operators--and 
are using existing force management tools to recruit and retain these 
specialties. For the highly specialized Cyber ISR airmen, we address 
this early on with an initial enlistment bonus, 6-year enlistment for 
maximum return on training and eligibility for the maximum selective 
reenlistment bonus the Air Force can offer. Our recruiting numbers as a 
result of CMF teams have grown beyond the upper bound to reach stated 
requirements by the end of FY16. For highly specialized Cyber Defense 
Operators we select currently serving members who have the appropriate 
skills and require a 3-year service commitment after training is 
complete. These airmen also earn a sizable selective reenlistment 
bonus. Our ability to meet Cyber Mission Forcer requirements for Cyber 
Defense Operators is currently limited as demand for these Airmen 
exceeds production capacity at our school house. We are executing our 
plan to increase Cyber Defense Operator production by building 
additional classified classrooms and training additional instructors. 
Additional production will begin in March 2015. Promotion opportunity 
challenges are not unique to the Cyber community; thus, airmen serving 
in cyber-related specialties have an equal, if not better chance of 
being promoted through self-study and good job performance. Overall, 
the Cyber Defense Operator career field promotion rates are at 32%, as 
compared to the Air Force average of 16%.
    Competition for cyberspace talent exists in all quadrants of the 
corporate, government and military spheres. The Air Force competes with 
our Sister Services, the NSA, FBI, CIA, Google, Microsoft, Adobe, 
Electronic Arts, Apple, etc. for cyberspace talent. Although the Air 
Force cannot compete with the pay corporate America offers, we, the 
Services, provide unique opportunities attractive to today's cyberspace 
talent. We continue to explore options in the current civilian pay 
system to provide compensation commensurate with corporate America. We 
look to other government agencies (FDIC, SEC) that have abandoned the 
traditional civilian pay system and created their own to adopt 
incentives that would help us attract and retain cyberspace civilian 
talent.
    The sudden growth in demand levied on all Services based on 
increased dependence on cyberspace and emerging threat profiles 
requires cooperation and innovative approaches to capitalizing on 
expertise across the Total Force. Proper balance across the Total Force 
will ensure sustained ability to meet current and future mission 
requirements.
    Mr. Langevin. As we draw out of Afghanistan, we will no longer 
have, in most cases, the luxury of permissive aerial environments that 
enable staring, persistent ISR platforms. We will be changing not just 
a linear relationship between collection and analysis, but also the 
habits of a generation of airmen that haven't in many cases been able 
to acquire the depth of experience in multi-source, integrative 
intelligence analysis that the future will demand. This is especially 
true in complex intelligence challenges such as counter-proliferation, 
even more so when you consider the likelihood of the reduction or 
disappearance of traditional proliferation signatures. Can you 
elaborate on how you will posture and train your airmen to be able to 
tackle these challenges?
    General Welsh. While many Intelligence, Surveillance, and 
Reconnaissance (ISR) Airmen today have not had access or tasking to 
analyze a highly technical adversary with advanced air or air-defense 
capabilities, they have had 14 years of successfully analyzing dynamic 
counter-terror targets. This focus, along with a high deployment dwell 
in permissive environments, has degraded competence for air component 
missions and denied environments. While Air Force ISR leaders believe 
internal analytic capabilities will continue to meet operational 
requirements and intelligence needs across the Range of Military 
Operations, they believe Air Force-wide analysis needs to be improved, 
and assess an overall decline in this core competency. Investing in our 
ISR analysis personnel, integrating Intelligence Community information 
architectures to leverage ``Big Data'' analysis, and designing analysis 
tools will be our focus areas for the next several years. Efforts such 
as the recently released Air Force ISR Strategic Vision (Sept 13) are 
critical in posturing the analysis issue to become a more prominent 
keystone for the future. With this renewed emphasis on analysis, Air 
Force ISR began several critical revisions to entry-level training for 
ISR officers and enlisted, and is pursuing initial skills/advanced 
analysis courses that integrate Intelligence Community standards. With 
the successful integration of analysis into entry-level courses, 
implementation of the advanced skills course is gaining traction. As 
analysis is a core competency enhancing collection, targeting, and 
operations integration, we will continue to emphasize the development 
of this capability at all levels. A culture of collaboration across the 
IC and proper analytic instruction over time will lead to an 
environment where fusion can further flourish against a wide variety of 
problem sets, to include counter-proliferation. We are starting to see 
the fruits of these changes, and are confident we are headed in the 
right direction.
    Mr. Langevin. In addition to continued concerns shared by many on 
this committee with regard to the increasing cost of space launch 
services, I note several changes to the shape and scope of the 
procurement plan for launch vehicles. In particular, in FY15, I note 
that 4 of the 5 programmed opportunities for competitive procurement 
have disappeared, and through FY17 the number of competitive launches 
has declined by fully half. While I am certainly cognizant of the 
difficulties in creating an apples-to-apples comparison of the programs 
in question and the need for continued efforts to make that possible, 
can you speak to these decisions and the reasoning behind them, 
particularly given ASD Kendall's directive to, quote, ``aggressively 
introduce a competitive procurement environment in the EELV program''?
    General Welsh. While the Air Force originally planned for up to 14 
competitive launches in FY2015-2017, five GPS-III satellite missions 
(GPS III 7/8/9/10/11) were re-phased due to our revised forecasted 
operational need. These five missions have been delayed to 2018-2023 
and remain available for competition. This was the result of careful 
sustainment of our on-orbit satellites, allowing us to project 
additional satellite lifetime without increased risk to the satellite 
constellations. This results in almost $400M less required for space 
launch over the FYDP.
    The AFSPC-8 mission was reallocated due to mission requirements. 
This satellite carries a mass uncertainty that exceeds projected Falcon 
9 v1.1 launch capability. Per the CRADA signed between SpaceX and the 
Air Force, SpaceX is not pursuing certification to this orbit.
    The Air Force continually reassesses constellation health for all 
its on-orbit assets and updates programming accordingly. This process 
was codified in a memo signed by AFSPC Commander August 6, 2012, titled 
``Programmatic EELV Launch Forecast'' which stated, ``Through 
subsequent POM cycles, AFSPC will annually reassess and adjust planned 
procurements as operational requirements, SV development/production and 
fiscal realities dictate.''
    It is important to note the 36 cores have not ``been assigned to 
missions.'' Under this contract, the Air Force orders launch vehicle 
configurations that can support multiple missions to enable mission 
assignment as late as 12 months prior to launch.
    Mr. Langevin. Can you update us on your progress in reducing the 
number of network enclaves to a more defensible figure on the Air Force 
network?
    General Welsh. The Air Force is in the final stages of its move to 
a true Air Force-wide Enterprise, centralizing network control under a 
single organizational structure and providing enterprise level 
security. The Air Force has made progress towards this goal through a 
number of initiatives including the Air Force Network (AFNET) Migration 
efforts; continued migration of NIPRNET and SIPRNET email accounts to 
Defense Enterprise Email (DEE); and the Federal Data Center 
Consolidation Initiative (FDCCI). Specifically:
    <bullet>  In April 2014, the Air Force Space Command (AFSPC) 
declared completion of the AFNET Migration efforts. This initiative 
migrated over 644,000 Active duty and reserve user accounts, 10,905 
servers and 275 sites from multiple Air Force Major Commands, Field 
Operating Agencies, and Direct Reporting Unit networks into a single 
Air Force enclave. AFNET Migration has reduced network complexity 
making it easier to standardize and secure the network.
    <bullet>  DEE, the first enterprise service under the Joint 
Information Environment (JIE) construct, is a joint enterprise email 
solution provided by the Defense Information Systems Agency. DEE 
provides secure, cloud-based email for the DOD enterprise, increases 
operational efficiency, and facilitates collaboration across 
organizational boundaries. Specific DEE accomplishments include the 
following:
        <bullet>  Air Force completed DEE NIPRNET migration for the 
        National Capital Region in Jan 2014
        <bullet>  Air Force is in the process of migrating SIPRNET 
        accounts to DEE
        NIPRNET DEE migrations Outside of the Continental United States 
        (OCONUS) are scheduled to begin in late FY14; the remainder of 
        the CONUS NIRPNET migrations will begin in FY15.
    <bullet>  FDCCI is the reduction of Air Force data centers through 
consolidation efforts. FDCCI exploits Joint consolidation opportunities 
to reduce infrastructure footprint, accelerate movement to the JIE end-
state, and ensure integrated capabilities. As of June 2014, the status 
of Air Force Data Center closures is as follows:
[GRAPHIC] [TIFF OMITTED] 


    .epsReducing the points of presence and consolidating the 
infrastructure have effectively reduced network attack surfaces. Joint 
Regional Security Stacks (JRSS) and additional DOD JIE initiatives 
combine to make the Air Force enterprise more defensible.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOBIONDO
    Mr. LoBiondo. The EELV program has long faced scrutiny on the lack 
of transparency when it comes to the costs its sole-source provider 
charges the Government. To this point, the GAO recently issued a report 
stating that the DOD ``cannot determine an accurate price for a ULA 
launch.'' The report's primary author, Christina Chaplain, Director of 
Acquisition and Sourcing at the GAO, further stated at a Senate Defense 
Appropriations hearing recently that, even with significant efforts to 
improve insight, the Government still cannot link costs to specific 
missions, which comprise about 70 percent of the funds in the cost-plus 
``launch capability'' line item. How does the Air Force explain this? 
Wouldn't competition offer lower costs and result in fair and 
reasonable pricing--versus a sole source environment where, despite 
every effort, costs and pricing still cannot be fully determined?
    Secretary James. United Launch Alliance (ULA) launch services have 
been procured under various contract terms and acquisition strategies 
over the life of the program. As such, the per launch cost basis of a 
ULA launch has varied over time and has been subject to cost factors, 
such as the variants in the Atlas and Delta families, vehicle 
configuration, mission-specific integration required, launch location, 
and the number of the same/similar payloads previously flown. The 
liquid engine and solid motor prices were also severely impacted by at 
the end of the shuttle era because of the reduction in business base 
for those suppliers. Further, EELV launch capability includes costs 
that cover launch operations, mission integration, production factory/
subcontract support engineering and launch infrastructure. Launch 
capability provides operational flexibility and ability to launch the 
full range of EELV operational requirements. Due to this fact, the 
launch capability costs are not necessarily dependent on number of 
launches in a particular year and may support launch services procured 
under a previous contract as well as current contracts.
    The Air Force is committed to competition within the EELV program. 
We are aggressively taking steps to support competition while ensuring 
our responsibility to deploy National Security Space payloads into 
their orbits safely and with acceptable risk. We will compete portions 
of the launch manifest each year in 2015, 2016, and 2017 if there is 
even one New Entrant ready to compete; i.e., they have successful 
launches and have completed the required certification steps. We are 
working early with declared New Entrants to certify their systems as 
ready as evidenced by our Cooperative Research and Development 
Agreement (CRADA) with SpaceX and we have added government team 
resources to assure timely review of certification products, data and 
other supporting information throughout the certification process.
    Additionally, on 15 July 2014, the Air Force released a Request for 
Proposal (RFP) to industry for the competitive procurement of a 
National Security Space (NSS) mission to be launched in 2016. This is 
the first EELV competitive action in over a decade, and a significant 
milestone in the Air Force's efforts to bring competition into the EELV 
program, consistent with Under Secretary of Defense Frank Kendall's 
direction to ``aggressively introduce a competitive procurement 
environment.'' Competition among certified launch providers will 
encourage innovation and continued cost savings, while ensuring the Air 
Force will continue its focus on mission success. The Air Force looks 
forward to awarding this contract to a qualified offeror, thus 
maximizing the efficiencies of Space Launch while working to retain 
strict adherence to quality and mission assurance standards. The Air 
Force has also requested a reprogramming action through the FY14 
Omnibus Reprogramming Request to add an additional near-term 
competitive launch.
    Mr. LoBiondo. Our national security strategy is now centered on 
what has been called the pivot to Asia. Given the importance of this 
region to U.S. interests I would think we would want to maintain the 
best possible intelligence collection capabilities in the theater. The 
FY2015 budget proposes to begin retiring the U-2 high altitude 
intelligence and reconnaissance aircraft and relying on other platforms 
to fulfill that mission.
    When the U-2 goes out of service will we still be able to fulfill 
all of the high altitude intelligence collection requirements we have 
in the Pacific? Will we be able to continue monitoring activities in 
North Korea without regard to weather conditions as we can now with the 
U-2? Will other assets provide the same sort of flexibility to react in 
a crisis and the same capabilities as the U-2?
    Secretary James. The requirement for high altitude intelligence, 
surveillance, and reconnaissance (ISR) capability is defined by the 
Joint Requirements Oversight Council; per the classified definition of 
conventional wartime high altitude ISR needs, either the U-2 or RQ-4 
can meet the requirements for Combat Air Patrols, with a narrow 
classified exception for the RQ-4. PACOM will receive less total ISR 
support than they do today, but still meet the validated requirement. 
Specific capability questions will be answered by the high altitude 
intelligence, surveillance, and reconnaissance briefing that will be 
provided by the Department of Defense (DOD) as directed by the Fiscal 
Year 2014 National Defense Authorization Act.
    The decision on the U-2 vs. the RQ-4 is based on the fact that over 
time we believe strongly that the RQ-4 will be more cost effective as 
we go forward the next 25-30 years.
    The Fiscal Year 2015 President's Budget request contains funding to 
modernize the RQ-4 Block 30 which provides targeted investments for 
improved operational reliability including improved adverse weather 
performance, compliance issues, key technical ``refreshes,'' and 
improvements to mission effectiveness including the migration of U-2 
sensor capabilities. At sequestration levels, migration of the U-2 
sensors becomes unaffordable. There will not be a one-for-one 
transition of U-2 capabilities to another platform but the reduction in 
any U-2 capabilities will be addressed across the whole of the DOD 
portfolio as well as accepting increased risk in certain areas.
    If the Air Force could afford to keep both the RQ-4 and the U-2, we 
would. However, that is not a viable option in the current budget 
environment. The Joint Staff and Air Force continue to assess the joint 
ISR portfolio to reach the optimal balance of resources in a fiscally 
constrained environment. With the remaining resources available to 
Joint Staff to respond to global events, the DOD remains flexible and 
prepared. We remain committed to maturing the RQ-4, space-based 
resources, and other ISR assets to assume the coverage that the U-2 
previously provided.
    Mr. LoBiondo. We know that the Chinese have been developing anti-
satellite technologies intended to counter our superiority in space. 
Platforms intended to replace the U-2 rely on satellite links both for 
guidance and for command and control.
    In a scenario where our space assets may be degraded will other 
platforms be able to provide the same critical intelligence support we 
now get from the U-2?
    Secretary James. Degradation of space support is a top concern of 
the Air Force. The Air Force, in conjunction with our Joint partners, 
will continue to utilize a well-planned combination of airborne, 
seaborne, terrestrial, and space assets that will deliver the 
intelligence, surveillance, and reconnaissance required for national 
decision-makers and warfighting commanders. Additional details can be 
provided at a higher classification if desired.
    Mr. LoBiondo. The National Defense Authorization Act for Fiscal 
Year 2007 prohibits the Air Force from retiring the U-2 Surveillance 
Aircraft until the ``Secretary of Defense certifies to Congress that 
the intelligence, surveillance, and reconnaissance capabilities 
provided by the U-2 aircraft no longer contribute to mitigating any 
gaps in intelligence, surveillance, and reconnaissance capabilities 
identified in the 2006 Quadrennial Defense Review.''
    If the FY15 budget submission effectively retires or begins the 
process to retire the U-2, have the conditions of the FY07 NDAA been 
met? More importantly, will the retirement of the U-2 result in ISR 
gaps in support to the warfighter?
    Secretary James. The Fiscal Year 2014 National Defense 
Authorization Act (NDAA) directs the Secretary of Defense, in 
coordination with the Chairman of the Joint Chiefs of Staff, to provide 
a high altitude intelligence, surveillance, and reconnaissance 
capabilities briefing to Congress. The classified briefing will address 
the Department's mitigation plans to intelligence, surveillance, and 
reconnaissance capability gaps across the whole of the DOD portfolio as 
well as accepting increased risk in certain areas. It is the Air 
Force's opinion that satisfaction of the 2014 NDAA also satisfies the 
2007 NDAA.
    Mr. LoBiondo. I understand the Global Hawk will be sustained in the 
FY15 budget request while the U-2 will be retired despite its continued 
high operations tempo and past support from the Air Force.
    Would you please elaborate on the rationale to retire the U-2 and 
whether we will lose any capability from this proposed action? Once 
this action is taken, will the Global Hawk be able to assume all the 
missions that the U-2 addresses today?
    Secretary James. Both the U-2 and the RQ-4 are retained at current 
capacity levels through FY15 as submitted in the FY15 President's 
Budget Request. The Air Force cannot afford to keep both the RQ-4 and 
the U-2 in the current budget environment. The lower operating cost of 
the RQ-4 Block 30, enabled by its greater endurance, became the primary 
consideration in the decision to retire the U-2. The Joint Requirements 
Oversights Council determined either the U-2 or the RQ-4 can meet the 
force structure requirement. As directed by the Fiscal Year 2014 
National Defense Authorization Act (NDAA), the Secretary of Defense 
will provide the high altitude Intelligence, Surveillance, and 
Reconnaissance (ISR) report that addresses mitigation plans for 
capability gaps. While there is not a one-for-one transition of U-2 
capabilities to another platform, the mitigation plans address 
capabilities across the whole of the DOD portfolio as well as accepting 
increased risk in certain areas.
    Mr. LoBiondo. If the Global Hawk is not currently capable of 
fulfilling the requirements leveed on the U-2, is there a plan that can 
bring it up to capability? How long will it take and how much will it 
cost? Once we make that investment will the Global have all of the 
capabilities of the U-2? Does that cost include upgrading he Global 
Hawk's communications architecture to allow it disseminate to greater 
quantity and higher quality of imagery produced by the SYERS-2 camera? 
Does that cost include upgrading he Global Hawk's ground process 
capability to allow for the full exploitation of the sensors that will 
need to migrate from the U-2 to the Global Hawk? Does that investment 
include the costs of providing a defensive suite to the Global Hawk 
that is comparable to the U-2? Does that cost include a de-icing 
capability that will allow the Global Hawk to fly in adverse weather 
conditions? Did any of the Combatant Commanders have input into the 
decision to retire the U-2s or offer their views? If so, what was their 
recommendation? If the U-2 is retired will we have any high-altitude 
surveillance and reconnaissance aircraft that can operate in an 
environment where satellite support, either communications or GPS, is 
denied through jamming or other means? If the decision to retire the U-
2 was, as has been described, based on reduced cost-per-flying hour 
estimates for the Global Hawk, have there been efforts to reduce the 
cost-per-flying hour of the more capable U-2? Are there changes that 
could be made to the depot maintenance schedule for the U-2 that would 
reduce its costs? Isn't there an effort to certify a new, less costly 
fuel for the U-2 that would also reduce its operating costs?
    Secretary James. The Fiscal Year 2015 President's Budget (PB) 
request invests $2.23B to modernize the RQ-4 Block 30 over the next ten 
years. These investments are intended to improve viability, reliability 
and sensor capability, to include migration of the U-2 sensor 
capabilities. The initial plan for U-2 sensor migration projects an 
initial operational capability being fielded in Fiscal Year 2019. The 
sensor transition program is estimated at less than $500M over the next 
10 years.
    The RQ-4 is currently capable of utilizing the same high bandwidth 
communications systems used by the U-2 flying the SYERS-2 camera. The 
Air Force continues to integrate and exploit intelligence, surveillance 
and reconnaissance weapons system sensors within AF Distributed Common 
Ground System (DCGS) processing, exploitations, and dissemination (PED) 
operations. RQ-4 platform modifications to support dissemination and 
exploitation of sensor data are included in the FY15 PB through sensor 
enhancements.
    While the U-2's defensive system allows the platform to survive in 
some contested environments, neither platform allows the Department of 
Defense to meet its long-term ISR strategy for operating in a contested 
environment; therefore no investment is planned to integrate a 
defensive system into the RQ-4.
    The FY15 PB funds improvements to RQ-4 Block 30 such as weather 
radar, ice shape testing, and engine upgrade investments with the 
intent to provide better weather tolerance for the airframe. An 
operational reliability study has not been accomplished to quantify the 
level of improvement based upon planned upgrades.
    Combatant Commanders were consulted during the Department's program 
budget review process. As General Welsh noted in previous HAC-D 
testimony in March 2014, ``ISR constitutes the No. 1 shortfall of the 
Combatant Commanders year after year and they (Combatant Commanders) 
would never support even more cuts than we already have in our budget 
proposal.'' However, the specific views and recommendations by each 
Combatant Command are held with OSD.
    The Fiscal Year 2014 National Defense Authorization Act directs the 
Secretary of Defense, in coordination with the Chairman of the Joint 
Chiefs of Staff to provide a high altitude intelligence, surveillance, 
and reconnaissance report to Congress. The classified report will 
address Air Force ISR operations in contested environments. The lower 
operating cost of the RQ-4 Global Hawk, as seen in the reduction to the 
cost per flight hour (CPFH), and its greater endurance became the 
primary rationale for retaining the RQ-4. Although upgrades to the 
Block 30 will cost more in the near-term versus keeping the U-2, the 
potential long-term cost savings provided a rational basis to retain 
the RQ-4. The Air Force continues to look for new and innovative ways 
to reduce costs for all programs. The U-2 program is pursuing cost 
reduction efforts by leveraging program efficiencies and smarter 
acquisition strategies to include efficient depot maintenance 
scheduling, fuel conversions, Contract Logistics Support (CLS) contract 
modifications, and sensor improvements. Both the U-2 and the RQ-4 are 
retained at current capacity levels through FY15 as submitted in the 
FY15 PB. The Air Force cannot retain duplicative capability in the 
current budget environment.
    Mr. LoBiondo. The EELV program has long faced scrutiny on the lack 
of transparency when it comes to the costs its sole-source provider 
charges the Government. To this point, the GAO recently issued a report 
stating that the DOD ``cannot determine an accurate price for a ULA 
launch.'' The report's primary author, Christina Chaplain, Director of 
Acquisition and Sourcing at the GAO, further stated at a Senate Defense 
Appropriations hearing recently that, even with significant efforts to 
improve insight, the Government still cannot link costs to specific 
missions, which comprise about 70 percent of the funds in the cost-plus 
``launch capability'' line item. How does the Air Force explain this? 
Wouldn't competition offer lower costs and result in fair and 
reasonable pricing--versus a sole source environment where, despite 
every effort, costs and pricing still cannot be fully determined?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. LoBiondo. Our national security strategy is now centered on 
what has been called the pivot to Asia. Given the importance of this 
region to U.S. interests I would think we would want to maintain the 
best possible intelligence collection capabilities in the theater. The 
FY2015 budget proposes to begin retiring the U-2 high altitude 
intelligence and reconnaissance aircraft and relying on other platforms 
to fulfill that mission.
    When the U-2 goes out of service will we still be able to fulfill 
all of the high altitude intelligence collection requirements we have 
in the Pacific? Will we be able to continue monitoring activities in 
North Korea without regard to weather conditions as we can now with the 
U-2? Will other assets provide the same sort of flexibility to react in 
a crisis and the same capabilities as the U-2?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. LoBiondo. We know that the Chinese have been developing anti-
satellite technologies intended to counter our superiority in space. 
Platforms intended to replace the U-2 rely on satellite links both for 
guidance and for command and control.
    In a scenario where our space assets may be degraded will other 
platforms be able to provide the same critical intelligence support we 
now get from the U-2?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. LoBiondo. The National Defense Authorization Act for Fiscal 
Year 2007 prohibits the Air Force from retiring the U-2 Surveillance 
Aircraft until the ``Secretary of Defense certifies to Congress that 
the intelligence, surveillance, and reconnaissance capabilities 
provided by the U-2 aircraft no longer contribute to mitigating any 
gaps in intelligence, surveillance, and reconnaissance capabilities 
identified in the 2006 Quadrennial Defense Review.''
    If the FY15 budget submission effectively retires or begins the 
process to retire the U-2, have the conditions of the FY07 NDAA been 
met? More importantly, will the retirement of the U-2 result in ISR 
gaps in support to the warfighter?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. LoBiondo. I understand the Global Hawk will be sustained in the 
FY15 budget request while the U-2 will be retired despite its continued 
high operations tempo and past support from the Air Force.
    Would you please elaborate on the rationale to retire the U-2 and 
whether we will lose any capability from this proposed action? Once 
this action is taken, will the Global Hawk be able to assume all the 
missions that the U-2 addresses today?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. LoBiondo. If the Global Hawk is not currently capable of 
fulfilling the requirements leveed on the U-2, is there a plan that can 
bring it up to capability? How long will it take and how much will it 
cost? Once we make that investment will the Global have all of the 
capabilities of the U-2? Does that cost include upgrading he Global 
Hawk's communications architecture to allow it disseminate to greater 
quantity and higher quality of imagery produced by the SYERS-2 camera? 
Does that cost include upgrading he Global Hawk's ground process 
capability to allow for the full exploitation of the sensors that will 
need to migrate from the U-2 to the Global Hawk? Does that investment 
include the costs of providing a defensive suite to the Global Hawk 
that is comparable to the U-2? Does that cost include a de-icing 
capability that will allow the Global Hawk to fly in adverse weather 
conditions? Did any of the Combatant Commanders have input into the 
decision to retire the U-2s or offer their views? If so, what was their 
recommendation? If the U-2 is retired will we have any high-altitude 
surveillance and reconnaissance aircraft that can operate in an 
environment where satellite support, either communications or GPS, is 
denied through jamming or other means? If the decision to retire the U-
2 was, as has been described, based on reduced cost-per-flying hour 
estimates for the Global Hawk, have there been efforts to reduce the 
cost-per-flying hour of the more capable U-2? Are there changes that 
could be made to the depot maintenance schedule for the U-2 that would 
reduce its costs? Isn't there an effort to certify a new, less costly 
fuel for the U-2 that would also reduce its operating costs?
    General Welsh. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP
    Mr. Bishop. Do you anticipate reducing the Minuteman III ICBM fleet 
of 450 missiles in FY15?
    Secretary James. The Air Force will maintain a total of 450 
operational Minuteman III ICBMs in deployed and non-deployed 
configurations. In order to meet the New START Treaty-compliant force 
structure announced by the Department of Defense in April 2014, the Air 
Force will transition 50 Minuteman III launch facilities from an 
operational deployed to an operational non-deployed status. This 
transition will be accomplished by placing 50 ICBM launchers into a 
non-deployed status by removing ICBMs from 50 silos across the force. 
The Air Force intends to begin this transition in Fiscal Year 2015.
    Mr. Bishop. Do you anticipate placing any of the land-based 
Minuteman III silos into ``warm'' status during FY15?
    Secretary James. Yes. In order to meet the New START Treaty-
compliant force structure announced by the Department of Defense in 
April 2014, the Air Force will transition 50 deployed Minuteman III 
silos to an operational non-deployed (``warm'') status by removing 
their ICBMs. The Air Force will spread these 50 non-deployed launch 
facilities across the ICBM force.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ROGERS
    Mr. Rogers. In my role as the subcommittee Chairman on Strategic 
Forces, I've come to fully appreciate the significant advantage our 
space capabilities bring to our warfighters. Would you say that 
adversaries have also recognized this advantage, and if so, are there 
countries that have weaponized or are in the process of weaponizing 
space with systems that threaten our capabilities?
    General Welsh. Yes, many countries, to include potential 
adversaries, recognize the strategic advantage the space domain 
provides in military operations and are currently fielding military 
satellites. Additionally, some countries have introduced a variety of 
counter-space capabilities such as testing ground-based anti-satellite 
systems. NASIC would welcome the opportunity to have an in-depth 
conversation on this issue with Chairman Rogers at the classified level 
if interested.
    Mr. Rogers. Are we committed to defending ourselves and our allies 
and making sure our adversaries know the consequences of attacking us 
in space?
    General Welsh. The Air Force understands the vital nature of our 
nation's space capabilities and is committed to assuring those 
capabilities. Consistent with National Space Policy, the Air Force is 
addressing how best to defend and improve the resilience of its 
critical space capabilities as threats emerge in the space domain. In 
2013, the Air Force published an update to its Air Force Space Policy. 
It implements the 2010 National Space Policy, the 2011 National 
Security Space Strategy, and the 2012 Department of Defense Space 
Policy. The policy recognizes that Air Force space capabilities are 
vital for the Department of Defense and the Air Force, as well as other 
U.S. government agencies, non-governmental and commercial users, 
civilians, and international partners. One of the principle goals in 
the policy is to protect space capabilities. The Air Force is committed 
to promoting the peaceful use of space, enhancing spaceflight safety 
and preserving the usability of the space domain. Per stated policy, 
the Air Force will:
    --Contribute to protection of U.S. space capabilities with a multi-
layered approach to determine purposeful interference and attacks on 
U.S. and allied space systems
    --Build military to military relationships to enhance collective 
security
    --Deny adversaries the benefits of aggression by enhancing the 
ability of the Air Force space capabilities to avoid, withstand, and 
recover from interference and attacks
    --Ensure Air Force air, cyberspace, and space forces can operate 
effectively when U.S. space-derived capabilities have been degraded
    --Maintain capabilities to rapidly detect, warn, and confidently 
attribute natural and man-made disturbances to U.S. space systems
    --Maintain a full scope of Air Force capabilities, not limited to 
space, to respond to an attack on U.S. or allied space systems.
    Mr. Rogers. Have we answered all the policy questions and made all 
the policy decisions to ensure the timely and effective defense of our 
national security space systems?
    General Welsh. U.S. and DOD policy is clear regarding the defense 
of our national security space systems. Specifically, the Secretary of 
Defense and the Director of National Intelligence are responsible for 
ensuring cost-effective survivability of space capabilities 
commensurate with their planned use, consequences of lost or degraded 
capability, the threat, and the availability of other means to 
accomplish the mission. The Air Force is working with the Office of the 
Secretary of Defense, other Services, the Joint Staff and the 
Intelligence Community to assess the second-order policy implications 
associated with written National and DOD Policy while addressing 
mission assurance needs and capability gaps across the Air Force's 
space mission portfolio as threats in the space domain grow. In 2013, 
the Air Force published an update to its Air Force Space Policy. The 
policy recognizes that Air Force space capabilities are vital for the 
Department of Defense and the Air Force, as well as other U.S. 
government agencies, non-governmental and commercial users, civilians, 
and international partners. One of the principle goals in the policy is 
to protect space capabilities. The Air Force is committed to promoting 
the peaceful use of space, enhancing spaceflight safety and preserving 
the usability of the space domain. Per stated policy, the Air Force 
will:
    --Contribute to protection of U.S. space capabilities with a multi-
layered approach to determine purposeful interference and attacks on 
U.S. and allied space systems
    --Build military to military relationships to enhance collective 
security
    --Deny adversaries the benefits of aggression by enhancing the 
ability of the Air Force space capabilities to avoid, withstand, and 
recover from interference and attacks
    --Ensure Air Force air, cyberspace, and space forces can operate 
effectively when U.S. space-derived capabilities have been degraded
    --Maintain capabilities to rapidly detect, warn, and confidently 
attribute natural and man-made disturbances to U.S. space systems
    --Maintain a full scope of Air Force capabilities, not limited to 
space, to respond to an attack on U.S. or allied space systems.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. Secretary James, the Air Force currently relies on the 
Russian RD-180 engine for the majority of its launches. Why do you 
continue to purchase engines from Russia when the United States already 
has significant and active domestic propulsion capabilities? Does the 
United States or its incumbent launch provider have requisite licensing 
approvals from the Russian Federation to manufacture the RD-180 
domestically? If so, how much would this cost?
    Secretary James. The Evolved Expendable Launch Vehicle (EELV) 
program was originally developed as a commercial program and the 
Government does not own the design of the launch vehicles. Foreign-
sourced engines were allowed. The Russian-made RD-180 engine was 
proposed by Lockheed Martin for Atlas V as part of the 1998 EELV 
competition. The use of the RD-180 was approved by the U.S. Government. 
The original 1998 plan was to co-produce the RD-180 in the U.S. to 
comply with policy regarding the use of Former Soviet Union (FSU) 
produced propulsion systems. An extension to the policy was granted in 
2002 by USD(AT&L) until 2008. In September 2007, the USD(AT&L) approved 
the Air Force plan to eliminate the requirement to co-produce the RD-
180 in the United States. One of the reasons this requirement was 
eliminated was the availability of the Delta IV family, powered by U.S. 
developed and produced engines, as well as the stockpile of RD-180 
engines.
    United Launch Alliance (ULA), acting through Pratt & Whitney and RD 
Amross, has a license until 2022 to produce RD-180 engines in the U.S. 
and is in discussions with NPO Energomash to increase the license 
period through 2030.
    The Air Force is reviewing the results of a recently completed RD-
180 Availability Risk Mitigation Study, which has also become known as 
the ``Mitchell Study.'' The study identified both a domestically 
produced RD-180 and an entirely new engine as potential mitigation 
options. The Department is evaluating these and other approaches to 
mitigating reliance on Russian space technology and has made no 
decisions at this point. Therefore, preliminary rough orders of 
magnitude have been internally drafted and reflect the stand-up of a 
full EELV new engine program being developed between five and eight 
years, and costing roughly $1.8B to $2.0B respectively (does not 
include any LV costs).
    A domestic RD-180 co-production would afford minimal cost and 
schedule savings over a new clean-sheet engine design. Minimal cost/
schedule savings is based on the lack of an existing U.S. technology 
base for RD-180-like technology. Co-production would require some level 
of RD-180 critical component technology demonstration prior to 
committing to full-scale production. Important tradeoffs to consider 
between a co-produced RD-180 and a new domestic engine are: 1) less 
design flexibility in reducing engine life cycle cost due to the high 
performance nature of the RD-180, 2) potential RD-180 end use 
restrictions, which may limit the type of future DOD missions the RD-
180 can support, and 3) the lack of U.S intellectual property rights as 
related to potential RD-180 future technology upgrades (NPO Energomash 
could stipulate that their technical oversight is required) and may 
have ITAR ramifications as well.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. Battlefield Airborne Communications Node (BACN) 
connects disparate voice and datalink networks to enhance situational 
awareness. As you know, in 2009 BACN was fielded to solve a Joint 
Urgent Operational Need for increased communications capabilities, 
including voice and data bridges across already fielded platforms. 
Since then, BACN systems have flown over 5,300 missions and over 58,600 
combat hours while maintaining a 98% mission reliability rate. In the 
Committee Report for the FY 2014 National Defense Authorization Act, 
this Committee urged the Air Force to transition BACN to a traditional 
program of record in fiscal year 2015. However, I understand that the 
Air Force plans to continue to fund BACN primarily through the Overseas 
Contingency Operations (OCO) account for the foreseeable future. As we 
wind down OCO funding it is vital that we don't lose the critical 
capabilities that BACN provides. Consequently, it is important to 
ensure that BACN transitions to a program of record to stabilize 
funding and ensure that BACN is leveraged to meet both current and 
future needs in several theaters, including the Asia-Pacific, where 
BACN could provide critical connectivity over an extended operational 
area, up to and including the Anti-Access/Area-Denial territories of 
potential near-peer adversaries.
    How does the Air Force plan to continue to leveraging the 
communications capabilities and situational awareness provided by BACN 
and when does the Air Force plan to transition BACN to a traditional 
program of record?
    Secretary James. The BACN capability remains a requirement for a 
high-altitude communications gateway. In addition, the capability and 
flexibility of BACN make it a possible key component of the Joint 
Aerial Layer Network (JALN) requirement for communications range 
extension and translation in a joint operations area.
    BACN as part of the JALN may provide valuable command, control, and 
communications capabilities during future Joint military operations. 
The Air Force plans to continue to operate BACN in Fiscal Year 2015 
(FY15) using supplemental Overseas Contingency Operations (OCO) 
funding. As OSD develops the JALN concept the BACN platforms will be 
considered as options for the foundation of an enduring capability that 
meets the specified requirements. The Air Force will continue to 
explore BACN and other platforms to aggregate voice and data but BACN 
funding beyond FY15 is contingent upon gaining relief from the fiscal 
constraints of the Budget Control Act.
    Ms. Tsongas. Battlefield Airborne Communications Node (BACN) 
connects disparate voice and datalink networks to enhance situational 
awareness. As you know, in 2009 BACN was fielded to solve a Joint 
Urgent Operational Need for increased communications capabilities, 
including voice and data bridges across already fielded platforms. 
Since then, BACN systems have flown over 5,300 missions and over 58,600 
combat hours while maintaining a 98% mission reliability rate. In the 
Committee Report for the FY 2014 National Defense Authorization Act, 
this Committee urged the Air Force to transition BACN to a traditional 
program of record in fiscal year 2015. However, I understand that the 
Air Force plans to continue to fund BACN primarily through the Overseas 
Contingency Operations (OCO) account for the foreseeable future. As we 
wind down OCO funding it is vital that we don't lose the critical 
capabilities that BACN provides. Consequently, it is important to 
ensure that BACN transitions to a program of record to stabilize 
funding and ensure that BACN is leveraged to meet both current and 
future needs in several theaters, including the Asia-Pacific, where 
BACN could provide critical connectivity over an extended operational 
area, up to and including the Anti-Access/Area-Denial territories of 
potential near-peer adversaries.
    How does the Air Force plan to continue to leveraging the 
communications capabilities and situational awareness provided by BACN 
and when does the Air Force plan to transition BACN to a traditional 
program of record?
    General Welsh. [The information was not available at the time of 
printing.]
    Ms. Tsongas. The National Defense Authorization Act for Fiscal Year 
2007 prohibits the Air Force from retiring the U-2 Surveillance 
Aircraft until the ``Secretary of Defense certifies to Congress that 
the intelligence, surveillance, and reconnaissance (ISR) capabilities 
provided by the U-2 aircraft no longer contribute to mitigating any 
gaps in intelligence, surveillance, and reconnaissance capabilities 
identified in the 2006 Quadrennial Defense Review.''
    If the FY15 budget submission effectively retires or begins the 
process to retire the U-2, have the conditions of the FY07 NDAA been 
met?
    More importantly, will the retirement of the U-2 result in ISR gaps 
in support to the warfighter?
    General Welsh. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. The Evolved Expendable Launch Vehicle program has been 
highlighted as a program where the Government lacks the leverage to 
negotiate lower costs since it only uses one provider--it is in a 
monopoly environment and, as the GAO has said, ``pays the price 
demanded.'' I understand that New Entrant launch services providers are 
coming online and will be certified this year, according to public 
statements from General William Shelton, Commander, U.S. Air Force 
Space Command. I understand that while the Air Force had a directive 
from the Secretary of Defense to ``aggressively reintroduce a 
competitive procurement environment'' for EELV, that the Air Force has 
recently delayed competition and cut the competitive mission 
opportunities by 50%? Why? Why is the Air Force not doing everything it 
can to achieve competition as quickly as possible?
    Secretary James. The GAO has more recently reported and re-stated 
in a Joint Senate space access hearing on 16 July that the Air Force 
corrected deficiencies in pricing knowledge and reduced the overall 
EELV budget by over $3B from initial proposal estimates in negotiations 
for the 36 core buy.
    While the Air Force originally planned for up to 14 competitive 
launches in FY15-FY17, Air Force Space Command operators' efforts to 
improve the on-orbit performance of our Global Positioning System (GPS) 
satellite constellation meant we could replenish those systems later 
than previously planned. This made it possible to respond to budget 
pressures by shifting the procurement of five GPS satellite launches 
outside the first phase of EELV procurements. Although this reduced the 
total number of competitive missions in FY15-FY17, the Air Force 
recovered more than $400 million for space launch across the Future 
Years Defense Program. The five shifted GPS missions will still be 
competed in future EELV procurements.
    In addition to the deferred GPS missions, two other missions are no 
longer available for competition. The AFSPC-8 mission was reallocated 
due to mission requirements. This satellite carries a mass uncertainty 
that exceeds projected Falcon 9 v1.1 launch capability. Per the 
Cooperative Research and Development Agreement (CRADA) signed between 
SpaceX and the Air Force, SpaceX is not pursuing certification to this 
orbit. The second, a Space-Based Infrared System Geosynchronous Earth 
Orbit (SBIRS-GEO) mission, was reallocated due to changes elsewhere in 
our manifest in order to meet our existing 36-core contractual 
requirement with United Launch Alliance. This contractual commitment 
enabled the Air Force to obtain significant near-term savings by taking 
advantage of economies of scale.
    The Air Force is committed to competition within the EELV program. 
We are aggressively taking steps to support competition while ensuring 
our responsibility to deploy National Security Space payloads into 
their orbits safely and with acceptable risk. We will compete portions 
of the launch manifest each year in 2015, 2016, and 2017 if there is 
even one New Entrant ready to compete; i.e., they have successful 
launches and have completed the required certification steps. We are 
working early with declared New Entrants to certify their systems as 
ready as evidenced by our CRADA with SpaceX and we have added 
government team resources to assure timely review of certification 
products, data and other supporting information throughout the 
certification process.
    Additionally, on July 15, 2014, the Air Force released a Request 
for Proposal to industry for the competitive procurement of a National 
Security Space mission to be launched in 2016. This is the first EELV 
competitive action in over a decade, and a significant milestone in the 
Air Force's efforts to bring competition into the EELV program, 
consistent with Under Secretary of Defense Frank Kendall's direction to 
``aggressively introduce a competitive procurement environment.'' 
Competition among certified launch providers will encourage innovation 
and continued cost savings, while ensuring the Air Force will continue 
its focus on mission success. The Air Force looks forward to awarding 
this contract to a qualified offeror, thus maximizing the efficiencies 
of Space Launch while working to retain strict adherence to quality and 
mission assurance standards. The Air Force has also requested a 
reprogramming action through the FY14 Omnibus Reprogramming Request to 
add an additional near-term competitive launch.
    Mr. Shuster. DOD pays the incumbent provider in the EELV program 
upwards of $1 billion per year as a measure of sustainment. The Air 
Force determined this subsidy was necessary since it only had one 
provider in the program and could not afford to let this company exit 
the industry. However, with the introduction of competition into the 
program this year, how, and when, does the Air Force plan to phase out 
this subsidy since it can achieve true assured access with multiple 
providers?
    Secretary James. We continue to fund EELV Launch Capability (ELC) 
to perform launch operations, maintain launch infrastructure (systems 
and expertise) and to provide the operational flexibility and cost 
predictability required to launch National Security Space (NSS) 
satellites. There still is only one launch provider in the U.S. who can 
lift the entire manifest for NSS, such as Wideband Global SATCOM, 
Advanced Extremely High Frequency, Mobile User Objective System (MUOS), 
and many classified payloads. Launch capability provides us the 
flexibility to meet mission requirements without continual Requests For 
Equitable Adjustments (REAs) or schedule penalties driven by Satellite 
Vehicle (SV) acquisition/development issues, integration delays, range 
delays, and SV build delays.
    The current contract with United Launch Alliance (ULA) includes ELC 
scope to support missions procured on previous contracts and the 
configurations procured in FY13-FY17. The costs are tracked carefully, 
and ULA is incentivized to reduce them while maintaining mission 
success. Only NSS missions procured through these contracts may be 
charged to it.
    The Department is developing the Acquisition Strategy for the next 
phase (FY18-FY22) of our long-term strategy. We have not yet decided on 
the most effective way to contract for this scope. Note the NROL-79 
Request for Proposal released on July 15, 2014 requires offerors to 
price all required scope (rocket hardware and capability) in their 
proposal.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. What is the total/all-inclusive cost of the land 
based ICBM program?
    Secretary James. The 10-Year Cost Estimate for the ICBM land based 
program is $19 billion; however, this does not include an additional 
$34.7 billion, 10-Year cost for the Nation's Nuclear Command and 
Control System (NCCS), which is an integral part of the land based 
deterrent. This additional $34.7B is a shared cost between all three 
legs of the nuclear triad.

                                           Table 1: ICBM Program Costs
                                         (then-year dollars in billions)
----------------------------------------------------------------------------------------------------------------
                                                       FY 2015-2019                  10-Year Cost Estimate
----------------------------------------------------------------------------------------------------------------
Minuteman III\1\                            $6.7                               $11.6
----------------------------------------------------------------------------------------------------------------
Follow-on ICBM                              AoA & Acquisition Planning         $6.0
----------------------------------------------------------------------------------------------------------------
ICBM Fuze Modernization                     $0.7                               $1.4
----------------------------------------------------------------------------------------------------------------
Total                                       $7.4                               $19.0
----------------------------------------------------------------------------------------------------------------
\1\ Includes ICBM Squadrons, Helicopter Support, and Demonstration/Validation.
REF: ``Fiscal Year 2015 Report on the Plan for the Nuclear Weapons Stockpile, Nuclear Weapons Complex, Nuclear
  Weapons Delivery Systems, and Nuclear Weapons Command and Control System Specified in Section 1043 of the
  National Defense Authorization Act for Fiscal Year 2012''


    Mr. Garamendi. The Air Force is now studying the next gen of ICBMs. 
What is the rationale for having the existing or future ICBM fleet--is 
this question a part of that study?
    Secretary James. The 2010 Nuclear Posture Review (NPR) affirmed the 
continued efficacy of a Triad of ICBMs, SLBMs and nuclear-capable heavy 
bombers in maintaining strategic stability and deterring nuclear attack 
against the U.S., our allies, and partners. The Triad's three legs 
offer a diverse set of attributes and capabilities that produce 
synergistic effects vital for central deterrence, extended deterrence, 
and assurance. Additionally, the Triad's balance of attributes provides 
the U.S. with highly effective risk mitigation against failure of a 
single warhead or delivery system, targeted adversary investment to 
counter one or more of the legs, or unpredictable changes in the 
strategic environment or technological developments.
    ICBMs, in particular, are highly stabilizing and responsive. The 
current ICBM basing mode complicates adversary targeting and creates an 
extraordinarily high threshold for attack or coercion. The high 
readiness posture of the ICBM force combined with the U.S.'s early 
warning and command and control capabilities maximizes Presidential 
decision time during times of crisis. Together, these attributes 
contribute to the maintenance of strategic stability by vastly 
minimizing conditions under which an adversary would favor pre-emption.
    Since the 2010 NPR initiated the examination of a Minuteman III 
follow-on study while re-validating the importance and necessity of the 
Triad, the Air Force did not include a ``no-ICBM'' scenario in its 
Ground Based Strategic Deterrent analysis.
    Mr. Garamendi. When was the most recent comprehensive review/study 
of the nuclear triad strategy? Given the tight budgets in the years 
ahead do you believe it is wise/useful to conduct such a review?
    Secretary James. The most recent, comprehensive review was 
conducted in 2011 when the President directed the Department of Defense 
(DOD), in consultation with other departments and agencies, to conduct 
in-depth analysis as a follow-on to the 2010 Nuclear Posture Review 
(NPR). The results of this review were submitted to the Congress 
pursuant to 10 U.S.C Section 491. The Air Force supports the DOD's 
position that it is prudent to periodically review our nuclear forces 
and strategy as circumstances dictate. These reviews provide force 
planners with an important opportunity to identify emerging problems in 
the nuclear portfolio and develop appropriate mitigation strategies, 
assess changes in geopolitical conditions and their impacts on nuclear 
forces, or to make adjustments that would enhance U.S. national 
security or that of our allies.
    Mr. Garamendi. If the NNSA budget was part of the DOD or AF budget 
what reductions/increases would you recommend?
    Secretary James. If given authority over some portion of the 
National Nuclear Security Administration's (NNSA) budget, the Air Force 
would work to strengthen focus and resources on programs providing 
direct support to the sustainment and modernization of the U.S. nuclear 
weapons stockpile. The Air Force would also support efforts to more 
effectively align NNSA programs with our efforts to recapitalize and 
modernize nuclear delivery platforms.
    Mr. Garamendi. What is the status of the new version of the LRSO? 
What is the total cost of the LRSO? What is the total projected cost of 
the LRS-B beyond of the FY 15 Budget? Could the LRSO serve the same 
fundamental purpose as the LRS-B and if not, why?
    Secretary James. The Long Range Stand Off (LRSO) weapon is the 
follow-on system to the nuclear armed Air Launched Cruise Missile 
(ALCM) AGM-86B, operational since 1986. The LRSO program has completed 
an Analysis of Alternatives (AoA) and is in the Materiel Solution 
Analysis Phase of the program's lifecycle. The FY15 President's Budget 
LRSO funding is outlined below.

                              LRSO FY15 PB
------------------------------------------------------------------------
    (TY$M)        FY15    FY16    FY17    FY18     FY19     Total (FYDP)
------------------------------------------------------------------------
LRSO            $4.9     $9.9    $19.8   $40.7   $144.9    $220.2
------------------------------------------------------------------------


    The FY15 PB funds Milestone A preparation activities to include 
concept refinement, risk reduction efforts, and acquisition strategy 
refinement. The cost of the missile program will continue to be refined 
during the Materiel Solution Analysis phase as the program works toward 
Milestone A. The funding profile for the Long Range Strike Bomber (LRS-
B) beyond the FY15 President's Budget is classified. The Average 
Procurement Unit Cost (APUC) is $550 million in base-year 2010 dollars 
and is applicable for a 100 aircraft procurement.
    The LRSO and LRS-B are both critical strike components of the Long 
Range Strike family of systems, which also includes Intelligence, 
Surveillance and Reconnaissance, electronic attack, communication and 
other capabilities. Despite upgrades, current bombers are increasingly 
at risk to modern air defenses. LRSO and LRS-B will provide 
complementary capabilities to provide the President with the option to 
hold any target at risk at any point on the globe.
    LRSO could not be used as a substitute for LRS-B. LRS-B's long 
range and significant broad mix of stand-off and direct-attack 
munitions payload, including LRSO, will provide operational flexibility 
to Joint commanders across the range of military operations. Initial 
LRS-B capability will be delivered in the mid-2020s, before the current 
fleet goes out of service.
    LRSO will replace the current Air Launched Cruise Missile (ALCM) 
and will be compatible with LRS-B, and the B-2 and B-52 to provide 
critical nuclear standoff capabilities.
    Mr. Garamendi. What is the total/all-inclusive cost of the land 
based ICBM program?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. Garamendi. The Air Force is now studying the next gen of ICBMs. 
What is the rationale for having the existing or future ICBM fleet--is 
this question apart of that study?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. Garamendi. When was the most recent comprehensive review/study 
of the nuclear triad strategy? Given the tight budgets in the years 
ahead do you believe it is wise/useful to conduct such a review?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. Garamendi. If the NNSA budget was part of the DOD or AF budget 
what reductions/increases would you recommend?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. Garamendi. What is the status of the new version of the LRSO? 
What is the total cost of the LRSO? What is the total projected cost of 
the LRS-B beyond of the FY 15 Budget? Could the LRSO serve the same 
fundamental purpose as the LRS-B and if not, why?
    General Welsh. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. The U.S. Air Force PB15 Force Structure applies a 
reduction of seven Compass Call aircraft at Davis-Monthan AFB in 2016. 
What are the reasons for the reduction of the Compass Call aircraft?
    Secretary James. Financial constraints imposed by the Budget 
Control Act and sequestration compelled the Air Force to reduce the 
Compass Call fleet.
    Mr. Conaway. How much money will be saved with the proposed 2016 
Compass Call fleet reduction?
    Secretary James. Savings will total $315.8 million.
    Mr. Conaway. What are the plans for the Compass Call fleet beyond 
2016?
    Secretary James. The Air Force will retain and operate eight 
aircraft.
    Mr. Conaway. If cuts to the Compass Call fleet occur, how does the 
Air Force intend to accomplish the Compass Call electronic warfare 
mission?
    Secretary James. To prepare for continuing the electronic warfare 
mission in the event fleet reductions are implemented, the Air Force is 
analyzing requirements and available capabilities via the Air 
Superiority and Global Precision Attack Core Function Support Teams.
    Mr. Conaway. Are there identified alternative platforms that 
deliver the same capability?
    Secretary James. The Air Force is currently in the process of 
assessing various aircraft replacement options.
    Mr. Conaway. Will the Compass Call fleet be retired prior to 
identifying a replacement platform if there is no alternative platform 
that can assume the Compass Call fleet mission?
    Secretary James. The Air Force will attempt to avoid any capability 
gaps. However, continued fiscal constraints as a result of 
sequestration will hinder the Air Force's ability to develop and field 
a replacement platform.
    Mr. Conaway. When will the results of the Analysis of Alternatives 
(AOA) to determine follow-on Compass Call capabilities be available for 
review?
    Secretary James. An AoA is currently under development; however it 
is too early to predict when the results may be available.
    Mr. Conaway. How long does the Air Force believe it will take to 
field follow-on a Compass Call capability?
    Secretary James. The Air Force will have a more definitive way 
ahead once the AoA is completed.
    Mr. Conaway. The U.S. Air Force PB15 Force Structure applies a 
reduction of seven Compass Call aircraft at Davis-Monthan AFB in 2016. 
What are the reasons for the reduction of the Compass Call aircraft? 
How much money will be saved with the proposed 2016 Compass Call fleet 
reduction? What are the plans for the Compass Call fleet beyond 2016? 
If cuts to the Compass Call fleet occur, how does the Air Force intend 
to accomplish the Compass Call electronic warfare mission? Are there 
identified alternative platforms that deliver the same capability? 5. 
Will the Compass Call fleet be retired prior to identifying a 
replacement platform if there is no alternative platform that can 
assume the Compass Call fleet mission? 6. When will the results of the 
Analysis of Alternatives (AOA) to determine follow-on Compass Call 
capabilities be available for review? 7. How long does the AF believe 
it will take to field follow-on Compass Call capability?
    General Welsh. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. JOHNSON
    Mr. Johnson. The Air Force is starting a major nuclear 
recapitalization, including new bombers, nuclear fighters, new nuclear 
cruise missiles, a tailkit for B61, and new ICBM's. Does the Air Force 
have a good understanding of the total costs? What are the top 
priorities for the Air Force, especially between B61 and LRSO?
    Secretary James. The Air Force has a sound understanding of the 
sustainment and modernization costs for Air Force nuclear delivery 
systems. In accordance with Section 1043 of the National Defense 
Authorization Act for Fiscal Year 2012, these costs were recently 
reported to the Congress in a report that accompanied the submission of 
the President's FY2015 budget request.

                (U) Sustainment and Modernization Costs for Air Force Nuclear Delivery Systems\1\
                                         (then-year dollars in billions)
----------------------------------------------------------------------------------------------------------------
                                                        FY 2015-2019\2\               10-Year Cost Estimate
----------------------------------------------------------------------------------------------------------------
ICBM
----------------------------------------------------------------------------------------------------------------
Minuteman III\3\                                $6.7                             $11.6
----------------------------------------------------------------------------------------------------------------
Follow-on ICBM\4\                               AoA & Acquisition Planning       $6.0
----------------------------------------------------------------------------------------------------------------
ICBM Fuze Modernization                         $0.7                             $1.4
----------------------------------------------------------------------------------------------------------------
Heavy Bombers                                   ...............................  ...............................
----------------------------------------------------------------------------------------------------------------
B-52H\5\                                        $7.3                             $13.1
----------------------------------------------------------------------------------------------------------------
B-2A\6\                                         $6.0                             $11.3
----------------------------------------------------------------------------------------------------------------
Long Range Strike-Bomber                        $11.4                            $33.1
----------------------------------------------------------------------------------------------------------------
ALCM                                            $0.3                             $0.6
----------------------------------------------------------------------------------------------------------------
LRSO missile                                    $0.2                             $2.8
----------------------------------------------------------------------------------------------------------------
B61-12 TKA                                      $1.2                             $1.3
----------------------------------------------------------------------------------------------------------------
Dual Capable Aircraft\7\                        $1.2                             $2.7
----------------------------------------------------------------------------------------------------------------
                                                ...............................  ...............................
----------------------------------------------------------------------------------------------------------------
Total\8\                                        $35.0                            $83.9
----------------------------------------------------------------------------------------------------------------
              Source: Section 1043 Report to Congress for Fiscal Year 2015, May 7, 2014
 
NOTE: Numbers may not add up due to rounding.
1. Estimated costs include RDT&E; procurement; operations and support; and personnel. DOD activities do not
  include overhead costs such as personnel assigned to higher headquarters who work on nuclear deterrence
  related issues.
2. DOD FYDP Fiscal Years 2015-2019.
3. Includes ICBM Squadrons, Helicopter Support, and Demonstration/Validation. Not included: Common Vertical Life
  Support Platform (program cancelled June 2013), MEECN, and ICBM-EMD.
4. The GBSD AoA cost through Milestone A is $27 million. Ten-year cost is ROM due to AoA activities.
5. Includes B-52 Active Squadrons and B-52 Reserve Squadrons
6. Includes B-2 Active Squadrons, B-2 Reserve Squadrons, and B-2 DMS
7. Includes operations and maintenance funding for the F-16C squadrons at Aviano Air Base, Italy, F-15E
  squadrons at RAF Lakenheath, UK, Nuclear Weapons Storage, and F-35 DCA RDT&E funds. Ten-year projection
  computed using inflation rates of 1.8% for MILPERS and 2.0% for other appropriations.
8. Costs shown may include NCCS integration costs.


    Recapitalization and modernization of the Air Force nuclear 
enterprise is essential to sustaining U.S. strategic and extended 
deterrence commitments in the decades to come. The ongoing B61 Life 
Extension Program and future Long-Range Standoff weapon (LRSO) programs 
are both critical to this effort. The first production unit (FPU) 
delivery date for the B61-12 is in 2020, and the FPU for LRSO is 
anticipated in the 2025-2027 timeframe. These weapon systems are 
distinct not only in their development and production schedules, but 
also in the operational capabilities they will offer. The B61-12 will 
provide a long-term gravity weapon capability for U.S. bomber and 
fighter aircraft, to include the F-35 and North Atlantic Treaty 
Organization dual-capable aircraft. The LRSO cruise missile will 
replace the aging Air-Launched Cruise Missile in providing the nation a 
credible standoff nuclear weapon capable of delivery from current and 
future bomber aircraft. Together, these programs will provide critical 
and complementary deterrence capabilities to the U.S. and our allies.
    Mr. Johnson. The Air Force is starting a major nuclear 
recapitalization, including new bombers, nuclear fighters, new nuclear 
cruise missiles, a tailkit for B61, and new ICBM's. Does the Air Force 
have a good understanding of the total costs? What are the top 
priorities for the Air Force, especially between B61 and LRSO?
    General Welsh. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. Air Force is responsible for integrating significant 
High Consequence Mission Critical (HCMC) IT Services and Solutions like 
Air And Space Operations Center Weapon System Integrator (AOC WSI LSI), 
and Distributed Common Ground Support System Sustainment Support 
(DCGS). The Air Force clearly understands that integrating programs 
like these is a daunting, complex, and challenging endeavor, and that 
distributing portions of such a projects to multiple lead systems 
integrators, significantly increases complexity, difficulty, and 
program risk. In fact, the Air Force demonstrated a clear understanding 
of this concept by designating Commander Air Combat Command (COMACC) as 
the Core Function Lead Integrator (CFLI) for Command and Control (C2) 
and Global Integrated Intelligence, Surveillance, and Reconnaissance 
(GIISR), vesting all system integrator responsibilities with a single, 
responsible integrator.
    NETCENTS II, when finally awarded, is a fine contract for commodity 
IT procurement, but fails to meet the necessary requirements of 
providing a single systems integrator for HCMC IT services and 
solutions procurement, even though the Air Force clearly demonstrates a 
thorough understanding of the requirement. The very nature of any 
multiple award ID/IQ contract increases the complexity, difficulty, and 
program risk. Will the Air Force consider conducting a single award ID/
IQ vehicle acquisition dedicated to HCMC IT procurement to come along 
side NETCENTS II as an effective way to overcome the multiple 
integrator issue?
    Secretary James. NETCENTS II is a highly flexible suite of 
contracts which serves as an enabling mechanism for the Air Force IT 
Enterprise transformation. These contracts allow procuring 
organizations to take advantage of IT consolidation efforts and the 
reuse of existing solutions. To support the AF transformation effort, 
NETCENTS II utilizes broadly written requirements at the basic contract 
level, which can be further constrained at the task order level, thus 
enabling the high consequence IT products and services. The Air Force 
opted to utilize a suite of contracts, each with a multiple-award ID/IQ 
contract structure to foster increased competition between vendors, 
reduce cost, and to provide procuring organizations a more focused 
field of competitors which specialize within the required IT domain. 
This solution further enables a more rapid acquisition of IT services 
and solutions, thereby reducing program risk. Within the NETCENTS suite 
of contracts, High Consequence IT requirements were captured and 
included in the Services contracts--NetOps and Infrastructure 
Solutions, and Application Services.
    In a prior response to a similar inquiry [CRR-FY14-AF High 
Consequence Information Technology Services, Dated: 12 Sep 13], the 
analysis demonstrated that NETCENTS II was fully capable of supporting 
a full range of HCMC IT services, although a mandatory use waiver 
process was outlined based on a business case and other mission needs. 
Indeed, NETCENTS II can support the full mission capability lifecycle 
from early systems engineering through development, test, operations, 
and sustainment, with mission assurance, security, and rigorous product 
specification for application services, infrastructure, and 
integration. The contractual vehicle supports not only Core Function 
Lead Integrator (CFLI) for Command and Control (C2) and Global 
Integrated Intelligence, Surveillance, and Reconnaissance (GIISR), but 
all Air Force CFLIs, and is not limited to commodity IT.
    The contract scope is consistent with 2008 NDAA Sec 802, and 
updates which further limit/prohibit the Lead System Integrator 
contracts. Competitive integration is a key element of NETCENTS II, 
combining both traditional military-industrial partners as well as 
commercial IT partners. Additionally, NETCENTS II is supportive of both 
on premise systems and use of secure cloud capabilities consistent with 
2010 Executive Direction and NDAA 2012, as appropriate, adding 
significant resiliency to the mission environment.
    The AOC WSI and DCGS programs agree that a single integrator will 
eliminate many integration issues and difficulties however this is on a 
program to program basis, and the waiver process may need to be used to 
provide a flexible acquisition strategy to meet specific program 
requirements.
    So while there exists a policy for waivers through the Air Force 
CIO and Air Force acquisition process, NETCENTS II can currently, and 
will in the future, support HCMC IT services and solutions procurement.
    Mr. Lamborn. Air Force is responsible for integrating significant 
High Consequence Mission Critical (HCMC) IT Services and Solutions like 
Air And Space Operations Center Weapon System Integrator (AOC WSI LSI), 
and Distributed Common Ground Support System Sustainment Support 
(DCGS). The Air Force clearly understands that integrating programs 
like these is a daunting, complex, and challenging endeavor, and that 
distributing portions of such a projects to multiple lead systems 
integrators, significantly increases complexity, difficulty, and 
program risk. In fact, the Air Force demonstrated a clear understanding 
of this concept by designating Commander Air Combat Command (COMACC) as 
the Core Function Lead Integrator (CFLI) for Command and Control (C2) 
and Global Integrated Intelligence, Surveillance, and Reconnaissance 
(GIISR), vesting all system integrator responsibilities with a single, 
responsible integrator.
    NETCENTS II, when finally awarded, is a fine contract for commodity 
IT procurement, but fails to meet the necessary requirements of 
providing a single systems integrator for HCMC IT services and 
solutions procurement, even though the Air Force clearly demonstrates a 
thorough understanding of the requirement. The very nature of any 
multiple award ID/IQ contract increases the complexity, difficulty, and 
program risk. Will the Air Force consider conducting a single award ID/
IQ vehicle acquisition dedicated to HCMC IT procurement to come along 
side NETCENTS II as an effective way to overcome the multiple 
integrator issue?
    General Welsh. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BARBER
    Mr. Barber. If the Air Force completely divests of the A-10, which 
platform will become the next premier close air support aircraft?
    Secretary James. The Air Force will have a number of multi-role 
platforms capable of performing Close Air Support (CAS) if the A-10 is 
divested. Certain Air Force squadrons of different platforms will be 
tasked with CAS as a primary mission and thus specialize in CAS. Other 
squadrons will have CAS as a secondary mission. These platforms include 
F-15E, F-16, MQ-1/9, B-1, B-52, AC-130, and eventually F-35.
    This fleet of multi-mission, CAS-capable platforms will ensure the 
Combatant Commanders maintain the flexibility required to provide CAS 
when needed in their areas of responsibility.
    Mr. Barber. In making its FY15 budget, has the Air Force considered 
Ground Commanders' inputs on the capabilities needed to best support 
troops on the ground when they request close air support? If the Air 
Force has considered Ground Commanders' inputs on CAS, then what are 
those considerations and what platform best supports that mission?
    Secretary James. The Air Force Fiscal Year 2015 budget includes 
Ground Commanders' considerations into the support ground troops need. 
The Air Force studied the future requirements of the ground component 
commanders as approved in the theater OPLANS. We've determined there 
are sufficient aircraft capable of providing Close Air Support (CAS). 
Factors that led to our conclusion included: 1) the type and number of 
potential targets, 2) the nature of the future enemy ground force and 
3) the future threat environment for the air and ground components to 
operate in. These factors indicate that multiple capabilities are 
necessary to conduct the CAS mission and provide effective support to 
ground forces. Furthermore, it was concluded that no single platform 
best supports the CAS mission when these factors are taken into 
account. The Air Component Commander retains flexible options to employ 
the best platform for the effects that are requested by the ground 
commander.
    Mr. Barber. What is the percentage of all CAS missions in Iraq and 
Afghanistan that the A-10 has executed from 2003 to 2013? What is the 
percentage of monetary costs associated with A-10 CAS missions during 
this same time period compared to all other CAS fixed-wing platforms?
    Secretary James. The Air Force previously submitted a report on 
``Close Air Support Requirements'' to the Congressional Defense 
Committees in March 2014, which shows that A-10 aircraft executed 19 
percent of all CAS missions flown by U.S. airframes from 2006 thru 
October 2013. Data prior to 2006 was not available for this analysis. 
Pre-2006 data was tracked via a different method, which makes direct 
comparisons to post-2006 data difficult.
    The report has an overall classification of SECRET//NOFORN and 
therefore cannot be reproduced in its entirety here, however, the Air 
Force would be happy to forward a copy through appropriate channels 
upon request.
    It is difficult to accurately convert the ``missions'' metric from 
the report into monetary costs. It is important to note that mission 
count does not equate to sortie count, or a specific number of flying 
hours. The Air Force utilizes a cost per flying hour to determine 
airframe expense, which does not directly correlate to particular 
missions flown. For example, fighters (A-10, F-16) typically fly a CAS 
mission with two or more aircraft, whereas other CAS-capable aircraft 
(AC-130, B-52) typically fly CAS missions with a single aircraft, and 
will have to travel different distances to conduct their operations.
    Because of these factors, the Air Force cannot accurately convert 
current mission percentage to a definitive cost comparison between 
airframes and mission set at this time.
    Mr. Barber. If the Air Force divests of the A-10s are, what is the 
plan for the force structure that supports the A-10?
    Secretary James. In the event that the Air Force divests the A-10, 
the force structure supporting the A-10 will be re-allocated to other 
mission support areas based on prioritized requirements to improve 
overall force readiness. This includes the plan to move over 700 
maintenance positions to support the F-35. The Air Force will organize, 
train and equip its remaining multi-role aircraft to minimize the 
impact created by restricted funding to the missions best suited to 
meet current and future operational requirements. Force structure 
changes will align with the Defense Strategic Guidance, will balance 
across the active, reserve, and guard components within the current 
fiscal constraints, maximizing the balance between capability, capacity 
and readiness of the Air Force.
    Mr. Barber. How much money will the United States Air Force save in 
divestment of the A-10? Please enumerate the specific savings the Air 
Force believes it will achieve and the specific programs and contracts 
affected with the vertical divestment of the A-10.
    Secretary James. By divesting the A-10, the Air Force expects to 
save $4.3 billion across the Future Years Defense Plan. These savings 
are maximized through ``vertical divestment'' of the entire fleet of A-
10. Fleet divestiture eliminates fixed costs that cannot be notably 
reduced when only part of the fleet is divested. Fixed cost include, 
but are not limited to, training (formal training unit [FTU], weapons 
instructor course [WIC], simulators, tech pubs, etc.) and weapons 
system sustainment infrastructure (sustaining engineering/support, 
pipeline spares, depot tooling and test equipment, etc.), as well as, 
nonrecurring hardware and software design, development and test (mods, 
OFP updates, tech orders, obsolescence, etc.) and new weapons 
integration.
    Mr. Barber. If the Air Force begins to retire the A-10 in Fiscal 
Year 2015 and units and infrastructure shut down, how much will it cost 
the Air Force in each fiscal year, beginning with FY15, to fully divest 
the A-10?
    Secretary James. The costs associated with divesting the A-10 are 
comprised primarily of induction into the Aerospace Maintenance and 
Regeneration Group for retirement preparation and storage:

 
----------------------------------------------------------------------------------------------------------------
      FY15 ($M)              FY16               FY17              FY18              FY19              FYDP
----------------------------------------------------------------------------------------------------------------
3.7                   1.9                0.8                1.7               1.7               9.8
----------------------------------------------------------------------------------------------------------------


    The Air Force's Fiscal Year 2015 Total Force Proposal was developed 
to minimize costs and leverages existing infrastructure and personnel 
training/expertise at bases losing A-10s and transitioning to other 
aircraft. Consequently, any additional facility and personnel costs at 
these units will be minimal and are accounted for in normal operating 
budgets.
    Mr. Barber. If the Air Force divests the A-10 in Fiscal Year 2015 
and Fiscal Year 2016, what infrastructure changes has the Air Force 
considered in order to move different missions and platforms to bases 
that would lose the A-10 mission?
    Secretary James. The following timeline illustrates the Air Force's 
A-10 retirement plan along with planned backfills:

[GRAPHIC] [TIFF OMITTED] 


    .epsStarting in Fiscal Year 2015 (FY15), the Air Force will begin 
retiring overseas-based active duty A-10s as well as aircraft based at 
Moody Air Force Base (AFB) (GA), Davis-Monthan AFB (AZ), Nellis AFB 
(NV), and Eglin AFB (FL). The Air National Guard squadron at Boise (ID) 
will form a Classic Association with the F-15E squadron at Mountain 
Home AFB. The remaining active duty A-10s at Moody AFB and Davis-
Monthan AFB will be retired in FY16. As part of the Air Force plan to 
retire Air Reserve Component (ARC) A-10s in the latter half of the 
Future Years Defense Plan (FYDP), the aircraft at Selfridge (MI) Air 
National Guard Base (ANGB) will be replaced by eight KC-135 aircraft in 
FY17. Whiteman (MO) Air Reserve Base (ARB) and Martin State (MD) ANGB 
A-10s will be replaced by 18 F-16 Block 40s and eight C-130Js, 
respectively, in FY18. The reserve unit at Davis-Monthan AFB and Ft 
Wayne ANGB will gain 18 F-16 Block 40s each once their A-10s are 
retired in FY19.
    Mr. Barber. What are the proposed numbers and specific positions 
that will be cut at Davis Monthan AFB from Fiscal Years 2015-2019 if 
the Air Force divests of the A-10 mission? Has the Air Force done an 
analysis of how communities surrounding the installations, including 
Davis Monthan AFB, that house A-10 missions will be affected should 
divestment occur?
    Secretary James. The FY15 President's Budget identified a projected 
total force manpower reduction associated with the A-10 divestment at 
Davis Monthan of approximately -700 authorizations from FY14-FY15 
ramping to a total of approximately -2100 billets by FY19. The attached 
table summarizes the projected draw-down of A-10 positions by Air Force 
Specialty Code title.
    [The table referred to can be found in the Appendix on page 102.]
    Representatives from Air Force Air Combat Command, whose purview 
Davis-Monthan AFB falls under, participated in the development of the 
Air Force's Fiscal Year 2015 (FY15) Program Objective Memorandum (POM) 
and would take into account any potential impacts to the community 
around the base as a result of A-10 retirements. In light of the 
budgetary environment the Air Force was forced to operate in, our FY15 
budget represents the best attempt at balancing economic interests with 
operational requirements while adhering to strict fiscal guidelines.
    Mr. Barber. Davis-Monthan Air Force Base has critical capabilities 
that many bases cannot offer including proximity to training ranges, 
abundant flying weather, and large runways. If A-10s are divested, how 
does the Air Force plan on sustaining flight operations at Davis 
Monthan AFB in order to maintain its ability to support future 
missions? What future missions does the Air Force envision placing at 
Davis Monthan AFB? What is the expected timeline for placing these 
missions?
    Secretary James. Despite our intention to retire the A-10s at 
Davis-Monthan AFB, the base will remain an integral part of the Air 
Force's ability to support Combatant Commander airpower requirements. 
To this end, the departing A-10s will be replaced by a number of F-16s 
in Fiscal Year 2019.
    Mr. Barber. Has the Air Force planned any infrastructure changes at 
Davis Monthan AFB between the potential divestment of the A-10 and the 
placing of future missions, in order to prevent a gap in operations?
    Secretary James. Despite our intention to retire the A-10s at 
Davis-Monthan AFB, the base will remain an integral part of the Air 
Force's ability to support Combatant Commander airpower requirements. 
To this end, the departing A-10s will be replaced by a number of F-16s 
in Fiscal Year 2019.
    Mr. Barber. What are the Air Force's plans between Fiscal Years 
2015-2019 for the F-16s currently based at Luke Air Force Base once the 
new squadrons of the F-35 have been fielded and delivered to the base?
    Secretary James. There are currently 96 Primary Aircraft 
Authorization (PAA) F-16s based at Luke AFB. Between April and 
September 2014, 25 of these aircraft will move to Holloman AFB. During 
the April-September 2015 period, another 25 aircraft will move to 
Holloman AFB bringing that base's total to 50 PAA F-16s (Luke will then 
have 46 PAA) by October 2015.
    Of the remaining F-16s at Luke AFB, 20 are Block 25 and 26 are 
Block 42. The Block 25 aircraft are expected to remain at Luke AFB 
until they reach their expected operational life beginning in FY20, at 
which time they will be retired. The Block 42 aircraft are expected to 
remain at Luke AFB well beyond 2019. The facilities and ramps vacated 
by the aircraft moving to Holloman AFB will provide room for up to five 
squadrons of F-35s at Luke AFB.
    Mr. Barber. The Air Force has testified that in Afghanistan and 
Iraq faster-flying fighters and heavy bombers have provided 80 percent 
of the close air support mission. How has the Air Force come to this 
percentage? What is the exact breakdown by date, air frame, and flight 
time of each close air support mission during the war in Afghanistan?
    Secretary James. The Air Force cited the percentage in a previous 
report on ``Close Air Support Requirements'' submitted to the 
Congressional Defense Committees in March 2014. This report provides 
the most current and detailed analysis of Iraq and Afghanistan CAS 
missions. The citation comes from a chart posted on subpage 8 of 15. 
USCENTCOM provided the AOR mission data for this report.
    The report has an overall classification of SECRET//NOFORN and 
therefore cannot be reproduced in its entirety here, however, the Air 
Force would be happy to forward a copy through appropriate channels 
upon request.
    The USCENTCOM data used in the report does not contain the level of 
detail required to break down Afghanistan CAS missions by date, 
airframe and flight time. Additional time would be required to 
determine if USCENTCOM has data of sufficient detail to answer this 
request.
    Mr. Barber. What is the comparison between an A-10 weapons payload 
that supports close air support (CAS) and other platforms' weapons 
payloads that support CAS?
    General Welsh. Combat payloads options are fairly similar for most 
fighter aircraft. Key fighter similarities and differences are listed 
in the example below. Bomber aircraft have much higher capacity of bomb 
munitions, but do not have rocket or gun capabilities. Remotely piloted 
aircraft payloads are limited to 500 pound class bombs and missiles, 
but do not carry rocket or guns.
    Fighter CAS payload example:
    Bombs Key similarities: F-16, F-15E, A-10 all carry 500 and 2000 
pound class precision (GBU10/12/38/31 series) and no-precision 
munitions (MK82/84 series), as well as cluster bomb munitions CBU-103/
4/5)
    Key differences: F-16 and F-15E capable of carrying Small Diameter 
Bomb version 1 F-15E capable of carrying Small Diameter Bomb version 2 
A-10 while capable, has not been integrated with these weapons at this 
time
    Rockets F-16, A-10: M151 (High Explosive) rockets, M156 (white 
phosphorous) marking rockets, Maverick missile
    F-15E: no rocket or Maverick missile capability
    Guns A-10: 1150 rounds of 30MM (High Explosive or Armor Penetrating 
or mix of the two) F-16: 510 Rounds of 20MM (High Explosive or Semi 
Armor Piercing) F-15E: 940 rounds of 20MM (High Explosive or Semi Armor 
Piercing)
    Other A-10: LUU system of illumination flares; illuminate an area 
in both normal & infrared spectrums
    Mr. Barber. What is the percentage of all CAS missions in Iraq and 
Afghanistan that the A-10 has executed from 2003 to 2013? What is the 
percentage of monetary costs associated with A-10 CAS missions during 
this same time period compared to all other CAS fixed-wing platforms?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. Barber. Can the A-10 perform Forward Air Controller-Airborne 
(FAC-A), Combat Search and Rescue (CSAR) and Strike Coordination and 
Reconnaissance (SCAR) missions?
    General Welsh. Yes. The A-10 has FAC-A and CSAR as primary 
missions, while SCAR is a secondary mission.
    Mr. Barber. If the Air Force divests the A-10 in Fiscal Year 2015 
and Fiscal Year 2016, what infrastructure changes has the Air Force 
considered in order to move different missions and platforms to bases 
that would lose the A-10 mission?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. Barber. What are the proposed numbers and specific positions 
that will be cut at Davis Monthan AFB from Fiscal Years 2015-2019 if 
the Air Force divests of the A-10 mission? Has the Air Force done an 
analysis of how communities surrounding the installations, including 
Davis Monthan AFB, that house A-10 missions will be affected should 
divestment occur?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. Barber. Should the Air Force divest of the A-10, what plan is 
in place for utilizing the expertise and experience of A-10 pilots, 
including their CAS experience and institutional knowledge?
    General Welsh. The specifics of the A-10 divestiture manning plan 
are still being developed. However, the draft framework being 
considered consists of re-assigning A-10 pilots based upon three 
experience levels.

 
----------------------------------------------------------------------------------------------------------------
                A-10 Experience Level                             Likely Post A-10 Assignment Vector
----------------------------------------------------------------------------------------------------------------
Inexperienced (<500 hours in                          New RegAF A-10 pilots will possibly PCS to ANG/AFRC A-10
A-10)                                                  unit until experienced (> 500hrs in A-10). Otherwise they
                                                       will likely be re-trained in another fighter system (F-15/
                                                       16/22)
 
Experienced but less than 1st Flying Gate complete    Another flying assignment. This assignment may include
 (<8 years in flying assignments)                      another fighter platform or instructing new pilots in
                                                       various flying training programs, depending upon the
                                                       needs of the AF
 
Experienced and 1st Flying Gate complete (>8 years    Another flying assignment. However, if no other flying
 in flying assignments)                                positions are open after all less experienced A-10 pilots
                                                       are accounted for, these experienced officers will likely
                                                       use their CAS knowledge to develop policy and war plans
                                                       on our severely undermanned fighter staffs.
----------------------------------------------------------------------------------------------------------------


    Mr. Barber. Davis-Monthan Air Force Base has critical capabilities 
that many bases cannot offer including proximity to training ranges, 
abundant flying weather, and large runways. If A-10s are divested, how 
does the Air Force plan on sustaining flight operations at Davis 
Monthan AFB in order to maintain its ability to support future 
missions? What future missions does the Air Force envision placing at 
Davis Monthan AFB? What is the expected timeline for placing these 
missions?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. Barber. What are the Air Force's plans between Fiscal Years 
2015-2019 for the F-16s currently based at Luke Air Force Base once the 
new squadrons of the F-35 have been fielded and delivered to the base?
    General Welsh. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. FLEMING
    Dr. Fleming. The Air Force eliminated the 917th Air Force Reserve 
Fighter Group, twenty-four A-10s at Barksdale Air Force Base. A BRAC 
round put these A-10s at Barksdale to support a number of missions, 
including Green Flag Exercises at Fort Polk. As I examined the A-10 
decision, it became clear that there was no coordination between the 
Army and the Air Force when that decision was made. The Air Force 
Reserves will likely increase the number of Reserve equipped squadrons, 
with F-16s fighters. Will the Air Force consider installations that 
lost Reserve fighter wings in FY14 when it ``pluses up'' Reserve wings 
with F-16s? That is, will the Air Force look at Barksdale Air Force 
Base to backfill the A-10s with an F-16 or future F-35, to replace the 
A-10, considering the type of joint support Barksdale provides, for 
example at Green Flag East? Is Air Force coordinating with Army in 
making these decisions?
    Secretary James. The Air Force historically determines the most 
operationally effective and fiscally efficient posturing of its assets 
during the development of our annual program and budget. Therefore, the 
establishment of a new flying mission at Barksdale AFB may be 
considered in the years to come. However, the Budget Control Act (BCA) 
and sequestration hampers the Air Force's ability to distribute 
resources in a manner posing the least risk to our warfighting 
capabilities. Reverting to strict BCA funding caps in Fiscal Year 2016 
and beyond will further hinder the Air Force's ability to replace force 
structure, and compel us to divest additional capabilities and 
potentially leading to more unit deactivations.
    While there is no formal coordination of force structure movements 
between the Military Services, the Army has been aware of the Air 
Force's decision to retire the A-10 and was briefed on this action on 
multiple occasions. We will notify the Army in similar fashion if and 
when the Air Force decides to establish a follow-on mission at 
Barksdale AFB.
    Dr. Fleming. Given the priority that the Air force places on the 
nuclear mission, please explain why the highest level of oversight, a 
four-star general, is not responsible for overseeing our most lethal 
and important weapon and deterrent capability. What value could be 
provided to U.S. Strategic Command with the component leadership of a 
four-star general over Air Force nuclear operations?
    General Welsh. On May 28, 2014, Air Force Secretary James and I 
announced that we have recommended to the Secretary of Defense to 
elevate the Air Force Global Strike Command position to a four-star 
general, from its current three-star rank. As the Air Force is at the 
maximum statutory authorization for four-star generals, we recognize we 
will need to identify a compensatory four-star command for downgrade to 
allow the position of Commander, Air Force Global Strike Command to be 
upgraded from O-9 to O-10. The Secretary and I are actively discussing 
which four-star command will be recommended for downgrade. Once the 
command is identified, we will develop a timeline and prepare a 
nomination package for Senate consideration.
    Dr. Fleming. I understand that the FY14 Air Force Weapons Storage 
Area Report is complete. In it, the Air Force discusses its WSA 
recapitalization program. The 2008 Schlesinger Report established that 
the closure of the Barksdale Air Force Base WSA was a mistake that was 
based solely on cost and that incurs strategic risk. Does the Air 
Force's timeframe for completing the recapitalization program factor in 
the deterrent capability provided by an additional operational WSA for 
nuclear-armed Air-Launched Cruise Missiles (ALCMs)?
    General Welsh. The Air Force has developed a WSA Recapitalization 
Plan that will ensure ALCM operational requirements are maintained 
during the construction of new Weapons Storage Facilities (WSF). Under 
this plan, a WSF will be constructed at Barksdale AFB prior to the 
construction of one at Minot AFB, ensuring mission capability is 
preserved.
    Dr. Fleming. Did the WSA Report consider the potential cost savings 
of utilizing advanced security surveillance technologies, thus cutting 
down on personnel costs? Are remote monitoring systems that are nuclear 
certified available to the Air Force?
    General Welsh. As part of the WSA recapitalization initiative, the 
Air Force intends to leverage advanced technologies that have the 
potential to reduce personnel requirements and their associated costs. 
Personnel requirements will be determined as part of the design and 
certification process. A number of remote detection, assessment, and 
denial systems are already being successfully employed today across our 
WSAs.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MAFFEI
    Mr. Maffei. Secretary James and General Welsh, in a budget 
constrained environment I believe that it is incumbent upon each of us 
to ensure that every system is as affordable and efficient as possible. 
Each service can no longer afford to purchase unique solutions that are 
similar, but only slightly different to what other branches may already 
have.
    I understand that both the Army and the Air Force are in the 
process of procuring single mission ground radars. Meanwhile, the 
Marine Corps are developing a multi-mission radar called Ground/Air 
Task Oriented Radar (G/ATOR) which was just approved for Milestone C 
and has been approved by the Joint Requirements Oversight Council 
(JROC).
    As you know, there was language in the Senate Defense 
Appropriations Committee reports for the FY2012 and 2014 that 
recommended the Air Force and Army minimize redundancy and maximize 
platform commonality while pursuing procurement of new ground radar 
solutions to reduce development and life-cycle costs. Similarly, both 
the House and Senate Armed Services Committees have included report 
language in the past that encouraged the Services to look at reducing 
redundancy in ground radar programs.
    There has been over $500 million invested in the flexible, 
scalable, multi-mission Marine Corp's G/ATOR program. I understand that 
if the Air Force chooses to procure a G/ATOR variant for its Three 
Dimensional Long Range Radar (3DELRR) program that it could generate 
significant cost-savings at a lower risk and an accelerated schedule. 
Additionally, I believe that this option could further yield savings to 
the tax payer by lowering the per unit cost to the Marines for each G/
ATOR unit. How is Air Force incorporating this past congressional 
guidance encouraging commonality and reducing redundancy into its 
3DELRR competition and how does it intend to leverage the significant 
progress that has been made in G/ATOR to date towards it needs?
    Secretary James. The Air Force has incorporated past Congressional 
guidance by inviting the G/ATOR vendor to participate in the 
competition. However, because the initial Marine Corps radar 
requirements did not meet Air Force requirements, the JROC approved 
separate Air Force long range radar requirements. The Air Force 
surveyed industry and determined only three vendors could fulfill the 
Air Force requirements. All three were invited to compete, including 
the G/ATOR vendor. Source selection started in January 2014, and the 
results are expected by the end of September 2014. The Air Force 
anticipated the inclusion of the G/ATOR vendor in the competition would 
yield multiple acquisition benefits including capitalizing on previous 
DOD G/ATOR research and development investment. 3DELRR is also an OSD 
Defense Exportability Features pilot program, incorporating export 
design features to reduce production, operation, and sustainment costs 
in the long term. Additionally, the Air Force and Marine Corps program 
offices cooperated for many years on 3DELRR requirements, development 
and testing to enhance the 3DELRR program. 3DELRR remains an option for 
the Marine Corps to replace its long range TPS-59 radar, sometime after 
2020.
    Mr. Maffei. Secretary James and General Welsh, in a budget 
constrained environment I believe that it is incumbent upon each of us 
to ensure that every system is as affordable and efficient as possible. 
Each service can no longer afford to purchase unique solutions that are 
similar, but only slightly different to what other branches may already 
have.
    I understand that both the Army and the Air Force are in the 
process of procuring single mission ground radars. Meanwhile, the 
Marine Corps are developing a multi-mission radar called Ground/Air 
Task Oriented Radar (G/ATOR) which was just approved for Milestone C 
and has been approved by the Joint Requirements Oversight Council 
(JROC).
    As you know, there was language in the Senate Defense 
Appropriations Committee reports for the FY2012 and 2014 that 
recommended the Air Force and Army minimize redundancy and maximize 
platform commonality while pursuing procurement of new ground radar 
solutions to reduce development and life-cycle costs. Similarly, both 
the House and Senate Armed Services Committees have included report 
language in the past that encouraged the Services to look at reducing 
redundancy in ground radar programs.
    There has been over $500 million invested in the flexible, 
scalable, multi-mission Marine Corp's G/ATOR program. I understand that 
if the Air Force chooses to procure a G/ATOR variant for its Three 
Dimensional Long Range Radar (3DELRR) program that it could generate 
significant cost-savings at a lower risk and an accelerated schedule. 
Additionally, I believe that this option could further yield savings to 
the tax payer by lowering the per unit cost to the Marines for each G/
ATOR unit. How is Air Force incorporating this past congressional 
guidance encouraging commonality and reducing redundancy into its 
3DELRR competition and how does it intend to leverage the significant 
progress that has been made in G/ATOR to date towards it needs?
    General Welsh. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PETERS
    Mr. Peters. The FY15 budget included a significant investment in 
next-generation jet engine technology development. How does the Air 
Force envision the scope of the project moving forward and what does it 
means for industry? Will the technology build on the existing F-135 
engine or be a brand new engine? When does the Air Force expect to 
down-select to one competitor?
    Secretary James. The Air Force has invested in adaptive engine 
technologies through the Adaptive Versatile Engine Technology (ADVENT) 
effort (FY07 to FY13) and the Adaptive Engine Technology Development 
(AETD) effort (FY12 to FY16). The acquisition strategy for the new 
engine technology is still in development; however, the Air Force is 
working to maintain competition as long as possible in this follow-on 
effort. If DOD is held to sequestration levels for FY16-FY19, there 
will be no funds for the next generation engine technology program.
    All future aircraft engines are likely to benefit from technologies 
proven through this program. In addition, the anticipated fuel savings 
could free-up funds for the Air Force to invest in the modernization of 
other Air Force warfighter capabilities. The next generation engine 
program, a follow-on to AETD, will further mature adaptive engine 
technologies through extensive ground testing to facilitate integration 
and flight testing. The emphasis is on proving advanced component and 
subsystem maturity prior to incorporation into major systems.
    The Air Force is now in the process of developing the acquisition 
approach, so specific program titles, goals, and milestones are yet to 
be defined. However, the next generation engine program has an 
objective of reducing specific fuel consumption by 25% and improving 
range by 30%, which will be game-changing for the Department's 
capability to operate in anti-access/area-denial environments. The 
program will increase performance, durability, and efficiency in jet 
engines and bolster the nation's engine industrial base for the future.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. The savings projection cited from retiring the A-10C's 
is $3.7 billion, yet it is acknowledged that the A-10 is the most 
affordable combat aircraft per flying hour. Has the cost premium from 
flying other CAS capable aircraft been factored in to the projected 
savings? There is also a cost differential when considering the 
munitions employed by different aircraft. The F-16 other aircraft 
typically have higher munitions costs associated with their use than 
the A-10. Additionally, please detail the impact of additional contract 
termination costs, new training costs associated with transitioning 
pilots to CAS missions, and other factors associated with the A-10's 
that would mitigate the projected savings from retiring the A-10 fleet.
    Secretary James. The FY15 budget constraints forced difficult 
decisions regarding overall fighter force capacity and capability. The 
decision to divest the A-10 was based on prioritizing new capability 
and readiness above near-term risk in capacity, to ensure a more 
capable and ready force for 2023 and beyond. Subsequently, the Air 
Force is pursuing investments in capabilities the Air Force uniquely 
provides to the joint force and the Nation, such as global, long range, 
multi-role platforms capable of operating in highly contested 
environments against a determined, well-armed, and well-trained 
adversary. Under current fiscal constraints imposed by Budget Control 
Act (BCA), the Air Force cannot afford to retain a single-mission 
tactical aircraft with limited capabilities in such an environment. 
Furthermore, several other Air Force platforms, including the F-15E, F-
16, B-1 and B-52, are capable of conducting the CAS mission and have 
successfully performed CAS missions in combat over the past 12 years.
    Additional data and analysis will be provided to the congressional 
defense committees in a classified setting.
    Mr. Scott. The savings projection cited from retiring the A-10C's 
is $3.7 billion, yet it is acknowledged that the A-10 is the most 
affordable combat aircraft per flying hour. Has the cost premium from 
flying other CAS capable aircraft been factored in to the projected 
savings? There is also a cost differential when considering the 
munitions employed by different aircraft. The F-16 other aircraft 
typically have higher munitions costs associated with their use than 
the A-10. Additionally, please detail the impact of additional contract 
termination costs, new training costs associated with transitioning 
pilots to CAS missions, and other factors associated with the A-10's 
that would mitigate the projected savings from retiring the A-10 fleet.
    General Welsh. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BROOKS
    Mr. Brooks. There has been a lot of discussion recently about the 
Air Force's decision to retire its A-10 aircraft, the service's primary 
close air support (CAS) platform. It seems to me that an efficient way 
to counter the increased risk associated with divesting the A-10 would 
be to arm other fixed-wing aircraft like the F-16, the F-15E, B-1s and 
AFSOC platforms with the most precise missiles and guided munitions 
available.
    General Welsh, I understand that the United Kingdom developed, with 
U.S. and UK suppliers, a Dual Mode Brimstone (DMB) missile which the UK 
has used extensively on Royal Air Force Tornado G4 fighter aircraft in 
combat CAS operations over Afghanistan and Libya. The fully developed 
DMB is being offered to the U.S. for consideration on multiple U.S. 
Navy and U.S. Air Force platforms.
    In the critical CAS environments in which the USAF will operate do 
you see the DMB missile as a valuable addition to the weapons array 
needed by Air Force F-16s, F-15Es, B-1s and AFSOC for those CAS 
missions?
    General Welsh. Over the last few years, the Air Force has closely 
monitored and evaluated the Dual Mode Brimstone missile. We agree the 
weapon's performance in combat is excellent. However, the Air Force is 
committed to SDB-II because it has a Tri-Mode Seeker, greater stand-off 
distance, can be employed in bad weather, defeats moving targets, and 
costs less. The Air Force believes SDB-II provides greater operational 
capability and flexibility.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. VEASEY
    Mr. Veasey. General Welsh, our pivot to Asia in our national 
security strategy will be an important focus of this committee. This is 
a critical region to U.S. interests and clearly we want to maintain the 
best possible intelligence collection capabilities in this theater. The 
FY2015 budget proposes to begin retiring the U-2 high altitude 
intelligence and reconnaissance aircraft and relying on other platforms 
to fulfill that mission.
    When the U-2 goes out of service will we still be able to fulfill 
all of the high altitude intelligence collection requirements we have 
in the Pacific?
    Will we be able to continue monitoring activities in North Korea 
without regard to weather conditions as we can now with the U-2?
    Will other assets provide the same sort of flexibility to react in 
a crisis and the same capabilities as the U-2?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. Veasey. General Welsh, the National Defense Authorization Act 
for Fiscal Year 2007 prohibits the Air Force from retiring the U-2 
Surveillance Aircraft until the ``Secretary of Defense certifies to 
Congress that the intelligence, surveillance, and reconnaissance 
capabilities provided by the U-2 aircraft no longer contribute to 
mitigating any gaps in intelligence, surveillance, and reconnaissance 
capabilities identified in the 2006 Quadrennial Defense Review.'' If 
the FY15 budget submission effectively retires or begins the process to 
retire the U-2, have the conditions of the FY07 NDAA been met? More 
importantly, will the retirement of the U-2 result in ISR gaps in 
support to the warfighter?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. Veasey. General Welsh and Secretary James, did any of the 
Combatant Commanders have input into the decision to retire the U-2s or 
offer their views? If so, what was their recommendation?
    General Welsh. During the Office of Secretary of Defense (OSD)-led 
FY15 Program Budget Review process, each Combatant Commander was 
consulted and had an opportunity to offer their respective views to the 
Secretary of Defense on the OSD decision to retire the U-2 in FY16. As 
General Welsh noted in previous HAC-D testimony in March 2014, ``ISR 
constitutes the No. 1 shortfall of the Combatant Commanders year after 
year and they (Combatant Commanders) would never support even more cuts 
than we already have in our budget proposal.'' However, the specific 
views and recommendations by each Combatant Command are held with OSD.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. WALORSKI
    Mrs. Walorski. The Aerial Refueling mission is an integral part of 
U.S. airpower, significantly expanding deployment, employment, and 
redeployment options available by increasing the range, payload, and 
flexibility of our air forces.
    Given the Air Force Commission's recent recommendation that the Air 
Force ``entrust as many missions as possible to its Reserve Component 
forces,'' which will result in significant cost savings, can you speak 
to how you will meet air refueling requirements from Combatant 
Commanders and the 2013 National Defense Strategy, and specifically 
what role Reserve forces do play and will play in this important 
mission? In 2016 and beyond, will the much-needed KC-46 be quickly and 
equally integrated into Reserve forces along with Active forces?
    Secretary James. The Aerial Refueling mission has a long history of 
significant Reserve Component (RC) participation. Today's force mix 
ratio--where the Active Component (AC) provides forces at a 1:2 deploy-
to dwell ratio supported by the RC using a mix of volunteerism and 
mobilization on a 1:5 mobilization-to-dwell ratio--ensures the Air 
Force meets the global air refueling requirements as directed by 
Combatant Commanders and the 2013 National Defense Strategy. Given 
current funding levels, the Air Force expects both the AC and RC air 
refueling forces to maintain readiness and capability. However, 
reverting to strict Budget Control Act funding caps in Fiscal Year 2016 
and beyond will hinder our ability to use the RC at its current 
operational tempo.
    The RC has been involved in the KC-46A program since day one and 
the Air Force is pursuing concurrent fielding of the KC-46 across all 
components. Additionally, the Air Force is committed to establishing 
active/reserve associations at all CONUS main operating bases to 
include the Formal Training Unit. Classic Associations with Air Force 
Reserve Command are programmed for Altus AFB and McConnell AFB, while 
an Active Association with the Guard is planned for Pease ANGB.
    Mrs. Walorski. The Aerial Refueling mission is an integral part of 
U.S. airpower, significantly expanding deployment, employment, and 
redeployment options available by increasing the range, payload, and 
flexibility of our air forces.
    Given the Air Force Commission's recent recommendation that the Air 
Force ``entrust as many missions as possible to its Reserve Component 
forces,'' which will result in significant cost savings, can you speak 
to how you will meet air refueling requirements from Combatant 
Commanders and the 2013 National Defense Strategy, and specifically 
what role Reserve forces do play and will play in this important 
mission? In 2016 and beyond, will the much-needed KC-46 be quickly and 
equally integrated into Reserve forces along with Active forces?
    General Welsh. [The information was not available at the time of 
printing.]

                                  <all>
</pre></body></html>
